<html>
<title> - A REVIEW OF AERONAUTICS R&D AT FAA AND NASA</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                      A REVIEW OF AERONAUTICS R&D
                            AT FAA AND NASA

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 6, 2003

                               __________

                            Serial No. 108-5

                               __________

            Printed for the use of the Committee on Science


     Available via the World Wide Web: http://www.house.gov/science

                                 ______

                     U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003

85-418PS

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001


                          COMMITTEE ON SCIENCE

             HON. SHERWOOD L. BOEHLERT, New York, Chairman
LAMAR S. SMITH, Texas                RALPH M. HALL, Texas
CURT WELDON, Pennsylvania            BART GORDON, Tennessee
DANA ROHRABACHER, California         JERRY F. COSTELLO, Illinois
JOE BARTON, Texas                    EDDIE BERNICE JOHNSON, Texas
KEN CALVERT, California              LYNN C. WOOLSEY, California
NICK SMITH, Michigan                 NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         JOHN B. LARSON, Connecticut
VERNON J. EHLERS, Michigan           MARK UDALL, Colorado
GIL GUTKNECHT, Minnesota             DAVID WU, Oregon
GEORGE R. NETHERCUTT, JR.,           MICHAEL M. HONDA, California
    Washington                       CHRIS BELL, Texas
FRANK D. LUCAS, Oklahoma             BRAD MILLER, North Carolina
JUDY BIGGERT, Illinois               LINCOLN DAVIS, Tennessee
WAYNE T. GILCHREST, Maryland         SHEILA JACKSON LEE, Texas
W. TODD AKIN, Missouri               ZOE LOFGREN, California
TIMOTHY V. JOHNSON, Illinois         BRAD SHERMAN, California
MELISSA A. HART, Pennsylvania        BRIAN BAIRD, Washington
JOHN SULLIVAN, Oklahoma              DENNIS MOORE, Kansas
J. RANDY FORBES, Virginia            ANTHONY D. WEINER, New York
PHIL GINGREY, Georgia                JIM MATHESON, Utah
ROB BISHOP, Utah                     DENNIS A. CARDOZA, California
MICHAEL C. BURGESS, Texas            VACANCY
JO BONNER, Alabama
TOM FEENEY, Florida
VACANCY
                                 ------                                

                 Subcommittee on Space and Aeronautics

                 DANA ROHRABACHER, California, Chairman
LAMAR S. SMITH, Texas                BART GORDON, Tennessee
CURT WELDON, Pennsylvania            JOHN B. LARSON, Connecticut
JOE BARTON, Texas                    CHRIS BELL, Texas
KEN CALVERT, California              NICK LAMPSON, Texas
ROSCOE G. BARTLETT, Maryland         MARK UDALL, Colorado
GEORGE R. NETHERCUTT, JR.,           DAVID WU, Oregon
    Washington                       EDDIE BERNICE JOHNSON, Texas
FRANK D. LUCAS, Oklahoma             SHEILA JACKSON LEE, Texas
JOHN SULLIVAN, Oklahoma              BRAD SHERMAN, California
J. RANDY FORBES, Virginia            DENNIS MOORE, Kansas
ROB BISHOP, Utah                     ANTHONY D. WEINER, New York
MICHAEL BURGESS, Texas               VACANCY
JO BONNER, Alabama                   RALPH M. HALL, Texas
TOM FEENEY, Florida
SHERWOOD L. BOEHLERT, New York
                BILL ADKINS Subcommittee Staff Director
                 ED FEDDEMAN Professional Staff Member
              RUBEN VAN MITCHELL Professional Staff Member
                 CHRIS SHANK Professional Staff Member
         RICHARD OBERMANN Democratic Professional Staff Member
                      TOM HAMMOND Staff Assistant



                            C O N T E N T S

                             March 6, 2003

                                                                   Page
Hearing Charter..................................................     2

                           Opening Statements

Statement by Representative Dana Rohrabacher, Chairman, 
  Subcommittee on Space and Aeronautics, Committee on Science, 
  U.S. House of Representatives..................................     9
    Written Statement............................................    10

Statement by Representative David Wu, Subcommittee on Space and 
  Aeronautics, Committee on Science, U.S. House of 
  Representatives................................................    10

                               Witnesses

Jeremiah F. Creedon, Associate Administrator for Aerospace 
  Technology, National Aeronautics and Space Administration 
  (NASA)
    Oral Statement...............................................    11
    Written Statement............................................    13

Charlie Keegan, Associate Administrator for Research and 
  Acquisitions, Federal Aviation Administration (FAA)
    Oral Statement...............................................    17
    Written Statement............................................    18

R. John Hansman, Jr., Professor of Aeronautics and Astronautics; 
  Director, MIT International Center for Air Transportation, 
  Massachusetts Institute of Technology
    Oral Statement...............................................    21
    Written Statement............................................    22

Malcolm B. Armstrong, Senior Vice President, Aviation Operations 
  and Safety, Air Transport Association
    Oral Statement...............................................    28
    Written Statement............................................    29

Discussion
  Rotorcraft R&D at NASA.........................................    31
  Constraints in the National Airspace System....................    34
  En Route Sectors...............................................    35
  Runway Construction............................................    36
  Aircraft Emissions.............................................    37
  Aeronautics Research Projects at FAA & NASA....................    37
  Research Prioritization at NASA................................    38
  Aeronautics R&D Budget.........................................    39
  Trends in Basic Research.......................................    40
  Aircraft Emissions.............................................    43
  Wide Area Augmentation System..................................    44
  Research Investment Trends.....................................    46
  Aeronautics Blueprint..........................................    47
  Math & Science Education.......................................    47
  Regional Jets..................................................    48
  Small Aircraft Transportation System...........................    48
  Shuttle Accident Investigation.................................    50
  Airport Improvement Program R&D................................    51
  Unmanned Aerial Vehicles.......................................    51

             Appendix 1: Answers to Post-Hearing Questions

Jeremiah F. Creedon, Associate Administrator for Aerospace 
  Technology, National Aeronautics and Space Administration 
  (NASA).........................................................    56

Charlie Keegan, Associate Administrator for Research and 
  Acquisitions, Federal Aviation Administration (FAA)............    65

R. John Hansman, Jr., Professor of Aeronautics and Astronautics; 
  Director, MIT International Center for Air Transportation, 
  Massachusetts Institute of Technology..........................    70

Malcolm B. Armstrong, Senior Vice President, Aviation Operations 
  and Safety, Air Transport Association..........................    74

             Appendix 2: Additional Material for the Record

Letter to Dr. Jeremiah Creedon from Charles E. Keegan, March 5, 
  2003...........................................................    78

Letter of Response to Charles E. Keegan from J.F. Creedon, March 
  24, 2003.......................................................    79

Flight Plan to 2020 and Beyond...................................    80


              A REVIEW OF AERONAUTICS R&D AT FAA AND NASA

                              ----------                              


                        THURSDAY, MARCH 6, 2003

                  House of Representatives,
             Subcommittee on Space and Aeronautics,
                                      Committee on Science,
                                                    Washington, DC.

    The Subcommittee met, pursuant to call, at 10:08 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Dana 
Rohrabacher [Chairman of the Subcommittee] presiding.
                            hearing charter

                 SUBCOMMITTEE ON SPACE AND AERONAUTICS

                          COMMITTEE ON SCIENCE

                     U.S. HOUSE OF REPRESENTATIVES

                      A Review of Aeronautics R&D

                            at FAA and NASA

                        thursday, march 6, 2003
                         10:00 a.m.-12:00 p.m.
                   2318 rayburn house office building

1. Purpose of Hearing

    On Thursday, March 6, 2003, at 10:00 a.m., in room 2318 Rayburn 
House Office Building, the Subcommittee on Space and Aeronautics will 
hold a hearing on the Fiscal Year 2004 budget request for aeronautics 
research and development programs at the Federal Aviation 
Administration (FAA) and National Aeronautics and Space Administration 
(NASA). The hearing will explore each agency's strategic plan for 
aeronautics research, how well their plans align with their budget 
request and industry needs, and the coordination of research activities 
between FAA and NASA.

2. Major Issues

Decline in aeronautics research and development spending in the face of 
looming industry challenges. Between FY 1998 and FY 2003, NASA cut 
aeronautics research by half. Even though the FY 2004 NASA budget 
request reflects a one percent increase in aeronautics technology 
funding compared to FY 2003, over the next five years, funding will be 
reduced by four percent (without accounting for inflation). FAA funding 
has also been reduced. The FY 2004 request is $279.0 million, about a 
five percent reduction from the previous year.
    U.S. aerospace industries are highly reliant on technologies 
enabled by NASA--and to a lesser extent by FAA--research. Aerospace 
business markets today make it difficult for companies to invest huge 
sums in high-risk, long-term R&D activities. The consequences of 
insufficient research and development investment are already being felt 
in several ways. Key issues include the following:

        <bullet> LAviation Gridlock. Beginning in the late 1990s, and 
        especially during the summer of 2000, our nation's air traffic 
        control infrastructure was unable to accommodate growth in 
        traffic demand. As a result, commercial air carriers routinely 
        suffered from system delays caused by congestion along busy 
        airway corridors and lack of capacity at many of the larger hub 
        airports to land or takeoff. Traffic declined following the 
        September 2001 terror attacks, but is expected to resume an 
        annual growth rate of 3.8 percent.

        <bullet> LEroding U.S. Share in International Aerospace 
        Markets. Our country's sole domestic producer of large civil 
        aircraft (Boeing) faces fierce competition from the European 
        manufacturer, Airbus, for sales of large civil aircraft. For 
        the first time ever, Airbus won 50 percent of new aircraft 
        orders during 2002.

        <bullet> LElimination of Rotorcraft R&D. Rotorcraft continue to 
        serve many important civil and military markets here and 
        abroad, yet much research remains to be done to make them 
        quieter, more robust, and more efficient. In FY 2003, NASA 
        proposed elimination of rotorcraft research and did so again in 
        the FY 2004.

        <bullet> LNoise and Emissions Reduction. The future success of 
        commercial civil aerospace products will rely heavily on 
        developing quieter and less polluting aircraft. International 
        standards setting organizations, and particularly some European 
        countries, are proposing noise and emissions reductions 
        requirements to meet environmental concerns. NASA proposes 
        augmenting its Quiet Aircraft Technology program in the FY 2004 
        budget to meet this challenge. The goal is to accelerate the 
        development and transfer of technologies to reduce perceived 
        noise by half by 2007 compared to a 1997 baseline.

FAA's Research and Development Funding Structure. FAA's R&D is 
principally funded through its Research, Engineering and Development 
(R,E&D) account. Over the last several years, however, FAA has migrated 
a number of R,E&D activities into other operational accounts, making it 
difficult to get clear insight into FAA's aeronautics research and 
development programs.

FAA/NASA Collaborations--Joint Program Office. FAA and NASA are 
increasingly collaborating on research and development for next-
generation airspace management and vehicle systems technologies. They 
are in the formative stages of creating a Joint Program Office (JPO)\1\ 
to design and develop technologies to enhance capacity, safety, and 
efficiency of our National Airspace System. While the creation of the 
JPO is a clear sign that these issues are receiving greater attention, 
the cultures and missions of FAA and NASA are very different, so it 
will require significant and sustained commitment from all involved for 
it to succeed. Specifically, FAA is an operational agency primarily 
focused on safely and efficiently directing aircraft. In contrast, NASA 
is a research and development agency that--with respect to 
aeronautics--is not burdened by the same urgency confronting FAA to 
constantly maintain safe operations. NASA scientists and engineers 
perform remarkable research, but it may take them years to develop an 
operationally suitable technology for FAA to evaluate. Bridging these 
two divides has--in the past--proven difficult.
---------------------------------------------------------------------------
    \1\ FAA and NASA have invited DOD, DOT, the Department of Homeland 
Security, and the Department of Commerce to join this effort.

Effects of Full Cost Accounting at NASA. For the first time, NASA 
submitted its budget in full cost accounting. This means that all 
direct and indirect costs, such as institutional support, are in the 
same budget line, giving the appearance that its aeronautics budget 
nearly doubled over last year. NASA's aeronautics program is actually 
increased by only $10 million or one percent, and is projected to 
shrink by four percent over the next five years. While full cost 
accounting may reflect the true cost of programs, concerns have been 
raised that implementation of full cost accounting for NASA-owned 
facilities such as wind tunnels and engine test stands may result in 
much higher rental fees to outside researchers. If costs are too high, 
researchers may choose to use wind tunnels in other countries, 
jeopardizing the security of their research findings.

3. Background

    Since the late 1940's, aerospace has been a major source of high 
paying jobs that has created and sustained a variety of other high 
technologies. Aerospace is the largest source of exports (measured by 
dollars) for the United States. Over the last two decades market 
forces, international competition, and industry consolidations have 
reduced the number of domestic large civil airframe manufacturers\2\ to 
just one: the Boeing Company. The number of domestic manufacturers of 
turbine power plants has been reduced to two: (Pratt and Whitney; 
General Electric). There is no domestic manufacturer of regional jets, 
the largest growth segment in our domestic commercial aviation system 
today.
---------------------------------------------------------------------------
    \2\ While Boeing is the only domestic supplier of large civil 
aircraft, there are multiple domestic suppliers for military and 
general aviation aircraft.
---------------------------------------------------------------------------
    On November 18, 2002, the Congressionally-chartered Commission on 
the Future of the United States Aerospace Industry produced its final 
report.\3\ The Commission raised a number of issues about the ability 
of domestic companies to maintain primacy in aerospace markets 
worldwide. Specifically, the Commission is concerned that the decline 
in federal aeronautics research spending, and the lack of coordination 
among executive and legislative entities that control investment 
strategy, will undermine U.S. dominance in the aerospace industry.
---------------------------------------------------------------------------
    \3\ The full Science Committee has scheduled a hearing on the 
Commission's Final Report for Wednesday, March 12, at 2:00 p.m. The 
Report can be found at www.aerospacecommission.gov/.
---------------------------------------------------------------------------
    The Commission also cited growing efforts by foreign governments to 
develop aerospace capabilities through subsidization of product 
development and sales costs. In particular, the Commission highlighted 
the European Union's ``Aeronautics 2020'' program that seeks to 
coordinate the research and manufacture of European-produced aerospace 
products among its member states. The program also sets specific 
market-share targets for European-produced civil and military aerospace 
products in world markets, and the development of a European designed 
and manufactured air traffic management system.

4. Federal Aviation Administration Research and Development

    FAA's overall mission is to provide ``. . .a safe, secure, and 
efficient global aerospace system that contributes to national security 
and the promotion of U.S. aerospace safety.'' It achieves these goals 
by regulating the design, development and operation of aircraft flown 
in U.S. airspace, and by managing the National Airspace System (NAS) 
through a nationwide network of air traffic control facilities. For FY 
2004, FAA proposes to spend just over $14 billion to perform these 
missions.
    FAA proposes to spend $279.0 million on research and development, 
about two percent of the agency's $14 billion budget. R&D supports 
three strategic goals:

        <bullet> LSafety: By 2007, reduce U.S. aviation fatal accident 
        rates by 80 percent from 1996 levels.

        <bullet> LSystem Efficiency: Provide an aerospace 
        transportation system that meets the needs of users and is 
        efficient in the application of FAA and aerospace resources.

        <bullet> LEnvironment: Prevent, minimize and mitigate 
        environmental impacts, which may represent the single greatest 
        challenge to the continued growth and prosperity of civil 
        aerospace.

    FAA funds R&D to achieve these goals in three accounts: Research, 
Engineering and Development; Airport Improvement Program; and the 
Facilities and Equipment Program.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    FAA's national research laboratories are located at the William J. 
Hughes Technical Center, Atlantic City, NJ.

5. National Aeronautics and Space Administration--Aeronautics R&D

    NASA's Aeronautics Technology Research and Development program is 
funded through the Office of Aerospace Technology account. The mission 
of this program is to perform R&D to enable a safer, more secure, 
environmentally friendly and efficient air transportation system, 
increase the performance of military aircraft, and develop new uses for 
science for commercial missions. Through partnerships with the Defense 
Department and FAA, NASA conducts research to enhance the security of 
the National Airspace System. Research areas include advanced 
propulsion technologies, lightweight high-strength adaptable 
structures, adaptive controls, advanced vehicle designs, and 
collaborative design and development tools. As indicated earlier, NASA 
is collaborating with FAA in a Joint Program Office to address air 
traffic management technologies.
    Aeronautics R&D funding has been cut by one-half since FY 1998. The 
FY 2004 budget request essentially flat-funds the program for this year 
and projects a four percent decrease over five years. As reflected in 
the budget table in the appendix, the Aeronautics Technology budget has 
three major R&D activities. They are:

        <bullet> LAviation Safety and Security: Aviation Safety and 
        Security is aimed at research and technologies that will 
        improve vehicle safety, weather forecasting and display tools, 
        system safety technologies, and aviation security technologies. 
        Examples include developing ``refuse to crash'' aircraft; 
        synthetic vision; and improving human/machine integration in 
        design, operations, and maintenance.

        <bullet> LAirspace Systems: Airspace Systems is focused on 
        developing system and software tools to enable major increases 
        in the capacity and mobility of the air transportation system 
        for operations and vehicle systems. Examples include the Small 
        Air Transportation Systems (SATS) program to permit all-weather 
        operations by non-commercial aircraft at untowered fields; the 
        Virtual Airspace and Modeling Simulation (VAMS) program to give 
        researchers a computer-generated ``virtual'' environment to 
        test new air traffic control concepts and procedures; and a new 
        initiative for FY 2004, the NASA Exploratory Technologies for 
        the National Airspace System (NExTNAS), to conduct assessments 
        of distributed air/ground traffic management concepts.

        <bullet> LVehicle Systems: Vehicle Systems research focuses on 
        developing technologies for future aircraft and air vehicles 
        that, if implemented, will reduce NO<greek-KH> emission to 
        reduce pollution near airports and in the lower atmospheric 
        zone, reduce emissions of the greenhouse gas CO<INF>2</INF>, 
        and reduce aircraft noise. NASA also conducts longer-term 
        research on technologies for next generation vehicles through 
        this activity.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        

New Initiatives--NASA Aeronautics:

    NASA's FY 2004 budget request includes three new initiatives within 
Aeronautics Technology. They are:

        <bullet> LAviation Security: NASA proposes to spend $21 million 
        for FY 2004; $225 million over five years (funded through the 
        Aviation Safety and Security Program) to help reduce the 
        vulnerability of aviation to terrorist and criminal acts.

        <bullet> LNational Airspace System Transition: NASA proposes to 
        spend $27 million for FY 2004; $100 million over five years 
        (funded through the Airspace Systems Program) on technologies 
        for a next-generation National Airspace System.

        <bullet> LQuiet Aircraft Technology: NASA proposes an 
        augmentation to an existing program for quiet aircraft. NASA 
        proposes to spend an additional $15 million in FY 2004, and an 
        additional $100 million over five years. In total, this program 
        will receive $271.6 million over five years (funded through the 
        Vehicle Systems Program). The goal is to accelerate development 
        and transfer of technologies to reduce perceived noise by half 
        by 2007 compared to a 1997 baseline.

    NASA Aeronautics research is conducted primarily at the Langley 
Research Center (VA); Ames Research Center (CA); Dryden Flight Research 
Center; and the Glenn Research Center (OH).

6. Legislation

    Both the FAA and NASA are due to be re-authorized this year.
    Rep. John Larson, a Member of the Science Committee, introduced 
legislation earlier this year to increase federal investment in 
aeronautics R&D. H.R. 586, the Aeronautics Research and Development 
Revitalization Act of 2003, seeks to double NASA's and FAA's 
aeronautics research budgets, and authorizes research activities for 
rotorcraft, noise and emissions reduction.

7. Witnesses

Dr. Jeremiah Creedon, Associate Administrator for Aerospace Technology, 
NASA. Dr. Creedon has been asked to address the following questions: 
How does NASA's aeronautics research and development program balance 
between serving near-term industry needs and the pursuit of long-term, 
high-risk, revolutionary projects? What is NASA's vision for meeting 
projected traffic levels in the year 2020 for the National Airspace 
System? What is NASA's assessment of the conclusions and 
recommendations put forth in the Final Report of the Commission on the 
Future of the United States Aerospace Industry that address air traffic 
management and aerospace research and development? What changes, if 
any, will outside customers at NASA's aeronautics research centers and 
associated facilities experience as a result of implementing full cost 
accounting?

Mr. Charlie Keegan, Associate Administrator for Research and 
Acquisitions, FAA. Mr. Keegan has been asked to address the following 
questions: What is the rationale for spreading the agency's research 
and development activities across several accounts? Is the level of 
investment in research and development adequate to meet future agency 
needs, especially in the areas of aircraft safety certification and 
modernization of air traffic management? From a management perspective, 
what distinctions, if any, result from funding a research and 
development project in an operational account? How are requirements, 
proposed research projects, and technology handoffs for joint programs 
passed between FAA and NASA?

Dr. R. John Hansman, Professor of Aeronautics and Astronautics, MIT. 
Dr. Hansman has been asked to address the following questions: How 
relevant is federal aeronautics R&D conducted by NASA and FAA to the 
demands that commercial and general aviation users are expected to 
impose on our National Airspace System in the future? How do the NASA 
and FAA aeronautics research portfolios distinguish themselves from R&D 
conducted by our foreign competitors? How have university-based 
researchers dealt with funding and programmatic changes in federally-
sponsored aeronautics research programs? Do you believe our aerospace 
manufacturing capabilities are at risk of a long and protracted 
retrenchment?

Mr. Mac Armstrong, Senior Vice President--Operations & Safety, Air 
Transport Association. Mr. Armstrong has been asked to address the 
following questions: What is your assessment of FAA's and NASA's 
investment strategies and level-of-effort for civil aeronautics 
research and development, and the usefulness of the resulting 
technologies to builders and users of commercial aircraft? What is your 
assessment on the future of our national airspace system and the 
potential for current investments to meet this challenge? How satisfied 
is the air carrier industry with R&D investment in emissions and noise 
reduction technologies?
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Chairman Rohrabacher. I hereby call this meeting of the 
Space and Aeronautics Subcommittee to order. Without objection, 
the Chair will be granted the authority to recess this 
committee just in case we have votes. At today's hearing we 
will explore plans for aeronautics research and development at 
the FAA and NASA. This year, of course, marks the 100th 
anniversary of the Wright brothers' first flight. What was the 
date?
    Dr. Creedon. December 17.
    Chairman Rohrabacher. All right. December 17.
    Dr. Creedon. 1903.
    Chairman Rohrabacher. And that is going to be quite a day. 
I am looking forward to it and I am very grateful that I will 
have the opportunity of being the Chairman of this particular 
Subcommittee on that date. So I believe that an appropriate way 
to honor these pioneers of aviation is to continue the 
remarkable trend of technological advancement that they began 
and that we have witnessed this incredible moving forward, 
moving up, over this last 100 years.
    Unfortunately, the budgets for NASA and the FAA clearly 
reflect a somewhat lackluster commitment to our future in 
aeronautics if that is the way our commitment to the future of 
aeronautics is to be judged. In fact, NASA cut funding for 
aeronautics research in half over the last 10 years and now 
spends only $1 out of every $16 on aeronautics. This year, NASA 
proposes to cut the program by an additional five percent over 
the next five years. Meanwhile, the FAA proposed only a modest 
increase in its program over the next five years. However, we 
must not simply look at budget proposals. As I say, we must 
also clearly examine whether these programs are properly 
focused and whether they are relevant to our national goals and 
objectives. Preserving our aerospace industry's edge over 
fierce international competition, however, will require a 
greater emphasis and attention to these goals.
    Given the recommendations of the Commission on the Future 
of the United States Aerospace Industry, what is the rationale 
for continuing to cut aeronautics R&D--something we need to 
know. How should the Government help stop the erosion of the 
U.S. market share in international aerospace sales? Finally, 
what can be done to accelerate the transition of new 
technologies that are being developed in the United States and 
throughout the world into operational use and what kind of 
problem is that? Where do we have technologies that are waiting 
to be used or being kept off the market for some reason, and 
perhaps that is more important than spending more money.
    Today's discussion will address these and other critical 
issues. And during the past 100 years, our nation's commitment 
to aviation and aeronautics propelled our nation's industries 
and our economy. If we are to be the world leader in terms of 
the economic well being of our people and the competitiveness 
of our industries, we must be the world's number one aerospace 
nation as well. So we can expect nothing less because they are 
so intertwined with our economic well being and whether or not 
we are number one in space and whether our aeronautics is able 
to outcompete those overseas.
    I would be recommending--saying that we are going to go to 
Bart Gordon now, but he is not here. But when he arrives, we 
will make sure he gets--Mr. Wu, would you like to say a few 
words in the meantime?
    [The prepared statement of Chairman Rohrabacher follows:]
            Prepared Statement of Chairman Dana Rohrabacher
    Today's hearing will explore plans for aeronautics research and 
development at the FAA and NASA. This year marks the 100th anniversary 
of the Wright brothers' first powered flight. I know of no better way 
to honor the pioneers of aviation than to continue the remarkable trend 
in technological advancement witnessed over the last one hundred years.
    Unfortunately, the budgets for NASA and the FAA clearly reflect a 
lackluster commitment to our future in aeronautics. In fact, NASA has 
cut funding for aeronautics research in half over the last ten years 
and now spends only one dollar out of every sixteen dollars on 
aeronautics. This year, NASA proposes to cut the program by an 
additional five percent over the next five years. Meanwhile, FAA 
proposes only a modest increase in its program over the next five 
years. However, we must not simply look at the budget proposals to 
judge these programs, we must also closely examine whether these 
programs are properly focused and relevant to national goals and 
objectives. Preserving our aerospace industry's edge against fierce 
international competition will require greater emphasis and attention 
to these goals.
    Given the recommendations of The Commission on the Future of the 
United States Aerospace Industry, what is NASA's rationale for 
continuing to cut its aeronautics R&D program? How should the 
government help stop the erosion of U.S. market share in aerospace? 
Finally, what can be done to accelerate the transition of new 
technologies to operational use? Today's discussion will address these 
and other critical issues.
    During the past one hundred years, our nation's commitment to 
powered flight propelled the aviation industry. We can expect nothing 
less for the future.

    Mr. Wu. Thank you very much, Mr. Chairman. I believe that 
Mr. Gordon will be making an opening statement when he arrives. 
Since you all represent so much of American aeronautics and 
astronautics research, I just want to relay to you all a 
conversation I had with a professor of aeronautics and 
astronautics a few weeks ago. Not wanting to disturb the folks 
at NASA who are obviously focused on immediate challenges on 
February 1, I began a series of conversations with academicians 
about our current state of space programs, but the example 
which I found striking was that one of these individuals 
stated, you know, say that we first started using jet engines, 
prevailing use of jet engines, around 1950 or so. At that 
point, we had to tear them down after about 100 hours of use. 
And 50 years later, say around the year 2000, we get, roughly, 
20,000 hours out of the engines that you ride on in a 747 
before you have to tear the jet engine down. From 100 hours to 
20,000 hours.
    We have been in space for almost the same period of time, 
say, roughly, 1960 to the year 2000, and yet, the 
dependability, the safety of space flight, has not increased 
along the same curve that this jet engine dependability has, 
and there are sound reasons why those two scenarios are 
slightly different, but the difference is really quite 
striking. And I think that our aerospace community has further 
work to do in this arena and Congress has responsibilities in 
this arena to make sure that we do our best to bring these 
curves together as best we can. They will never be the same 
curve, but the striking difference between jet engines going 
from 100 hours between maintenance to 20,000 hours, and space 
flight right now going at the failure rate of one every fifty-
seven missions, that that is something that we do not want to 
tolerate going forward into the future.
    Thank you for the time, Mr. Chairman.
    Chairman Rohrabacher. Okay. Thank you, Mr. Wu, and we will 
permit Mr. Gordon a short opening statement when he arrives. 
Apparently, there has been a personal family situation there. 
So without objection, the opening statements of other Members 
will be put into the written record so we can get right to the 
testimony. Hearing no objection, so ordered. I also ask 
unanimous consent to insert in the appropriate place in the 
record the background memorandum prepared by the Majority Staff 
for this hearing. Hearing no objection, so ordered.
    And we do have today some distinguished witnesses, and we 
want to thank each and every one of you for being with us, but 
we would also like you to summarize your statement in fact. 
Usually, I ask for five-minute summaries. If you can do it in 
any less than that, Curt Weldon, who is one of the more 
aggressive members of both the DOD Committee and this 
committee, has asked for time to get at you. He won't be able 
to get at you if you are using all the time up, so we would 
like it very much if you could just summarize your statements 
and then we would want to focus on the questions and answers 
and a dialogue between us.
    So with that said, our first witness is Dr. Jeremiah 
Creedon, who is NASA's Associate Administrator for Aerospace 
Technology, and Dr. Creedon, you may proceed.

 STATEMENT OF JEREMIAH F. CREEDON, ASSOCIATE ADMINISTRATOR FOR 
                   AEROSPACE TECHNOLOGY, NASA

    Dr. Creedon. Thank you, Mr. Chairman. I want to thank all 
the Members of the Committee for the opportunity to summarize 
my written submission, and I will try to be brief. I would like 
to recognize my colleagues at the table here and acknowledge 
that the partnerships that we at NASA have as we try to execute 
our research and technology development are very important and 
vital to us, and we are very proud to be working with them on 
the future and trying to realize a bright future for aviation.
    That future is based on technology and innovation. The 
Commission on the Future of Aerospace Industry in the United 
States was asked to study what needed to be done to ensure a 
bright aerospace industry future. They made a number of 
recommendations; in fact, a total of nine. Five of those 
recommendations had to do with technology. The Commission 
clearly stated that research and technology is the foundation 
for the future of the aerospace industry, and I would like to 
quote very briefly from the report. ``Aerospace is a technology 
driven industry. Long-term research and innovation are the fuel 
for technology. U.S. aerospace leadership is a direct result of 
our preeminence in research and innovation.''
    The Commission recommended a number of investments. We feel 
that NASA's programs are investments of the type that the 
Commission recommended. We also feel that our current and 
planned efforts are well in alignment with the Commission's 
recommendation. In response to what we feel are the national 
needs, we have proposed a number of changes in the aeronautics 
technology program for Fiscal Year 2004, and I would like to 
briefly describe a few of these changes.
    First of all, we proposed an increase in the funding for 
quiet aircraft technology. Our goal in this area is to take the 
objectionable noise from airplanes and contain it within the 
airport boundary. And Mr. Chairman, in your opening remarks, 
you talked about the transfer of the technology to people that 
will actually implement it. This increase that we have put into 
the program is an attempt to more quickly accelerate those 
technologies to the point where the aerospace industry can 
consider implementing them.
    In the aftermath of September 11, the President's 2004 
budget request includes funds for a new NASA effort in aviation 
security. That effort will be focused on protecting aircraft in 
the national aerospace system from criminal and terrorist 
attacks, as well as improving the efficiency of the security 
measures that the country has undertaken. We have also 
requested $8 million for getting more routine operations of 
unmanned air vehicles in the national airspace system. These 
vehicles have potential applications not only in the area of 
Homeland Security, but in communications and monitoring the 
earth's resources.
    I want to talk a few minutes about the extremely important 
area of the national airspace system. The current system is 
suffering from the combined effects of September 11, but the 
aviation system will, in fact, recover. But as it recovers, it 
may recover in some different format, in some different methods 
of operation than was existing prior to September 11. In 
particular, we may see more use of secondary airports. 
Accordingly, we are going to continue our work on our SATS, or 
small aircraft transportation system, because we believe that 
holds the promise of bringing much improved air access and much 
improved mobility to the population by making better use of 
secondary airports.
    We also intend to continue working with the FAA on two 
things. First, working with them as we have been on their 
implementation of the OEP. But also, we are going to be working 
with them on defining and realizing a future air transportation 
system. We have proposed investing $27 million starting in 2004 
for a national airspace system transition initiative. Research 
within this program, which we will do jointly with the FAA and 
others, will focus on what a future system might look like and 
what we would have to do to enable such a future system. Any 
future system must have the flexibility to move, and expand, 
and adapt to be responsive to the demands on the transportation 
system. And even if it is revolutionary, it must still allow 
continuous safe operations to occur even in the face of 
unpredicted events.
    NASA and the FAA have a long and very productive 
relationship in aviation. The relationship is based on common 
objectives in unique and complimentary roles. NASA's role in 
the aerospace system is both on near-term and far-term 
research, while the FAA is more focused on research and 
development required to promote implementation of changes in 
the airspace system operations. We share the same objectives to 
increase the capacity and efficiency of the airspace system, to 
increase safety, to reduce the deleterious effects of 
emissions, and we have a number of ways that we coordinate with 
the FAA. We have inter-agency integrated product teams, where 
we share joint roadmaps for our work in this area and also in 
the work of safety.
    In summary, NASA is proud of its continuing critical 
contribution to aeronautics. In this centennial year of the 
first powered flight by the Wright brothers, we look forward to 
a bright future of flight and working with our colleagues in 
bringing about that future. I would like to thank you for the 
opportunity to speak before you today, and I would be happy to 
try to answer your questions.
    [The prepared statement of Dr. Creedon follows:]
               Prepared Statement of Jeremiah F. Creedon
Mr. Chairman and Members of the Subcommittee:

    Thank you for this opportunity to testify on aeronautics research 
and technology (R&T) at NASA. I would also like to recognize my 
colleagues, Mr. Charles Keegan from the Federal Aviation Administration 
(FAA), Mr. Mac Armstrong from Air Transport Association, and Dr. John 
Hansman from the Massachusetts Institute of Technology, and. NASA 
considers our partnerships to be vital, and we are proud to work with 
them on the future of aviation.
    That future is based on technology and innovation. NASA plays a 
critical role in supplying the aeronautics technology base for the 
Nation and has an extremely productive aeronautics R&T program--as 
recent accomplishments and applications of NASA technologies 
demonstrate. We have seen applications of technologies to improve 
safety, reduce environmental impact and improve the efficiency of 
aviation operations. For example, in aviation safety new weather 
information systems based on NASA technology developments are reaching 
the market place. Synthetic vision systems, which will allow clear-day 
views of terrain and air craft in all-visibility conditions, are in the 
commercialization phase and more safety technologies are on their way.
    In the environmental area, we have seen the recent 
commercialization of a jet engine combustor that resulted from a NASA-
sponsored demonstration to reduce NO<greek-KH> emissions by 50 percent 
compared to ICAO regulatory standards, and we have recently completed 
sector testing of a combustor concept that reduces NO<greek-KH> by 67 
percent. We have also seen the commercialization of noise reduction 
technologies, like serrated nozzles that reduce jet noise by three 
decibels, equivalent to half the sound energy. Overall, we have 
demonstrated five decibels of integrated noise reductions compared with 
the 1997 state-of-the-art and have identified technologies for five 
decibels of additional reductions.
    We are making significant progress on more breakthrough 
technologies. We recently demonstrated key processes and methods for 
the development of nanotube reinforced polymer composites that would 
provide revolutionary improvements in structural strength-to-weight 
ratios. We've also demonstrated advanced aerodynamics flow control 
techniques that would allow highly efficient and simpler vehicle 
controls and high-lift systems. Significant progress continues in the 
areas of autonomy and intelligent, reconfigurable flight controls. All 
of these technologies represent steps on the path to a new generation 
of safe, smart, environmentally benign aircraft.

A Balanced Portfolio

    NASA invests in long-term, high-risk, high-payoff research in pre-
commercial technologies in which industry cannot invest and in both 
nearer term and longer-term research focused on public good issues such 
as environmental compatibility, safety, and air traffic management.
    Provision of air service is also a public good. Since airline 
deregulation, the U.S. has mainly relied on market forces to ensure 
that the most efficient level of air service is provided to 
communities. However, it is in the public good to technologically 
enable better air service to more communities. Therefore, we seek 
partnerships, such as our Small Aircraft Transportation System (SATS) 
project, that enable greater mobility for more of the Nation. In 
addition, there is a large government role in the provision of air 
traffic management services. NASA works closely with the FAA to enable 
future improvements to the system to improve capacity, efficiency and 
safety in response to market demand for growth and change.
    An entirely new level of performance can be achieved through the 
integration of many breakthrough vehicle and airspace capabilities. 
This requires a broad-based investment in basic research and 
technology. Technologies with application horizons many years in the 
future are chosen by evaluating the most promising technology pathways 
in the highest leverage areas. As technologies mature, we evaluate them 
to ensure adequate progress is being made and their performance 
potential remains worthy of investment. We continuously seek technology 
pull opportunities to bring focus and opportunities to demonstrate 
technology. For example, unmanned aerial vehicles, from a technology 
viewpoint, provide not only unique applications, such as remote 
sensing, but also can be technology pathfinders for other commercial or 
military aviation applications.

The Aerospace Commission

    The Aerospace Commission made nine recommendations to ensure the 
health of the U.S. aerospace industry. Five of which have a strong 
focus on research and technology. The Commission clearly stated that 
research and technology is the foundation for the future of the 
aerospace industry. Quoting directly from Chapter 9 of the report, 
``Aerospace is a technology-driven industry. Long-term research and 
innovation are the fuel for technology. U.S. aerospace leadership is a 
direct result of our preeminence in research and innovation.''
    The Commission recommends investments in this country's future. 
NASA's programs are the type of investment that the Commission 
recommends, and we believe NASA's current and planned efforts are in 
alignment with the thrust and intent of the Commission's findings and 
recommendations.
    As discussed, we are investing in technologies to support the 
transformation of the National Airspace System as recommended in 
Chapter 2 of the report. In fact, through prioritization of activities 
within our budget, we propose to expand our investment in this area and 
we are working in partnership with the FAA on this critical issue.
    As Chapter 2 of the Commission's report also notes, security is a 
key requirement of the future airspace system. We certainly agree and 
have been working since 9/11 to develop a responsive program that 
reflects NASA's unique strengths. We also propose to initiate an 
aviation security project that seeks to enable long-term, high-leverage 
solutions to eliminate key vulnerabilities within the aviation system.
    Many of our efforts address the specific recommendations on 
breakthrough aerospace capabilities in Chapter 9 of the report. We have 
investments in all of the areas addressed: increased safety, reduced 
emissions, reduced noise, increased capacity and reduced trip time. Our 
FY 2004 budget request reflects adjustments to strengthen technology 
development in these key areas. Additionally, the Commission is 
justifiably concerned about the time it takes to transition research 
into products. At NASA, we measure our success in technology by the 
extent to which our results are transferred, and are applied. In recent 
years, we have transferred and seen the application of noise and 
emission reduction technologies, decision support tools for air traffic 
management, aviation safety technologies and more.
    As it has in the past, NASA will continue to work closely and 
partner with the Department of Defense (DOD), the Department of 
Transportation (DOT), the Federal Aviation Administration (FAA), 
Department of Homeland Security, academia, and industry to ensure that 
the research that NASA pursues is deliberately and methodically 
integrated into useful and timely products and processes.

Significant Changes for FY 2004

    NASA is proposing a number of key changes to the Aeronautics 
Technology program for FY 2004 in response to national needs and the 
role we play as outlined above. Our request for Aeronautics Technology 
is $959.1 million. I am pleased to report that through reprioritization 
within the President's FY 2004 budget, we have increased funding for 
the development of technology in several key areas.
    Due to significant demand from the FAA and industry that we 
increase our investment in noise reduction to ensure rapid technology 
development and transfer, I am pleased to be able to inform you that 
the President's FY 2004 budget has increased the funding to address 
this critical aviation issue. NASA's Quiet Aircraft Technology project 
includes an increase of $15 million in FY 2004 for this work.
    NASA is developing technologies that can directly change the noise 
produced by jet engines. Through an understanding of the basic physics 
of noise production we are able to interfere with the way that sound is 
produced, creating quieter aircraft for future travelers. We have also 
determined that a large part of the objectionable noise comes from 
parts of the aircraft other than the engines when the aircraft are 
approaching the runway. NASA is developing concepts for landing gear 
and wing configurations to reduce this objectionable noise. Physics-
based tools to study noise propagation allow us to test the benefits of 
new flight profiles to bring the aircraft noise closer to the airport 
while maintaining flight safety.
    In partnership with the engine and aircraft manufacturers and based 
on the results discussed earlier, we will be able to bring additional 
noise reduction technology to new aircraft more quickly than had been 
otherwise planned. We are expecting to demonstrate an additional five-
decibel reduction in perceived noise by the end of FY 2007, leading to 
a total of ten-decibel reduction in comparison to the 1997 state of the 
art.
    In the aftermath of September 11th, heightened, but efficient, 
security of the aviation system is a critical, long-term requirement. 
Therefore, I am pleased to report that as part of the President's FY 
2004 Budget Request, NASA will begin a new effort in Aviation Security. 
We will invest $21 million in FY 2004 for this initiative. Research in 
this program will focus on concepts and technologies that can protect 
aircraft and the airspace system from criminal and terrorist attacks 
while dramatically improving the efficiency of security. In the near-
term, NASA will develop and demonstrate decision support technologies 
for ground-based air traffic management systems that detect and assist 
in the management of threatening situations. Other areas include 
technologies to reconfigure the aircraft to fly safely in the event of 
damage, and flight controls technology that would prevent the aircraft 
from being purposefully crashed. Additionally, we are investigating how 
NASA research in information and sensor technology may be applied to 
this area.
    We will invest $27 million in FY 2004 for the new National Airspace 
System Transition initiative. The major challenges are to accommodate 
the projected growth in air traffic while preserving and enhancing 
safety; provide all airspace system users more flexibility, efficiency 
and access in the use of airports, airspace and aircraft; enable new 
modes of operation that support the FAA commitment to ``Free Flight'' 
and the Operational Evolution Plan (OEP); and develop technology to 
enable transition to a next generation National Airspace System beyond 
the OEP horizon. The research within this program will be focused on 
developing a more flexible and efficient operational approach to air 
traffic management. For example, together with the FAA, NASA will 
investigate and solve the technical challenges of increasing runway 
capacity in inclement weather to eliminate the biggest source of 
delays--poor visibility. We will also develop totally new concepts that 
allow the system to scale with increasing traffic levels. We are 
developing sophisticated new modeling capabilities of the Nation's air 
traffic system so we can test out our tools and concepts.
    Unmanned aerial vehicles (UAVs) have potential applications of 
benefit to the U.S., including homeland security, telecommunications 
and monitoring the earth's resources. Their ability to fly autonomously 
for boring or hazardous applications and their ability to fly at high 
altitudes allowing them to cover large areas make UAVs suitable for 
these types of jobs. However, UAVs are restricted from routine 
operations in the National Airspace System (NAS). To address this 
issue, NASA has included $8 million in its FY 2004 budget request for 
UAYs in the NAS. NASA, DOD and the FAA are working with the UAV 
industry and have developed a plan for cooperatively developing and 
demonstrating this technology.

Enabling a Healthy Future for Aviation

    While the current aviation system is suffering from the combined 
effects of 9/11 and the economic downturn, aviation remains critical to 
our society and economy. Aviation will certainly recover, but it is 
likely that significant changes will occur. We are already seeing more 
utilization of secondary airports, driven by low-cost, point-to-point 
carriers; the ``de-peaking'' of hub airports; continued growth in 
regional jets to smaller communities; continued growth in on-demand 
aviation, such as executive jet, and the promise of jet air taxi 
service. In fact, the current system structure, where most passengers 
and cargo are carried by tens of air carriers through tens of airports, 
must be revised to permit the continued long-term growth of the system. 
The thousands of airports distributed across this country are a true 
national asset that can be tapped with the right technology and the 
right Air Traffic Management (ATM) system. Also, ``airspace,'' one of 
the Nation's most valuable national resources, is significantly 
underutilized due to the way it is managed and allocated. Therefore, 
the airspace architecture of the future must increase the capacity of 
the Nation's major airports, fully tie together all of our nation's 
airports into a more distributed system, and create the freedom to fly 
in a safe, secure controlled environment throughout all of the 
airspace.
    One thing that will remain constant is that free market forces will 
drive the air transportation system. Therefore, the future system 
architecture must be flexible to respond to various transportation 
system possibilities and robust against unexpected threats. The airline 
industry must have the flexibility to move and expand operations to be 
responsive to transportation demands. This is the highest level guiding 
principle for the future ATM system. The next tier of system 
requirements are robustness (a system that can safely tolerate 
equipment failures and events such as severe weather and unexpected 
attacks) and scalability (the ATM system automatically scales with the 
traffic volume). One possibility for achieving scalability would be 
achieved by building large portions of the ATM system into the 
aircraft, so that as aircraft are added to the fleet the ATM system 
would automatically scale to accommodate them. This decentralized 
architecture and increased vehicle capability to automatically avoid 
protected airspace is also an effective means of limiting the potential 
damage of a terrorist attack.
    The system will be built on global systems, such as GPS, to allow 
precision approach to every runway in the Nation without reliance on 
installing expensive ground-based equipment, such as Instrument Landing 
Systems (ILS) at every airport. However, the robustness of the global 
communication, navigation and surveillance (CNS) systems must be such 
that the system can tolerate multiple failures and potential security 
threats and still be safe. This is a significant challenge on which the 
new architecture depends.
    If we are successful at meeting the challenge of a robust global 
CNS, then with precise knowledge of position and trajectory known for 
every aircraft, it will no longer be necessary to restrict flying along 
predetermined ``corridors.'' Optimal flight paths will be determined in 
advance and adjusted along the way for weather and other aircraft 
traffic. This fundamental shift will allow entirely new transportation 
models to occur. For example, with precision approach to every airport 
in the U.S. and a new generation of smart, efficient small aircraft, 
the current trend of small jet aircraft serving small communities in a 
point-to-point mode could be greatly extended.
    The future system will truly be ``revolutionary'' in scope and 
performance, but it must also be implemented in a mode that allows 
continuous safe operations to occur, even in the face of unpredicted 
events. In designing the future airspace system, a systems engineering 
approach must be used to define requirements, formulate total 
operational concepts, evaluate these operational concepts, and then 
launch goal-oriented technology activities to meet requirements and 
support the operational concept. NASA's role is to be a full 
participant in this national process and to lead the long-term 
technology effort that supports it. NASA and the FAA are developing an 
approach right now to implement such a process.

The NASA-FAA Relationship

    Finally, I will address the critical relationship between NASA and 
the FAA. NASA and the FAA have a long and productive relationship in 
aviation. The relationship is based on common objectives, and unique 
and complimentary roles. NASA's role is long-term research and 
technology development. FAA is much more focused on comparatively 
short-term research and development to support certification, rule-
making, requirements generation and acceptance testing. In addition to 
our complimentary roles, we share many of the same objectives--to 
increase the capacity and efficiency of the NAS, to increase aviation 
safety, and to reduce environmental impacts. With ATM, the FAA is the 
user of NASA technology. With safety and environment, industry is the 
primary technology user, but FAA benefits from a rule making and 
certification perspective. In this light, NASA and the FAA maintain 
several mechanisms for coordination and integration. For example, in 
the area of aviation safety, NASA and FAA have an active working group 
that develops and tracks joint technical roadmaps. In air traffic 
management, there is a interagency integrated product team that 
develops joint plans for integrated ATM R&D. And we are actively 
planning a more integrated, long-term approach to cooperation in air 
traffic management to ensure a common vision and set of national 
requirements and that the research and technologies that are developed 
out of NASA have a pathway into FAA operations.

Conclusion

    In conclusion, NASA is proud of its continuing critical 
contribution to aeronautics. In the centennial year of the first 
powered flight by the Wright Brothers, we look forward to the future of 
flight. New technologies on the horizon will make the next 100 years as 
exciting, eventful, and in many ways as unpredictable, as the first 100 
years.

    Chairman Rohrabacher. Thank you very much. I am sure that 
we have got some questions for you. Curt Weldon is just anxious 
to ask those questions, but not yet. I am just preparing them 
for you, Curt. Okay. Next witness is Mr. Charlie Keegan, 
Associate Administrator for Research and Acquisitions at the 
FAA. And this is Mr. Keegan's first appearance before any 
Congressional committee. Let me note that Mr. Keegan started 
off as an air traffic controller, and he was on the hot seat 
then and he is in a hot seat today. So we welcome you and look 
forward to your testimony.

   STATEMENT OF CHARLIE KEEGAN, ASSOCIATE ADMINISTRATOR FOR 
                 RESEARCH AND ACQUISITIONS, FAA

    Mr. Keegan. Thank you, Mr. Chairman and Members of the 
Committee. Good morning. I appreciate the opportunity to appear 
before you to discuss the FAA's investment in civil aeronautics 
research, engineering, and development, as reflected across our 
R&D program and the President's budget for the Fiscal Year 
2004.
    I have three points to make. The first one will be about 
our request amount of $100 million. We believe that this is a 
well-balanced approach toward the FAA's overall budget request 
of somewhere near $14 billion and in accordance with the FAA's 
mission. It is a well focused program for Fiscal Year 2004, 
focusing on aircraft safety as well as noise and emissions. I 
would like to emphasize that although this request is less than 
what we requested in 2003, the key to the success of this 
program will be the leveraging of resources with our other 
Government partners as well as industry and academia.
    An example of this is the work that we are doing now in 
unleaded aviation fuels. Aviation fuels, as I am sure you are 
aware, are leaded today and present an emissions issue. In the 
future we hope to use unleaded fuels for aircraft. The key is 
their safety. Next week, we will take delivery from Exxon of 
4,000 gallons of unleaded fuel to be tested, and we expect to 
test that through the rest of this year and through 2004 to, 
hopefully, make progress in this area for unleaded fuels for 
general aviation aircraft.
    I would like to move to our relationship with NASA. Our 
relationship with NASA has been outstanding, and I believe it 
will continue to mature over the next several years. I bring 
personal experience to this relationship of bringing NASA 
technology called the Traffic Management Advisor, part of the 
center TRACON automation system from the research house at NASA 
Ames into operation that today is delivering tangible and 
sizeable benefits to the American public every single day, and 
we want to continue to do that piece by piece. And those 
elements are outlined in our Operational Evolution Plan, which 
is our outlook for capacity over the next 10 years.
    Mr. Chairman, if I may, I would like to go to a couple 
props that I brought with me today that represent some of the 
incredible research that is going on at our technical center in 
Atlantic City, New Jersey. The first is important safety 
elements regarding fuel inerting. We have had several, a 
handful of, explosions in aircraft fuel tanks without a known 
source of ignition. Since we can't find the ignition source, to 
be safe, we want to eliminate the possibility of that event. 
This device is actually strands of polyester. Forcing air in 
one end, and out the other, bleeds off--through a hole that is 
right here, bleeds off the oxygen, putting more nitrogen in the 
fuel tank instead of oxygen that would be able to burn. This 
rather simple device weighs approximately 160 pounds and 
prevents the ability of a center fuel tank in a Boeing 747 to 
explode. We have tested this on the ground and will begin 
flight testing soon, and we have had much interest from Airbus, 
as well as Boeing, and will be able to continue to do that work 
which we think is just absolutely incredible--simple strategies 
toward preventing catastrophic events.
    The next thing is what we call soft soil. It looks like a 
piece of sand that is held together. It is actually oxygenated 
concrete. This device is in response to an event where a DC-10 
at JFK Airport New York ran off the end of the runway, where 
about a dozen people were injured and causing major damage to 
the aircraft. We have implemented this and we need to make it 
more cost effective so we can implement it more, and that is 
what our research is going onto now. These are pictures, which 
I will be glad to pass around, of the Saab 340 that ran into 
this material post event, after we had implemented it. No one 
was injured, there was very little damage to the aircraft, and 
we think that is positive for the ability for us to maintain 
airport safety as well.
    And that really concludes my comments. I would like to 
submit my testimony for the record, and I am ready to answer 
any questions that you may have. Thank you.
    [The prepared statement of Mr. Keegan follows:]
                  Prepared Statement of Charles Keegan
Chairman Rohrabacher and Members of the Subcommittee:

    I appreciate the opportunity to appear before you, to discuss the 
Federal Aviation Administration's (FAA) investment in civil aeronautics 
research, engineering and development (R,E&D), as reflected across our 
R,E&D program and in the President's budget request for Fiscal Year 
2004.
    This is a particularly important year for aviation innovation as we 
approach the centennial of flight. Since the Wright Brothers' first 
flight, we have seen remarkable improvements in navigational tools and 
critical safety technologies through the diligent work of aviation 
researchers. Today, that legacy of success continues as FAA's 
researchers and scientists lay the groundwork for free flight 
operations and develop the technologies, tools, and procedures so that 
FAA may strengthen its critical mission--improving aviation safety. 
These improvements are reducing fatalities, injuries, and aircraft 
losses; creating better aircraft and airport designs; and improving 
maintenance and inspection procedures.
    Today, I will provide a brief overview of the President's FY04 
aviation R,E&D budget proposal, discuss some of our R,E&D priorities 
and accomplishments, and provide examples of how our collaborative work 
with NASA, the Department of Defense (DOD), industry, and academia 
contributes to making our aviation system safer and more efficient.
    The President's budget request supports the FAA's major research 
and development activities presented in the National Aviation Research 
Plan (NARP), which describes these research activities in detail and 
how they relate to the agency's mission. The NARP covers the research 
needed to achieve the FAA's safety, capacity and environmental goals 
including: aircraft airworthiness, runway safety, aviation weather, 
human performance and aerospace medicine, as well as efficiency 
research projects that support increasing the capacity of the National 
Airspace System (NAS).
    For FY04, we have requested $100 million for R,E&D. Based on this 
request, we have developed a comprehensive program that focuses 
resources on our highest priority activities. The President's budget 
presents our request in performance-based terms to better focus on the 
critical areas our R,E&D projects. Of the total requested:

        <bullet> L$66.487 million is for aircraft technology safety 
        programs, which include research related to fire safety, aging 
        aircraft, human factors, and flight safety;

        <bullet> L$20.852 million is for programs associated with 
        improving safety through weather research;

        <bullet> L$7.975 million is for environmental research, which 
        includes research related to aircraft and rotorcraft noise 
        reduction technologies and aircraft noise and emissions models; 
        and

        <bullet> L$4.686 million provides general mission support.

    Although the FY04 budget request for the R,E&D account has 
decreased by $24 million from the FY03 request, the overall budget 
includes $73.1 million from the Facilities and Equipment (F&E) account 
for applied research activities under the Advanced Technology 
Development Prototyping and Safe Flight 21 programs. These programs 
focus on the evaluation of methods to prevent runway incursions, reduce 
separation standards, and provide surveillance coverage in non-radar 
areas. Our budget also includes a separate request for $17.417 million 
under the Airport Improvement Program for airport technology research 
to develop standards and guidelines for planning, designing, 
constructing, operating and maintaining the Nation's airports.
    As our budget shows, safety research is the main priority of our 
R,E&D program. Research efforts are critical to the reduction of fatal 
accident rates. We know that accidents can be prevented by establishing 
and maintaining a broad framework of regulations and standards, 
developing a better understanding of accident causes and 
countermeasures, and participating in cooperative programs with the 
global aviation community.
    The aircraft safety research programs are producing great dividends 
for the aviation community. For example, last year we made significant 
progress in developing an inerting system to prevent fuel tank 
explosions. The tragic TWA Flight 800 disaster, in 1996, focused 
national attention on the critical need to improve fuel tank safety. 
Building on previous research on ground-based inerting, FAA's 
researchers developed a relatively simple, but effective, design for 
generating nitrogen-enriched air in flight. Our researchers installed 
an onboard inerting system in the FAA's 747SP test aircraft. Flight 
tests are planned in FY03, based on the combination of modeling 
predictions, 1/4 scale tests, and demonstrations of the prototype 
system.
    Additionally, we are working with NASA and DOD to enhance safety of 
the aging aircraft fleet. Over the past several years we have developed 
new structural inspection techniques that help maintenance personnel 
locate structural problems before they become serious safety concerns. 
We are also focusing major efforts on gaining a better understanding of 
the effects of aging non-structural aircraft systems such as wiring. 
Civilian and military aircraft contain hundreds of miles of wire, much 
of it inaccessible once the aircraft is assembled. When the protective 
sheath of insulation on a wire is damaged and the conductor is exposed, 
the potential for a short circuit or arc exists. In fact, the FAA, the 
National Transportation Safety Board, and the Transportation Safety 
Board of Canada investigations cited electrical systems arcing as one 
likely cause of the cabin fire and crash of Swissair Flight 111.
    The FAA, in cooperation with DOD and industry, has developed a new 
form of circuit protection technology that is capable of sensing an 
electrical arc along a wire and opening the circuit, greatly reducing 
the threat of an electrical arc fire. This technology will not require 
the redesign of aircraft circuitry. Successful flight tests have been 
completed and now we are developing common performance specifications.
    Although it is easy to be captivated by the new technology that has 
resulted from our R,E&D, I want to emphasize that aviation safety is 
also human-centered and dependent on human performance. The FAA 
requires that human factors be systematically integrated at each 
critical step in the design, development, and testing of advanced 
technologies introduced into the NAS. For example, last year FAA 
researchers and certification specialists began testing a new 
computerized decision support tool to ensure that aircraft flight deck 
technologies are user friendly. This decision tool assists 
certification and design personnel in identifying, assessing, and 
resolving potential design-induced human performance errors that could 
contribute to aviation incidents and accidents.
    Weather continues to be a major safety factor for all types of 
aircraft. A recent estimate by the FAA identified weather as being 
responsible for 70 percent of flight delays and approximately 40 
percent of accidents. To mitigate the effects of weather, the FAA's 
Aviation Weather Research Program conducts applied research in 
partnership with a broad spectrum of the weather research and user 
communities with a goal of transitioning advanced weather detection 
technologies into operational use.
    In FY02, a weather safety product, known as the Current Icing 
Potential, became fully operational at the National Weather Service 
Aviation Weather Center in Kansas City, Missouri. This product, which 
generates around-the-clock support, provides information on current in-
flight icing conditions and is used for flight planning, determining 
route changes, and altitude selection. With FAA funding, the National 
Center for Atmospheric Research in Boulder, Colorado, developed this 
system using radar and satellite data, surface observations, numerical 
models and pilot reports. Users can access this information on the 
Internet via the Aviation Digital Data Service web site at http://
adds.aviationweather.gov/projects/adds/.
    I am pleased to report that FAA's weather research program was 
awarded the 2002 National Weather Association's Aviation Meteorology 
Award in recognition of developing and implementing the Current Icing 
Potential, as well as the National Convective Weather Forecast, the 
Forecast Icing Potential products, and the Rapid Update Cycle #20--all 
new products designed to enhance aviation safety and efficiency by 
allowing pilots to avoid hazardous flight conditions while improving 
airspace use.
    The FAA understands that while we are responsible for operating a 
safe and efficient NAS, we must also monitor and mitigate the effects 
of aviation on our environment. FAA will use research funding to 
continue to develop and validate new and enhanced methodologies to 
estimate aviation-related emissions that impact local air quality and 
global emissions. This will allow FAA to more accurately assess 
aviation-related emissions impacts and tailor measures to mitigate any 
impact on communities resulting from airline operations and airport 
development programs and increased efficiency in showing compliance 
with provisions under the Clean Air Act and National Environmental 
Policy Act.
    Currently, to understand the environmental effects of aircraft and 
airport operations, the FAA's environment and energy research program 
is developing superior decision support tools and providing strategies 
that both protect the environment while allowing aviation to grow. For 
example, the Environmental Protection Agency has accepted, as a 
``Preferred Guideline,'' the FAA model that assesses the air quality 
impacts of airport emission sources. This model incorporates 
enhancements resulting from a landmark aircraft plume study conducted 
last year. This work was accomplished in coordination with the 
Department of Transportation's Volpe National Transportation System 
Center, the University of Central Florida, and the National Oceanic and 
Atmospheric Administration. Further, the noise model developed by the 
FAA, the Integrated Noise Model (INM), today has over 700 users in 42 
countries and has become the de facto world standard in noise modeling.
    The FAA's collaboration with NASA spans across our R,E&D goals. We 
are working with our colleagues at NASA to make overall improvements to 
the NAS. In accordance with industry recommendations, the FAA's Free 
Flight Program has deployed a number of surface and airspace management 
tools, developed jointly with NASA, such as the Traffic Management 
Advisor and Surface Movement Advisor, which help air traffic 
controllers and system users make the system more efficient in the air 
and on the ground.
    We believe in our complimentary working relationship with NASA and 
we are proud of the accomplishments we have achieved together. Looking 
at the big picture of aviation research, NASA focuses its efforts on 
developing technology with the potential for long- and short-term NAS 
improvement while FAA prepares the technology for introduction into the 
NAS. Indeed, we are collaborating with NASA, DOD, and the 
Transportation Security Administration to assure a strong and vibrant 
NAS for future generations. As Administrator Blakey has said, we are 
developing ``a shared national vision for the aviation system of the 
future and to coordinate our research activities with that in mind.''
    As I have described throughout my statement, our commitment to and 
success in improving aviation safety and efficiency has involved 
extensive collaboration with our partners the aviation community. One 
of our most valuable partnerships is that with the Research, 
Engineering and Development Committee (REDAC). This group, composed of 
representatives from government, industry, and academia, contributes to 
FAA's R,E&D by providing guidance on our ongoing work, reviewing our 
proposed R&D investments, and evaluating our programs during execution. 
The REDAC provides this support through five standing committees--Air 
Traffic Services, Aircraft Safety, Airports, Environment and Energy, 
and Human Factors--comprised of REDAC members and additional topical 
experts from industry and academia.
    With the support of our partners, the FAA can provide world 
leadership in the conduct of high-priority research and the development 
of innovative technologies.
    In conclusion, on behalf of Administrator Blakey, I would like to 
express the FAA's appreciation for the support we have received from 
this Subcommittee and we look forward to working with you in addressing 
the many critical needs in aviation through the FAA's R,E&D program. 
This concludes my prepared remarks. I would be pleased to answer any 
questions that you may have at this time.

    Chairman Rohrabacher. Congratulations on your first 
testimony before Congress. You came in with, actually, one 
minute to spare, and you had props and everything like that. 
This guy has got a future, I am telling you. And we are willing 
to support a major increase in your budget. All right. Thank 
you very much, Mr. Keegan. Our next witness is Dr. John 
Hansman, Professor of Aeronautics and Astronautics at MIT. 
Doctor, you may proceed with your testimony.

STATEMENT OF R. JOHN HANSMAN, JR., PROFESSOR OF AERONAUTICS AND 
   ASTRONAUTICS; DIRECTOR, MIT INTERNATIONAL CENTER FOR AIR 
     TRANSPORTATION, MASSACHUSETTS INSTITUTE OF TECHNOLOGY

    Dr. Hansman. Okay. Thank you, Chairman Rohrabacher. As you 
noted, this is the 100th year of the Wright brothers, the 
anniversary of the Wright brothers. And the Wright brothers 
have always been a hero to me in terms of the way that they 
conducted research. They, basically, discovered all of the 
fundamental technologies of aeronautics on their own, and this 
is just an example of their work, where they went and looked at 
birds, they developed the testing methods, they developed the 
quantitative data in order to get to their work.
    In terms of questions, very quickly, how relevant is the 
Federal Aeronautics R&D to demands that the commercial and 
general aviation users are expected to impose on the NAS? 
Relevant, but inadequate. Are the R&D programs dedicated to ATM 
and associated funding levels sufficient? No. This is just a 
picture of the air traffic density over the U.S. This is 
November 14. You can see the heavy concentration in the U.S., 
and you can see the structure, and the system was saturating 
due to the growth in air travel before September 11. There has 
been a recession in air travel demand, briefly, but it will 
recover. You can see these are fundamental trends. You can see 
the delay data in the NAS. You have probably seen this data 
before. It was growing, we were going into nonlinear delays, 
particularly, in the summers before September 11. We pulled 
back from the edge, but as soon as the economy recovers and 
demand comes back, we are going to be there again. There is 
just a limit of the capacity limit factors in our system, the 
airports, the airspace, the demand structure, and the 
environmental limits that Jerry mentioned.
    Question 2: How do NASA and FAA Aeronautics R&D Portfolio 
distinguish themselves from foreign competitors? It is 
difficult to say very quickly. There are differences in 
national research strategies. You also have to note that in 
many developing nations, aerospace is looked at as a leveraging 
technology for job and skill development, so it is perceived as 
a national investment. Generally, more support of national 
industries directly. We can talk if you have questions about 
specific things. I will point to airframes in a minute or two.
    Question 3: This is, you know, my parochial view that how 
the university-based researchers dealt with the funding shifts. 
In my view, my professional history, we have seen a shift from 
fundamental research to program based research, for good 
reasons but it has had some adverse consequences. We see these 
episodic programs. There is some challenge where we are going 
to solve the problem in three years and, you know, get there, 
and a focus on sort of large program centers of excellence. 
Grants are now seen by the agencies as welfare instead of high 
risk-high payoff research, so grants is almost a four-letter 
word in some places. The universities and agencies, and we will 
take some hit on this, too, in the aerospace domain, have been 
slow to move their intellectual focus to the future needs. Now, 
I will just add an anecdote. When we did a strategic plan in 
our department 10 years ago, we realized 50 percent of our 
faculty were aerodynamicists. Aerodynamics is an important 
technology but it is not the technology that is going to pace 
the future vehicle, so we started the shift, and we need to do 
that.
    I would also note that it is very difficult for junior 
faculty and students to break into the research program. As you 
know, we are talking about the 2004-2005 budget here. The 
planning cycles for research are longer than the career of a 
student. It is very hard for someone to have an innovative new 
idea and break it into the system because we can't tell you 
what the innovative new ideas are going to be in 2004 today. So 
we need to think about that, and it tends to suppress what I 
think our young people are most creative groups. So I really 
commend a sort of shift back there.
    Question 4: Are we at risk? This is just an example I will 
give you. This is the growth in regional jets. This is 
registered data in the U.S. You will see this is the fastest 
growing component of the aerospace industry in the U.S. in 
terms of counts. None of these airplanes are produced in the 
U.S. Okay? This is just a----
    Chairman Rohrabacher. What kind of jets are...
    Dr. Hansman. Regional jets. They are jets 60 to 70 seat and 
smaller scale. So these are the Embraer, the Canadair 
Challengers, and there are some British Aerospace airplanes in 
there. If you look, this is just data from December 19. On that 
date, this is the non-U.S. produced commercial jet traffic over 
flights in the U.S. They were 37 percent of the overflights.
    One other thing I just need to say, it is very important to 
understand how our research components, both in terms of 
vehicle capacity and air traffic capacity, influence our air 
transportation system and also influence the economy. It turns 
out nobody really understands--the economists don't understand 
what we would call the economic enabling effects, which are how 
does the air transportation system support the health and well 
being of the economy. I will stop there.
    [The prepared statement of Dr. Hansman follows:]
               Prepared Statement of R. John Hansman, Jr.
Chairman Rohrabacher and Members of the Subcommittee:

    Thank you for the opportunity to comment on the federal investment 
strategy in aeronautics research. This year we will celebrate the 100th 
anniversary of the success of one of the greatest research programs in 
human history. I have always been awed by the Wright Brothers and their 
fundamental and systematic approach to discovery as well as how they 
addressed the key barriers to their vision of powered flight.
    For most of the past century, the U.S. has led the world in 
``pushing the edge of the aeronautics envelope'' based, in part, on a 
strong national aeronautics research strategy. This has resulted in a 
vibrant aerospace industry and an unsurpassed air transportation system 
which has contributed materially to the Nation's economic development, 
geographic structure and quality of life.
    There are, however, indications that the U.S. preeminence in 
aerospace has declined. In part this is due to increased investment and 
capability in other countries which see aeronautics as a critical 
leveraging technology area. This can be positive if we work towards 
mutual goals of safety, efficiency, environmental impact and 
capability. More disturbing, however, is the perception that the U.S. 
has not kept pace and is under-invested in fundamental and high risk 
research to develop the disciplines and people to shape aeronautics in 
the future.
    I will comment below on the specific questions which you have asked 
me to address.

How relevant is federal aeronautics R&D conducted by NASA and FAA to 
the demands that commercial and general aviation users are expected to 
impose on our National Airspace System in the future? Are R&D programs 
dedicated to air traffic management--and associated funding levels in 
the proposed FAA and NASA budgets--sufficient to meet projected growth?

    The NASA and FAA research programs dedicated to the National 
Airspace System (NAS) are clearly relevant but also clearly inadequate 
to meet the expected demand.
    Due to resource limitations and urgent short-term needs, the 
current national research portfolio generally focuses on localized 
improvements to the current operating paradigm based on existing 
technologies. While these are important in the short-term they will 
only achieve a marginal gains and will not meet the long-term demand in 
air traffic growth.
    The current system is on the edge of a capacity crisis as seen by 
the delay experience of 2000 and 2001 (Fig. 1). When the economy 
strengthens the pre-September 11, 2001 growth pattern will re-emerge 
(Fig 2) and the performance of the National Airspace System will 
degrade.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    It should be noted that meeting the future demand is an 
extraordinary challenge. The National Airspace System (NAS) is an 
extremely complex dynamic system which has evolved over the past 60 
years. It must operate safely on a 24/7 basis. The simplest mechanism 
to improve system capacity is to increase airport capacity (i.e., 
runways and gates) at critical locations. However these are exactly the 
locations where local communities oppose airport expansion due to 
noise, traffic and environmental impact. The trend is to maximize 
utilization of existing facilities and to use regional airport systems. 
This tends to increase pressure on the airspace system.
    We have historically had a very poor record at making paradigm 
shifting changes that the system will require due to the complex 
competing interested of the many stakeholders in the system. While we 
have been doing research on the technologies, it is not clear we have 
done sufficient research on the processes of system transition or on 
the work which would support difficult decisions to compel changes 
which would have long-term benefit to the public. In addition we need a 
stronger base research program in fundamental aspects of Air Traffic 
Management.
    We need a stronger national commitment to the long-term evolution 
of the NAS with the appropriate funding levels and coordination between 
the various agencies involved. This commitment must recognize the long 
time constants (10-20 years) required to effect change in the NAS.
    As to funding levels, the FAA and NASA research budgets for 
National Airspace Systems efforts have been level or declining for the 
past 5 years. This does not seem adequate in a period of increasing 
awareness of the emerging limitations of the NAS.

How do the NASA and FAA aeronautics research portfolios distinguish 
themselves from R&D conducted by our foreign competitors?

    It is difficult to make general statements since there are so many 
technical aspects and styles in the various national research programs. 
It appears that research portfolios are driven by national agendas and 
technology investment strategies. It is important to note that many 
countries, with less mature capabilities, view aeronautics as a key 
strategic area in technology, education and workforce development. 
Where agendas are similar the portfolios overlap and we often 
collaborate. My impression is also that many foreign research programs 
are more comfortable directly supporting national industries then we 
are in the U.S.

What technologies differentiate U.S. manufactured products from 
foreign-produced sources?

    For purposes of this discussion I will simply cover; civil 
aircraft, avionics, propulsion, and complex information systems.
    In the area of civil aircraft the technologies are quite similar 
with differences due more to corporate strategy than technical 
capability. Several foreign competitors (notably the Europe, Brazil and 
Canada) have been very successful in the U.S. market. Fig. 3 shows that 
Regional Jets produced in Brazil, Canada and Great Britain have been 
the fastest growing segment of the U.S. civil aircraft fleet in recent 
years. Fig. 4 shows the commercial jet flight trajectories on December 
19, 2002 over the U.S. with 37 percent of the flights being in foreign 
produced aircraft.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Part of the reason that international competitors have been able to 
successfully compete in the civil aircraft market is due to national 
leveraging strategies, labor costs and certification standards. 
Certification standards, instituted for safety reasons, tend to 
normalize out technical differences and make it difficult to hold a 
consistent technical advantage for those competitors who can meet the 
standard. Because much of the technical capability to produce mid to 
small size aircraft are accessible in developing countries aircraft 
production has been used as a leveraging capability in several 
countries such as Brazil, Indonesia and Israel. This trend will 
continue and the low labor costs will make these aircraft attractive 
for some markets.
    The U.S. does have a potential leadership position in the small 4-8 
passenger jet market with several interesting aircraft in development 
including the Eclipse and Cessna Mustang. It is interesting that these 
efforts appear to be traceable to the propulsion component of the NASA 
Advanced General Aviation Experiment.
    I would note that the competitive domain is different for large 
Civil Air Transport aircraft due to the very large capital investments 
required for aircraft development. In this domain there are really only 
two competitors, Boeing and Airbus. The vulnerability here is that if 
either were to exit the commercial aircraft business for any reason 
then there would be a monopoly in this domain until some other producer 
in the U.S. or abroad developed the capability.
    Looking onboard the aircraft at the Avionics systems. U.S 
manufactured products have a clear technical advantage over many 
foreign competitors. This is due, in part to good systems engineering 
but also leveraging from military and space applications (e.g., GPS, 
estimation techniques, etc.) as well as leveraging from information 
technology investments. I would note several adverse trends including 
the difficulty of certifying new avionics systems, the closing of 
industrial research laboratories, the weakening of the U.S. information 
technology sector and the growth in offshore information technology 
capability in low labor cost developing regions such as India.
    In the propulsion area there is general technical parity between 
the U.S. and Europe in large turbofan engines although there some 
European engines are reported to have lower emissions, albeit lower 
reliability, than comparable U.S. engines. In the turboprop and small 
turbofan domain the U.S. and Canada appear to have technical parity. It 
is, however, interesting that the new Eclipse and Mustang jets have 
ended up selecting Canadian engines even though the conceptualization 
of this class of aircraft was driven by expected U.S. engine 
development. In the piston engine domain Japan and Germany have 
developed advanced engines for aircraft applications.
    In complex information systems such as cockpit interfaces, Command 
and Control systems, Air Traffic Control systems, Computer Reservation 
Systems, etc. the U.S. appears to have the intellectual lead but often 
falls behind due to implementation challenges.

How have university-based researchers dealt with funding and 
programmatic changes in federally-sponsored aeronautics research 
programs? How is fundamental research faring in the current 
environment?

    This can be better. The relationship between the federal research 
agencies in aeronautics and the university-based researchers is not as 
strong and effective as it should be. There are both content and 
structural issues and the relationship must be worked on from both 
sides.
    First the content issues. Many of the university-based research 
organizations have been slow to shift their intellectual focus and 
disciplines from their traditional expertise to those areas which will 
be critical for the future of aeronautics. This has kept them out of 
many of the focused programmatic thrusts. In simplistic terms, the key 
technical issues in the 50's, 60's and 70's when many of our university 
based research organizations were developed are quite different from 
the key technical issues for the future. I would note that both NASA 
and the FAA have similar challenges in intellectual renewal.
    As an example, in my own department we had a strategic planning 
exercise over a decade ago where we looked at the key technical issues 
for the future and at our own core competency. At that time, almost 
half of the faculty in the Department of Aeronautics & Astronautics at 
MIT had backgrounds in aerodynamics and fluid mechanics which was 
totally out of balance with our assessment of key future technologies. 
Since that time we have reshaped our department to emphasize strategic 
areas in information technology, automation, systems engineering, 
critical software validation, materials, propulsion, and human factors 
while still maintaining capability in the more traditional aeronautics 
disciplines. It should be noted that, as a relatively large faculty, we 
have more flexibility to diversify to forward looking areas than 
smaller departments.
    From the structural standpoint. There has been a significant shift 
over the past decade away from small single investigator grants or 
contracts to large-scale episodic programs or multi-investigator 
centers of excellence. This has been driven, in part, by a shift away 
from a core competency base research structure to a more problem 
focused research structure as a mechanism to maintain research 
relevance and the management efficiency of consolidating funding into 
larger blocks.
    From the perspective of someone who advises junior faculty and 
bright doctoral students I believe that these trends have made it 
difficult for universities to be effective and for our young people to 
get their innovative ideas funded. I also believe that it has had the 
effect of reducing the technical engagement of the federal research 
personnel who must focus more of their energy on management and do not 
have the time to work on technical aspects.
    I would encourage NASA and the FAA to identify and develop key 
strategic core competencies while re-establishing a strong network of 
small scale (single investigator-single student) university-based 
research collaborations. A small investment in building core strategic 
competency in our agencies, our universities and our students will 
yield many near- and long-term dividends.

What are your views on the findings and conclusions contained in the 
Final Report of the Commission on the Future of the United States 
Aerospace Industry? Do you believe our aerospace manufacturing 
capabilities are at risk of a long and protracted retrenchment? What 
are your near-term and far-term assessments on the ability of domestic 
aerospace manufacturers to successfully compete in international 
markets?

    I agree with and support the findings in the commission report.
    I believe that we do not fully appreciate the importance and 
dependence of air transportation to economic health and quality of life 
both in the U.S. and throughout the world. Fig. 5 presents a simple 
conceptual model which we have been using to understand to interaction 
between air transportation and economic development. Traditional 
economic measures do not fully value the enabling effect of air 
transportation and we have a very weak understanding of the social 
impact. It should also be noted that the role of air transportation is 
quite different in mature and developing economies.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    I think that there is some chance of a protracted retrenchment in 
the aerospace industry if we simply assume that our past capability 
will guarantee future success. We must work to have the best products. 
It is important to note that the growth market for aerospace is outside 
the U.S. and we need to put more effort into understanding the 
requirements of these markets.
    I hope that the impact of the commission report will to strengthen 
our commitment to aerospace so we can strongly compete in the global 
market and to strengthen our resolve to contribute to global objectives 
such as improving the safety and efficiency of flight operations, 
connecting economies and people and minimizing adverse environmental 
impacts worldwide.

    Chairman Rohrabacher. Thank you very much. It is 
interesting to note that an air traffic controller was able to 
get his testimony out with one minute to spare, but it did take 
a Ph.D. talk 30 seconds longer.
    Dr. Hansman. University professors, you turn them on and 
they go for an hour.
    Chairman Rohrabacher. Until the bell rings. Right? All 
right. Our final witness today is Mr. Mac Armstrong, Senior 
Vice President of Operations and Safety for the Air Transport 
Association of America. We welcome your testimony and hear what 
the industry has to say about these things. You may proceed.

   STATEMENT OF MALCOLM B. ARMSTRONG, SENIOR VICE PRESIDENT, 
 AVIATION OPERATIONS AND SAFETY, AIR TRANSPORT ASSOCIATION OF 
                         AMERICA, INC.

    Mr. Armstrong. Good morning, Mr. Chairman, and thank you 
for inviting me. Our members fly 95 percent of all the 
passengers and cargo in this country, and as you know, they are 
in perilous financial condition. We have two major airlines, a 
number of smaller airlines, well over 20 percent of the 
industry in bankruptcy. And over the last two years, passenger 
carriers have lost $18 billion.
    Chairman Rohrabacher. Would you repeat those figures again 
as soon as these buzzers stop buzzing so we can hear that, 
because I think that is an important thing for us to know.
    Mr. Armstrong. A number of small airlines, two major 
airlines are in bankruptcy, amounting to well over 20 percent 
of the industry. And over the last two years, passenger 
carriers have lost about $18 billion, and recovery is not in 
sight. So we have been focused on surviving today. It is pretty 
difficult to think much about R&D in the future. Nonetheless, 
having said that, healthy R&D programs at NASA and FAA will be 
critical to ensuring that we can cope with tomorrow. So in that 
regard, first, we have to address the right issues. And second, 
we have to make sure that the funding is there to achieve the 
results that we need.
    As to the right issues, safety is our predominant goal, and 
I must say that we are achieving spectacular success in that 
arena. Last year, scheduled airlines achieved their best safety 
record since 1946. We had zero fatalities. So safety should 
remain a key focus of R&D, just as it is the top priority of 
the airlines. Nevertheless, we know that the air traffic delays 
of 2000 will return with a vengeance if we don't plan for the 
future, and that is why this hearing today is important to us 
and your desire for action is important.
    The FAA's Operational Evolution Plan will add 30 percent to 
the capacity of the current air traffic system, but that 
doesn't keep pace with the demand that is projected. The 
greatest proportion of the improvements in the OEP 
appropriately at the airports, but we in the FAA all know that 
we also need to improve the en route sections of the air 
traffic system beyond the current plans. FAA and NASA need to 
be working now on the big ideas that will be in the future, and 
that should be a broad based Government funded initiative to 
develop that next generation air traffic management system 
beyond the OEP. We believe it has to be highly automated, where 
routes are as close to direct trajectory as possible, they 
avoid weather, they automatically separate aircraft, and they 
seldom require intervention from the ground. Now, that is a 
tough challenge.
    Equally important is equipment additions to airplanes, and 
as you can imagine, having airlines spend money right now on 
that is not in the cards. However, the Aerospace Commission 
recently had a recommendation that the FAA should motivate 
operators to equip through some form of Government funding or 
credits, and we agree.
    We are also concerned about decreasing funding in 
aeronautics R&D and NASA. Aeronautics now represents only five 
percent of NASA's overall budget, and NASA has a history of 
cutting aeronautics programs to cover space program overruns. 
Such fund diversion is a tremendous threat to aviation R&D, and 
without that, we are unlikely to develop the next generation of 
airplanes, thereby, threatening the global competitiveness of 
the U.S. aviation sector. The European Union has already stated 
their intent to seek world leadership in aviation, and they 
have committed the R&D funds to do so.
    In closing, Mr. Chairman, we need your help in providing 
NASA and FAA with a sense of priority and the resources to 
begin working immediately on the next generation air traffic 
management system, to help FAA find ways to fund airborne 
equipment, and to be good stewards of the environment, and to 
see that NASA and FAA have the means to help ensure that the 
United States remains the world leader in aeronautics. I look 
forward to your questions.
    [The prepared statement of Mr. Armstrong follows:]
               Prepared Statement of Malcolm B. Armstrong
    Good morning, Mr. Chairman. My name is Mac Armstrong and I am 
Senior Vice President of Operations and Safety for the Air Transport 
Association of America (ATA). ATA represents the airlines that fly 95 
percent of all passengers and cargo in the U.S. I thank you for 
inviting me here today to discuss NASA and FAA aeronautics research and 
development investments.
    The airlines are in perilous financial condition. Immediately 
following 9/11, Congress issued grants of $5 billion, for which we are 
truly grateful. But, that $5 billion only offset losses from the four-
day shutdown and re-start of the industry during the month of September 
2001. Since then, multiple small airlines and two major airlines, 
representing more than twenty percent of the industry, have declared 
bankruptcy. Over the last two years, passenger carriers have lost about 
$18 billion. They are borrowing just to operate. Industry debt now 
exceeds $100 billion, while the passenger carrier's $15 billion total 
market capitalization continues to decline. Their ability to borrow to 
support continuing losses is evaporating. The few airlines that have 
been able to achieve a profit see razor thin margins--and with the 
prospect of war on the horizon, the overall picture is bleak.
    The reasons for the imperiled condition of the industry are clear. 
Revenue was already soft in 2001 from a weak economy. It further 
declined sharply following the 9/11 attacks on America. And demand is 
now still further suppressed by concerns for an impending war with 
Iraq. Although airlines have embarked on an unprecedented program of 
self-help to address this ``perfect storm'' of adversity, stubbornly 
high fuel prices and escalating security and insurance costs, have been 
added to the mix with devastating effect.
    The industry has already achieved annual savings of over $10 
billion in capital and operating expenses, and efforts are well 
underway to remove billions more in costs. Airlines have cut 
unprofitable routes, parked hundreds of airplanes and laid off nearly 
100,000 people. But the ``perfect economic storm'' plus skyrocketing 
costs for fuel, security, and insurance are proving beyond our ability 
to battle alone.
    Analysts predict the industry will lose another $4 to 6 billion 
this year, meaning that airlines are on target to lose some $25 billion 
over the three years 2001 to 2003. Given this dismal backdrop, it has 
been difficult for the industry to focus on aeronautics research 
programs that might yield benefits in five years or more in the future. 
We have understandably been focused on surviving today!
    Having said that--while we must focus on survival today, 
maintaining and augmenting the R&D programs will be critical to 
ensuring that there will be a tomorrow. And that is where I will focus 
the remainder of my remarks--on key things we must do to ensure a 
robust aviation R&D program here in the U.S.
    First, we must address the right issues in the smartest ways 
possible. Second, we must make sure the funding is there to achieve the 
results we need.
    I turn first to the right issues. Of course, safety remains our 
predominant goal--and we are achieving spectacular success. Last year, 
scheduled airlines achieved their lowest number of accidents since we 
became a major industry after World War II, and we had ZERO fatalities! 
Safety should remain a key focus of R&D, just as it always is the top 
priority for the airlines in their operations.
    Nevertheless, we know that the air traffic delays of 1999 and 2000 
will return with a vengeance if we do nothing to plan for the future. 
That is why today's hearing and the interest of the Committee in taking 
action are so important.
    The FAA's Operational Evolution Plan is an important step in 
increasing capacity in the ATC system. The Plan will only add 30 
percent improvement in capacity by 2012, while the number of flights 
are predicted to increase by 50 percent. The greatest proportion of 
these improvements will be at airports, with little capacity being 
added to en route airspace. Both we, and the FAA, know that work must 
be done to improve the en route segment of the ATC Operation beyond 
current plans.
    FAA and NASA need to begin work now on the next BIG idea--a broad-
based, government funded initiative beyond the OEP to deal with 
predicted traffic increases beyond 2010.
    Today, the U.S. ATC system is human centered and human constrained. 
FAA has been augmenting controller tasks with new tools, but they 
provide only incremental improvement. These tools are NOT enough to 
cope with predicted traffic.
    What we believe must be done is to develop a system that is HIGHLY 
automated where routes are assigned that: are as close to direct 
trajectory as possible, avoid weather, automatically separate aircraft, 
and seldom require intervention from the ground.
    A human intensive ATC system, coping with increasing traffic 
demands, that relies on a continuing subdivision of airspace (as we do 
today), requiring additional controllers, will, or may have already 
reached a point of diminishing returns.
    Something must be done now!
    Equally important is equipage, such as data link additions, which 
will be necessary by airlines to gain certain capacity benefits. As you 
can imagine, having airlines spend enormous amounts of money for 
avionics, given our current plight, is not likely to happen.
    The President's Commission on the Future of the U.S. Aerospace 
Industry recently made a recommendation that addresses this problem. 
They said that airborne equipment needed for safe, secure, and 
efficient system-wide operations should be deemed part of the national 
aviation infrastructure, and FAA should be encouraged to support and 
motivate operator equipage by any of the following: full federal 
funding for system-critical airborne equipment, partial funding 
(through some form of voucher or tax incentives), or auctioned 
investment credits.
    We suggest that the FAA fully examine these alternatives with 
airspace users to determine viable methods to achieve needed airborne 
equipage.
    With regard to the proposed joint program office linking FAA, NASA, 
DOD and Homeland Security, we know very few details, but we are 
concerned with what we do know. Certainly the notion of sharing 
technology and research to improve National Airspace System (NAS) 
capacity is a goal worthy of the combined efforts and resources of 
those agencies. But, a process that does not involve the user of the 
system will not succeed. We are concerned that there is no formal 
coordination with Airspace users about NASA activities dealing with 
future improvements to the FAA's Air Traffic Management system. Since 
NASA appears to be responsible for more and more of the FAA air traffic 
capacity research, this has become an important issue for us.
    While getting the right issues into focus is a serious challenge, 
ensuring adequate funding to do the job is equally important. We are 
greatly concerned about decreasing levels of funding dedicated to 
aeronautics R&D. As you know, the NASA budget includes R&D funding for 
both aeronautics and space. However, in recent years, the space related 
projects have taken priority.
    In fact, aeronautics represents only about 5 percent of NASA's 
budget, and NASA has a history of cutting from its aeronautics programs 
to cover space program overruns. Such fund diversion is a tremendous 
threat to aviation R&D--programs that are critical to the next 
generation of aircraft.
    I do not mean to suggest that the space program is not important. 
It is. But, we must not shortchange the future of aircraft innovation 
as we look farther and farther into space. The NASA and FAA aeronautics 
R&D programs should be restored to full funding and funding increases 
should be also be considered.
    An example of a ``right'' issue that is under-funded is the R&D 
budget for environmental innovation in noise and emissions. Although 
budget requests for FY04 have been increased for NASA's Ultra-Efficient 
Engine Technology (UEET) program to reduce emissions, and the Quiet 
Aircraft Technology (QAT) program to reduce noise, actual budget 
authority for these two programs has been less than half of what has 
been needed over the past few years. These diminished funds result in 
diminished opportunities to make significant advances in noise and 
emissions technology. As you know, R&D funds are used by NASA and its 
partners to fund the earliest stages of noise and emissions technology 
development. Once such technology is developed to a certain Technology 
Readiness Level, industry funding has been used to further test and 
develop the most promising technologies. It was this public/private 
partnership, and a significant NASA investment in the 1980s Energy 
Efficient Engine program, that developed the base technology in today's 
modern engines. Without a similar level of investment in R&D funding 
and support from NASA and FAA, it is unlikely that we will develop a 
new generation of aircraft that are significantly quieter and more 
environmentally friendly. Such a possibility is all the more sobering 
given the instability of fuel prices and growing concerns about the 
impact of aviation on the environment.
    Further, we must be concerned about the global competitiveness of 
the U.S. aviation sector. Cuts in NASA and FAA R&D budgets in the U.S. 
have been met with increases in the R&D budgets of our competitors. 
Indeed, while we have been cutting funds from our aeronautics R&D 
budgets, the European Union has stated their intent to seek world 
leadership in aviation--and they have committed the R&D funds to do so.
    In closing Mr. Chairman, we need your help in providing NASA and 
FAA with the sense of priority and the resources to begin work 
immediately on the Air Traffic Management system of the future, to help 
FAA find ways to fund airborne equipment, and to see that NASA and FAA 
have the means to help ensure that the United States remains the world 
leader in aeronautics. I will be happy to answer your questions.

                               Discussion

    Chairman Rohrabacher. Thank you very much for that input. 
While I get this cough out of my throat, I am going to ask Curt 
Weldon if he could start the questions.
    Mr. Weldon. Thank you, Mr. Chairman. Let me first of all 
congratulate you. As a member of the steering committee, I was 
in when a request came in as to whether or not you should be 
the Chair of this committee, and you know, without any 
hesitation, it was unanimous on our side that we needed you in 
this spot, and you have done a commendable job. You have an 
interest that is outstanding, and with our very capable Ranking 
Member, we feel very confident that this subcommittee is a very 
important subcommittee this session, and will play a leadership 
role. So I want to applaud you, personally, for your effort.

                         Rotorcraft R&D at NASA

    Mr. Chairman, I come this morning confused and a little bit 
upset. You know, in a previous capacity, I chaired the Defense 
R&D Subcommittee for six years, where my job was to oversee 
about $38 billion a year of defense R&D spending, much of it 
done in collaboration with other agencies. And during that 
entire time, I have also sat on this committee, where we 
oversee over $40 billion of non-defense R&D spending. And our 
job is to put money on the table into the agencies that can 
develop the cutting edge technology for the future, and where 
possible, support the efforts that our military is doing. But 
in the end, also focus on benefits to the civilian community.
    NASA, as I understand it, has the responsibility not just 
for space, which I have been a total 1,000 percent supporter of 
in all their budget requests and operations, and in fact, I 
think Sean O'Keefe is the right guy to be heading NASA right 
now. But if I am not mistaken, Mr. Chairman, does not NASA also 
have the responsibility for rotorcraft research? Is that 
correct?
    Chairman Rohrabacher. Aeronautics.
    Mr. Weldon. NASA has responsibility--and let me just say 
for the record, I now chair a major procurement part of defense 
budgets for the Congress. One of our largest areas of spending 
money for the military is in rotorcraft. The two newest 
programs that we are developing, one for the Army and for 
Marines and Special Forces Command are the Comanche and the V-
22. They are sucking up billions of dollars a year of our 
defense budget--billions of dollars. Special Forces Command 
thinks that these aircraft will revolutionize the way they do 
their job, and our Marines have consistently held the V-22 is 
their key technology for the future. In spite of two accidents 
we had, one caused by a software glitch and the other by a lack 
of fully understanding the impact of vortex ring state on the 
training of our pilots, we are over that. In fact, Pete Aldrich 
just said when he visited the program, he is confident that we 
are now ready to move forward. We are into producing over--we 
have produced over 50 aircraft already and that program is now 
back in testing for a final decision this year.
    Rotorcraft offers tremendous advantages for us from the 
standpoint of civilian transportation. In fact, we have had 
studies that show that with the terrible problems of noise, and 
the problems of the inability to grow our airports, rotorcraft 
technology could be a great way to solve those challenges. And 
in fact, coming from the mid Atlantic region, I can tell you it 
is very difficult to expand existing airports to take care of 
bigger and bigger jets, which pose additional problems both in 
terms of landing them, taking them off, and dealing with the 
problems of neighbors.
    Rotorcraft is being seen around the world as a major growth 
area. In fact, Eurocopter and companies like Augusta are doing 
very well, while our industrial base in this country shrinks, 
and shrinks, and shrinks. The American Helicopter Society, 
headed by Rhett Flater, it said they are in dire straits, as we 
once had four major manufacturers, now have three, and we will 
probably end up with two. So again, we are seeing perhaps that 
technology go offshore.
    Now, does this mean there is no more research? Well, I have 
talked to all the experts. I talked to the provost at Penn 
State, where they have an excellent rotorcraft engineering 
program. I have talked to the dean of University of Maryland, 
where they have one of the best rotorcraft engineering programs 
in the country, and I have talked to the president and provost 
of Georgia Tech, and they all said the same thing--Congressman, 
there is tremendous opportunities for us to do research in 
rotorcraft, tremendous. We can help the military because we can 
build pilotless aircraft that are rotorcraft in nature that can 
help us solve problems, but they also can support us in the 
whole issue of Homeland Security. And as a member of the 
Homeland Security Committee--in fact, we have already discussed 
the idea of perhaps rotorcraft helping us not on the defense 
side, but helping us in terms of the civilian aspects of 
maintaining our quality of life, whether it be for 
surveillance, or whether it be for the Coast Guard missions of 
environmental monitoring, or other issues, domestically, or 
over in search and rescue, whatever they would be; but not 
defense strategies or not defense needs.
    So I say all of these things, and then I ask the question, 
Dr. Creedon, how much did you request for rotorcraft research 
in the 2003 and 2004 budgets?
    Dr. Creedon. In the----
    Mr. Weldon. How much?
    Dr. Creedon. In 2003 budget, the original request was for 
zero, however.
    Mr. Weldon. No. I asked a question. The 2004 budget, how 
much?
    Dr. Creedon. The 2004 budget, the request as it now stands 
is in that budget is $15 million.
    Mr. Weldon. Did the staff give me bad information? I was 
told it was--we have a disagreement here, so let me ask the 
staff. How much do you understand is in the budget for 2004? Do 
you not have your facts together or are you misquoting what 
your request is? Staff tells us you are requesting 2003 and 
2004, zero. How much is it?
    Dr. Creedon. Our request in 2003 was zero. Our request in 
2004 has contained in that request $15 million, but the staff 
is not misleading you. It is in our Vehicle Systems Program and 
is not specifically identified as rotorcraft, so that is 
probably why you are getting that information from staff.
    Mr. Weldon. Do you concur with that? You have to. Well, let 
me tell you something, Doctor. Maybe you have some adequate 
justification, but I am going to tell you, as one member of 
this committee--and I am not just speaking for myself, you will 
hear this from other Members, a supporter of NASA--you better 
do some explaining for us about where your priorities are. If 
you don't want the responsibility for rotorcraft research, say 
so on the record and we will take it away from you. But NASA is 
not going to play games with this industrial base. We have 
tremendous technology opportunities and your mission is not 
just in terms of space. There are other aeronautics research 
needs that this nation has. Our rotorcraft industry, 
consistently, our academic community, consistently, has said 
there are opportunities where they can provide new cutting edge 
research, yet, you have requested zero dollars. Why?
    Dr. Creedon. If you would like me to try to answer that, I 
would be happy to.
    Mr. Weldon. I would absolutely like you to try to.
    Chairman Rohrabacher. We will hear the answer and then we 
have to move on to the next question.
    Dr. Creedon. Okay, fine. One of the things that the 
administrator has definitely tried to instill throughout the 
agency is that our budgets are responsible and credible. 
Specifically, when we propose to do something, we have 
adequately addressed what the budget needs of that item would 
be. There are difficult choices that one needs to make when one 
is putting together any budget. I have explained in my written 
and oral testimony that we have taken within the runout budget 
that we have and tried to start a number of things that we 
thought were important and vital to the country. I have 
mentioned security, I have mentioned the national airspace 
system needs, I mentioned the noise. When you do these things 
within a fixed budget, there are difficult choices that must be 
made. And we made the choice to discontinue in 2003 the 
rotorcraft funding, however, we have had the occasion--I have 
talked to Mr. Flater himself and many others to reconsider that 
judgment. And in fact, in both Fiscal Year 2003 and in Fiscal 
Year 2004, in discussions that I have had with Dr. Michael 
Andrews, I believe one of his titles is Chief Scientist of the 
Army. We have agreed to put aside $15 million in both of those 
years, even though our original request for 2003 was zero. They 
are going to put in at least a matching amount, and we will be 
working together on some of these high priority research 
activities that you discussed.
    Mr. Weldon. Just a quick follow-up.
    Dr. Creedon. I should add one thing. It is not our desire 
to have the responsibility for rotorcraft research to be 
removed from NASA.
    Chairman Rohrabacher. Mr. Weldon, one very quick.
    Mr. Weldon. I would just say, well, your actions don't 
reflect that statement that you just made, and I am going to 
hold you accountable. But let me just say, Mr. Chairman, I 
invite you and the other members to come to a hearing next week 
on March the 12th, where the leading rotorcraft leaders of the 
country will come in and testify before my Committee, and we 
will ask them the same question, and Dr. Creedon, we will see 
what their response is. $15 million from the Army is a pittance 
compared to what we are spending in our defense budget, and I 
am ashamed that you at NASA, and Sean O'Keefe at NASA, have not 
seen fit for one of the key technology growth areas for this 
nation and the world, and you have said you don't have enough 
money to put anything in the budget. Only as a second thought 
have you decided that perhaps maybe you can find $15 million. 
Maybe we should take it out of the operation of your budget 
that you, yourself, handle with your staff. In the end, perhaps 
I would feel more comfortable with that.
    Dr. Creedon. Just two quick things. That is where we are 
taking the money from.
    Chairman Rohrabacher. Let me note that it is the policy of 
this Chairman always to allow the witness to have the last word 
in these type of exchanges, whether it is with the Chairman or 
any other member. So Dr. Creedon, you may have the last word on 
this.
    Dr. Creedon. Well, I just want--the money did come out of 
the budget that I am responsible for, the money we are putting 
in, and perhaps I misspoke. I said we are putting in $15 
million; the Army will be putting in more than that amount.
    Chairman Rohrabacher. Thank you very much, Dr. Creedon. Let 
me note that it is this type of creative tension--let me 
describe it as creative tension--between the legislative branch 
and the executive branch that helps us make the right decisions 
in a democratic society, and we are very happy to have people 
who both have expertise and passion about what they believe in 
on both sides. So thank you very much, both of you, for that 
exchange. It was necessary.
    Now we turn to--and was that a vote, by the way? Okay. We 
now turn to Mr. Wu because Bart Gordon is not here yet.

              Constraints in the National Airspace System

    Mr. Wu. Thank you, Mr. Chairman. Let me ask a couple of 
questions with perhaps slightly less creative tension involved. 
Dr. Hansman, you put up a slide that seemed to show that gates, 
runways, utilization of airspace, that those are a chokepoint 
phenomena for more efficient use at higher capacity for our 
national air transport system. And looking past this period of 
pain for both passengers and airlines to, hopefully, a more 
prosperous future where there is much fuller utilization, I 
would invite you, Dr. Hansman, Mr. Armstrong, Mr. Keegan, to 
address the issue of which of those do you think are the real 
gating phenomena, pardon the term, or the tightest chokepoints, 
and are there others that you would try to address in order to 
create more capacity, which I am confident we will need in the 
future?
    Dr. Hansman. Let me start. I am sure Charlie will have 
something, but the number one constraint in the U.S. right now, 
when it reemerges, will, in fact, be runways. We have a finite 
safe limit on what we can do in operating runways and where 
people want to go turns out to be centralized. So if you looked 
at the data--actually, it is interesting. The delay data in 
2000, you will notice that it went up in the summer, didn't 
come down in the fall. That was due to a single airport, 
LaGuardia, being scheduled way past its capacity, and it is 
such a nonlinear system that the delays propagated through the 
system. So that is number one, and we are working on it. 
Unfortunately, the OEP, while it is a great plan, isn't adding 
runway capacity in some of the key places because of the 
environmental and other constraints that come in the system.
    Number two will be airspace, and in fact, we think that the 
airspace will emerge as a greater problem because the traffic 
will tend to divert to other airports, so you will get 
airspace. But let me just close and say that the fundamental 
problem is our current operating paradigm has limits so we 
can't control traffic the way we currently do and get more 
than--we can argue about it, but something like a factor of two 
increase in capacity and key points in the system. So we will 
be constrained by that and the cost will go up, so we really 
have to look forward, way in the future, to come up with 
operating paradigms and figure out ways to transition.
    Mr. Wu. Mr. Armstrong, I want to give you a chance to 
comment, if you wish, but before I do that, Dr. Hansman, could 
you further explain--you just mentioned this operating paradigm 
that gives us a problem. I would like you to unpack that for us 
a little bit.

                            En Route Sectors

    Dr. Hansman. One way you can look at it now is we provide 
great service, air traffic service, today to aircraft, but it 
is, essentially, a very labor intensive hand carrying product. 
So every aircraft that is flown is being looked at by a number 
of people. And the fundamental problem on expanding the system 
is one controller has a limit, and depending on the type of 
airspace, it may be 15 or 20 airplanes. The way we deal with 
the limit is if it gets to be too much traffic, we cut the 
sector. Okay. But you can't do that forever because there are 
interface costs. I have to hand the airplanes off. So at some 
point, you get to diminishing returns, and you fundamentally 
can't expand the system that way. You have to look at a 
different way of doing it. I don't know if that was clear.
    Mr. Wu. Okay . Mr. Armstrong.
    Mr. Armstrong. Thank you, sir. We would agree with 
everything that Dr. Hansman has said. The difficulties, or the 
limitations, rather, are runways at airports, and the en route 
system. The good news is that the Operational Evolution Plan 
does have a number of runways in it. We support those that are 
there. We don't have all the ones that we would like, but 
environmental limitations prevent that, though, we strongly 
support the ones that are in there. Because of that 30 percent 
capacity increase that I talked about, 70 percent of that comes 
from runway construction, as a matter of fact, new runways. And 
so that is a good part of that plan, but as Dr. Hansman has 
indicated, the en route sector is already going to begin to 
limit us as soon as we begin to expand back in the demand at 
all, and that needs to be more highly automated so that those 
controllers can handle more space, more airplanes with the 
same----
    Mr. Wu. Thank you, Mr. Armstrong. I apologize for cutting 
you off, but I just want to add one more comment based on the 
comments that you and Dr. Hansman made about additional runway 
capacity. And that is, whether it is here in Washington, where 
Chairman Rohrabacher and I share one block not too far from 
here, we can hear the roar of National Airport, or at home in 
Oregon, where I happen to live on a hill, and when I hold town 
meetings in my own neighborhood, there is always some 
discussion of airline noise. I would commend to you gentlemen 
that we do aggressive research on quieter engine technology so 
that as we build this capacity both in the air and on the 
runways, that none of us have to face a more hostile public as 
a result of engine noise. Thank you, Mr. Chairman.
    Chairman Rohrabacher. Thank you. The Chairman will now take 
my five minutes, seeing I have cleared my throat here. Let me 
note that the roar in my apartment comes from the subway, which 
is right below us, too.
    Mr. Wu. We get it from above and below.

                          Runway Construction

    Chairman Rohrabacher. So we are getting it from both 
directions there. And I would note that Mr. Keegan did mention 
that there has been a lot of research on noise from airplanes, 
which I think is very commendable, and I think that you 
bringing up the subject is important. I would like to note that 
when you talk about airport runway space, I mean, people are 
not willing to permit people to build anymore runways or to 
build anymore airports it seems. The NIMBY factor in the United 
States is almost beyond belief now. I mean, you know, just to 
heck with the rest of the world, to heck with the rest of the 
country, nobody is going to build anything near my house, you 
know, not in my backyard. The not in my backyard syndrome has 
actually been replaced in California with the banana syndrome, 
which is build absolutely nothing anywhere near anybody.
    And so we are not going to be getting, I don't believe, 
more runway space, although I back--I would be supportive of 
trying to get new airports and runway space, but I have been 
beaten back in our own area. El Toro has $2 billion worth of 
runway infrastructure and airport infrastructure, and yet, the 
people in my county were able to thwart that because of fear of 
noise, I might add, which was the basic worry. So perhaps the 
future does lie in a new type of aviation.
    Curt is talking about the V-22 with the possibility of 
going up and down. Let me note that that is one technology that 
would permit us a lot more flexibility in dealing with this 
issue. Dr. Creedon knows there is another--there are several 
other alternatives of vertical takeoff and landing to the V-22 
that are also under development and could well work out. The V-
22 might work out, these other technologies might work out. So 
perhaps vertical takeoff and vertical landing will help us with 
some of the problems, distribution and changing our system, so 
that we can take up the slack from an increasing demand.

                           Aircraft Emissions

    Just a thought here, I would like to suggest to you, Mr. 
Keegan--I highly commend you, as Mr. Wu has commended you for 
the research on noise, I would also commend you for the 
research done on pollution as a factor. In the Los Angeles 
basin, I have to believe that because, again, they focus so 
much of the takeoff and landing on LAX, rather than 
distributing that, which the public in Orange County wouldn't 
permit them to do that, but that means there is an air 
pollution problem and that we are ending up putting the people 
in LA County, their health, at great risk. And I think that it 
is very commendable. Maybe you can tell us a little bit about 
that, you say that you are trying to take lead out of fuel, but 
didn't that screw up the engines in our cars?
    Mr. Keegan. Being in aviation, I am not going to speak to 
the car part, but we are trying to make sure that unleaded gas 
in general aviation aircraft is extremely safe. So that is our 
first and foremost concern. We are quite proud of our community 
that is dealing with emissions activities and modeling. They 
have what has been recognized as a world premiere computer 
modeling that can determine where the pollution is and how we 
sort of can contain that in arrival routes and on the ground.
    Chairman Rohrabacher. Do you have studies of how much air 
pollution is caused by aviation?
    Mr. Keegan. GAO had just completed a study. I believe it is 
in draft, but what it says is that aviation contributes one-
half of one percent to all the pollutants, and it is an 
extremely low figure, but we are still addressing the issue of 
our aircraft and where that comes from. The work that----
    Chairman Rohrabacher. And working on whether or not those 
pollutants might be more dangerous than some of the pollutants 
coming from elsewhere?
    Mr. Keegan. Correct, and where they distribute from, and at 
what particular altitude. And one of the things that we are 
also working on is the ground equipment and their contribution 
to the emissions around and at the airport itself, and how they 
move with wind and the movement of the aircraft. So we have a 
very strong effort in that area, particularly, in 2004, to move 
forward and use where we think we have tremendous world 
leadership and try to drive standards and regulations home from 
where we think we are the experts.

              Aeronautics Research Projects at FAA & NASA

    Chairman Rohrabacher. Okay. Mr. Armstrong, do you think 
that the cooperation that private business, that our 
businessmen who run the major airlines are getting from the FAA 
and from NASA in terms of research development, is that 
cooperation as--well, how would you rate it--A, B, C, D?
    Mr. Armstrong. I am not sure I would want to put a grade on 
it, but I will give you some examples of some successes that we 
have had----
    Chairman Rohrabacher. All right.
    Mr. Armstrong [continuing]. Which highlight why it is 
important that we continue this research and development. With 
respect to noise, in 1975, we had seven million people in 
America who were exposed around airports to noise levels of 65 
decibels or greater. That number today is down to 600,000, 
which is spectacular.
    Chairman Rohrabacher. Would you repeat that figure again 
for me?
    Mr. Armstrong. In 1975, it was seven million; today, it is 
600,000, and that is a direct benefit from the engine 
research----
    Chairman Rohrabacher. Wow, that is tremendous.
    Mr. Armstrong [continuing]. That was done at NASA, and then 
it extended into industry in the 1970's and 1980's so that 
engines today are much quieter than they were then and we are 
getting payoff from that.
    Chairman Rohrabacher. And you see how much worse it would 
be if we wouldn't have had that research.
    Mr. Armstrong. I might also add that there is a bill that 
has been introduced by Senators Allen and Dodd and Congressman 
Larson that is to help maintain leadership in research and 
development to help us continue to reduce noise levels, make 
the engine more efficient, and to reduce pollutants from the 
engines, and we strongly support that.
    Chairman Rohrabacher. And now, if we can do something to 
turn something into money for the airlines as well, that might 
help out. Let me just note that I think NASA--now, we depend a 
lot on NASA's research, and there is a question about whether 
or not, you know, how we make our decisions of what the 
priority is, aeronautics or space. Dr. Creedon, maybe you can 
talk a little bit about that, where your priorities are and how 
you make that decision, what direction the money is going to go 
to in terms of research?

                    Research Prioritization at NASA

    Dr. Creedon. In the recent past, in the aerospace 
technology enterprise within NASA, the budget came as an 
enterprise budget. And we went through what we felt was a good 
process, involving external input as well as our own 
deliberative processes, to try to determine how much of the 
money went to aeronautics and how much of the money went to 
supporting space science or even space transportation items. In 
the 2004 budget, for the first time in a long while, 
aeronautics is its own budget line item, and that will assist 
us in the future in determining how much money goes into 
aeronautics, and all of the money that is in that budget line 
item will be directed toward aeronautics research activities, 
such as we were talking about emissions just before. One of the 
things that we are doing in the aeronautics budget is we have 
just completed tests at the Glenn Research Center on a new 
engine type that has already demonstrated it can reduce nitrous 
oxides by 50 percent and we are well on our way to achieving a 
70 percent overall goal. So my answer is, in the past, we had 
an enterprise budget, and we tried to do the best job we could 
both with internal and external inputs and discussion on 
dividing it between aeronautics and other activities. Now and 
in the future, aeronautics is its own budget line item so we 
can discuss it as a budget line item.
    Chairman Rohrabacher. Well, thank you. We will be paying 
attention to that bottom line. Let me note that NASA and the 
Defense Department have demonstrated a keen interest in 
unmanned aerial vehicles, and remote control, and these type of 
things that perhaps in the future we may be more heavily 
involved in. And I, personally, would suggest that NASA take a 
look at that and become perhaps more focused on remote control 
research, because that may be something in the future, along 
with the Department of Defense, would be very important to our 
competitiveness.
    Is that a vote or is that not a vote?
    So with that said, we now go to Mr. Larson from 
Connecticut.
    Mr. Larson. Thank you, Mr. Chairman. Let me also echo the 
sentiments that were expressed earlier by Mr. Weldon and 
congratulate you on your chairing of this committee. Let me 
also associate myself with the remarks of Mr. Weldon, and I 
would seek unanimous consent to--because I have far more 
questions than I know I am going to be able to answer to--
submit those in writing to the Committee so that they could be 
answered by Dr. Creedon and----
    Chairman Rohrabacher. With no objection, that, and also, 
every Member will have the right to submit whatever questions 
he or she does not get answered today will be submitted to the 
witnesses.
    Mr. Larson. I want to thank Mr. Armstrong, as well, for 
mentioning the bill that has been introduced in the Senate by 
Senator Dodd and Senator Allen, and I also want to commend my 
colleagues here in the house, most notably, Mr. Forbes and Mr. 
Weldon, who have a very keen interest in this R&D legislation 
and have been spearheading this as well. And I would like to 
submit that to NASA for your perusal and, hopefully, you can 
find a way to come on board.

                         Aeronautics R&D Budget

    What is troubling to me, and we had Administrator O'Keefe 
in here last week, is that we continue to look at a reduction 
in the aeronautics budget. It seems to me that the mission of 
NASA is aeronautics. And though I am incredibly supportive of 
the space program, as Mr. Weldon has pointed out, you place us 
in a situation by orphaning the aeronautical aspects of NASA's 
commitment to making funding decisions that detract from the 
space program, and at a time of crisis, especially, this seems 
very unfortunate. However, this committee has seen fit to go 
abroad and do research and meet and discuss the aeronautical 
challenges that we face around the globe. We know that the 
European Union is focused on something they call Vision 20/20, 
where they are out to take this market away from us. And when 
we look at our own troubled airline industry here, and the 
testimony that was made by Dr. Hansman, it just seems appalling 
for us that NASA seems not even to care or focus on this issue 
while a unified European Union is eating our lunch every single 
day. This is definitely an area that calls out for your 
commitment. The job losses that are taking place, the highly 
skilled, highly trained, critical mass of people in the 
aerospace industry that are dwindling on the vine as we cede 
industry to the Europeans is a travesty of mammoth proportions 
that this committee and NASA has got to address. What are your 
plans for that?
    Dr. Creedon. First of all, I would like to say that it is 
not so, that people in NASA do care deeply about the aviation 
and aeronautics community and in the research in that 
community.
    Mr. Larson. Well, let us say it is not reflected in your 
budget.
    Dr. Creedon. That is certainly so. In the budget a week 
ago, at this very moment, Administrator O'Keefe answered a 
question about the five percent decline that is projected in 
the aeronautics budget, that that really should be looked upon 
as a baseline for the 2004 year, and he said that it did not 
reflect some of the things that we were considering. And 
specifically, he mentioned things that we are considering with 
the FAA in terms of a future generation air transportation 
system, and he said that he was hopeful that the budget would 
show increases in the future. One of the things that I would 
say about the bill, the Larson-Forbes bill, is that NASA 
certainly shares the intent of the bill on the importance of 
research and development to the future of aviation and we agree 
that the areas in the bill are many of the right ones to focus 
on.
    In the past, we have come up with an aeronautics blueprint 
for the future, and I would say all of the things that are 
contained in our blueprint are--all the things mentioned in the 
bill are also contained in our blueprint. And if, in fact, more 
money is available to us, we will put them against what we 
think the goals of the aeronautics blueprint are, which are the 
same goals that are in your bill.
    Mr. Larson. I would just like to reiterate what Mr. Weldon 
said. If you don't we will.
    Chairman Rohrabacher. It just didn't sound as tough coming 
from you as it did from Curt. I thank you for that. No one can 
quite match up to Mr. Weldon's veracity on these issues. Do you 
have one last question? Okay. Thank you very much.
    We now turn to a Member of the Committee who, actually, is 
probably one of the best educated Members of Congress, who we 
rely on not just for philosophy, like we all can talk about 
philosophy. This guy actually understands all these--the 
physics behind all of these things. And so I now turn you over 
to Roscoe Bartlett.

                        Trends in Basic Research

    Mr. Bartlett. It would be nice if that were true, wouldn't 
it, that I understood all the physics involved? Dr. Hansman, 
you had a visual that showed a shift from basic research to 
applications focused use of money and resources.
    Dr. Hansman. Yes.
    Mr. Bartlett. Under that, you noted that grants were now 
seen as welfare instead of high risk payoff. You saw this shift 
for basic research as good or bad?
    Dr. Hansman. I think it is bad. I think--understand, I 
think the motivation for this--in my experience the most 
effective and creative, a lot of the most effective and 
creative work, really comes from unsolicited proposals, single 
investigator, you know, one faculty member working with a 
student type ideas. And there has been a shift to these sort of 
very large scale problem driven programs, and I think those are 
important, but the portfolio appears to have shifted too much 
to those programs and not enough to the core research.
    And one of the things I would just like to point out, the 
benefits we have gotten in the noise is really the result of 
work that was done 10-15 years ago as part of the core research 
and technology programs within NASA. So if we are not investing 
in the future at some level, we are going to have problems in 
the future, you know.
    Mr. Bartlett. In a former life, I was a scientist and spent 
a number of years in basic research, and what many people 
didn't understand is that the very productive engineering 
applications of today are the fruits of basic research of 
yesterday. And it is very analogous, I think, to the farmer 
eating his seed corn. If he eats his seed corn and doesn't 
plant anything in the spring, he will harvest nothing in the 
fall. And we have had over the past several years a rather 
dramatic decrease in basic research funding in our country with 
a shift, just as you indicate on your slide to program based--
because when I came here, I was told that we were now going to 
very wisely support basic research only where it had a societal 
payoff. And my question was how are you going to do that? I 
doubt very seriously if Madam Curie had any notion of what the 
societal applications would be of her early radiation research 
observations. The question then was, well, what do we then do? 
Of course, the right answer is you commit an adequate amount of 
money to support an adequate number of good scientists, and you 
can be assured that there will be societal payoff. You have no 
idea from which of those research activities there will be 
societal payoff, and I am disturbed because we are spending too 
little of our money on basic research and we have too little 
appreciation of what basic research is and what it does.
    Dr. Hansman. I would agree. And also, point to the last 
bullet that I didn't talk about, which is I think we need to 
think about what are the strategic core competencies that we 
need to build in the Nation, in our universities and our 
industries, and I will just use one example. Mr. Weldon talked 
about the software problem in the V-22. Software is an example, 
critical software of a core competency that we have to have in 
this country, and we are really not adequate right now.
    Mr. Bartlett. We move much of that offshore. India is now 
doing a great deal. Even for our military, India is now doing a 
great deal of our programming. You mentioned that grants were 
seen as welfare. How did that happen?
    Dr. Hansman. This is my perception of the perception, so I 
would just qualify that, which is a grant, because it is not 
directed, is seen as something which isn't controlled by the 
agencies.
    Mr. Bartlett. Is this because we don't understand the 
importance of basic research?
    Dr. Hansman. I think it is just a perception. I think a lot 
of it has to do with organizational programmatic, you know, 
issues, that people believe that they can't direct funding or 
focus the funding from the agencies if it is a grant. And 
really, the universities want to collaborate, so we need to 
have structures which allow you the freedom to explore new 
ideas as they come up, but also allow a collaboration between 
the universities and the agencies. And I don't know if it is a 
grant or something else.
    Mr. Bartlett. Grants are usually in support of basic 
research?
    Dr. Hansman. They are, generally, in support of basic 
research, and the fundamental difference of a grant and a 
contract is that a grant is not explicitly directed in terms of 
its deliverables. So you don't state up front that I will 
invent penicillin. You say, I will work in this area and see 
what comes of it. So it doesn't have the same kind of 
deliverables.
    Mr. Bartlett. Thank you very much.
    Chairman Rohrabacher. All right. It is the Chair's intent 
to have one more question, or one more series of questions from 
our member, and then to recess, and it will probably be about a 
half-an-hour recess when all of these votes are taken, and then 
to come back so the rest of our members will have a chance to 
participate, and if they would like to participate in a second 
round of questioning as well. We now have Ms. Jackson Lee from 
Texas, and she has her complete five minutes. And let me just 
note, she is very active. The people of Texas are very 
interested in this issue, as well as her very active role in 
this Subcommittee on Space. So she may proceed.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. I 
cannot thank you enough, and the Ranking Member, for having 
this very pointed and effective hearing. Last week, when the 
administrator was before this committee, and it was a much 
larger setting, focusing on NASA's budget collectively but also 
focusing on the Columbia tragedy just recently, one of the 
questions I raised was the research on escape or survival of 
the astronauts, and it tracks my line of questioning to this 
particular panel, particularly, with the stark news that we 
have cut the National Aeronautics and Space Administration's 
aeronautics R&D 50 percent. And I think the Chairman so noted 
in his opening remarks, astutely, that that appears to be a 
real problem. As I look at your request for the Fiscal Year 
2004 budget, it doesn't seem to remedy that crisis, because it 
flat funds any requests. And let me say to you that we are not 
only going to be looking very keenly at this, but my 
understanding is that this research includes traffic management 
technologies. If that is the case, this is a very important 
aspect of NASA's work, advanced vehicle design, adaptive 
controls, but also, one of the important issues--and 
Congressman Weldon has gone, but one of the important issues 
that we will be dealing with in the Homeland Security Select 
Committee is aviation security. You are asking for $21 million. 
To me, that seems to be a real stretch on where we are. So let 
me pose some questions.
    First of all, if you could convey back to the administrator 
that I renew again my request to make the Columbia 
investigatory team a commission or to request such, but also, 
to diversify that team. I made the request last week, or was it 
the week before. There seems to be no diversity of thought and/
or position and/or ethnic background. And certainly, there are 
many races, and creeds, and colors that have participated in 
NASA, so I raise that. But let me ask these questions regarding 
the idea of the loss of dollars.
    With respect to Airbus getting now 50 percent of the air 
industry's request, have you looked into our lack of compliance 
with the Kyoto protocol and emissions, lack of compliance with 
emissions concerns of the Europeans as a problem, and are we 
doing research in fuel efficient engine design? And then we 
note that there is legislation either passing or already passed 
that pilots will be able to carry guns into the airport and 
onto airplanes. Do we have any sophisticated technology 
research so that we can ensure that those are the only ones 
that carry guns onto airplanes and that we won't have any 
tragedies that may occur as relates to airline and airport 
security, particularly, airline security, I might imagine? And 
I ask both the good doctor and Mr. Keegan for any responses to 
that as relates to NASA.
    Dr. Creedon. I will certainly relay your request to the 
administrator about the membership of the----
    Ms. Jackson Lee. Thank you very much.
    Dr. Creedon. But if I am not mistaken, the makeup of that 
Board is the result of the decisions of Admiral Gehman himself 
and is not, in fact--it is his choice as to who is on that 
Board, but I will relay that back to the administrator.
    Ms. Jackson Lee. Thank you. And I look forward to getting 
with the Admiral as well. Thank you. I want to point you to the 
$21 million question.
    Dr. Creedon. Right. Well, first of all, you are asking a 
question about emissions.
    Ms. Jackson Lee. Yes.

                           Aircraft Emissions

    Dr. Creedon. And yes, I can answer that within our program 
and the run-out program, we have concentrated research 
activities on emissions both CO<INF>2</INF> and nitrous oxides. 
In fact, I mentioned that we had made very excellent progress 
this last year on coming up with a new engine type that has the 
promise of reducing nitrous oxides by 50 percent. As far as 
your question on the----
    Ms. Jackson Lee. And how much are you requesting in the 
budget for that continued research?
    Dr. Creedon. I would have to--I could look it up in just a 
moment. As far as $21 million for security, that is in 2004. We 
are actually proposing $195 million over the next five years.
    Ms. Jackson Lee. And to be honest with you, that doesn't 
even seem like a lot. I appreciate your efficiency and fiscal 
conservatism, but to me, that sounds like a paltry amount. But 
let me let you finish.
    Dr. Creedon. I understand your concern. With regard to the 
firearms, there are a number of people throughout the country 
looking at making efficient sensors for firearms and so forth. 
What we are doing as part of the money that I indicated that we 
are putting into aviation security is we are surveying all of 
the sensors that have been developed within NASA for our 
science missions and for what we are doing in aircraft, and in 
space transportation to see if we have some sensors that might 
be made applicable to the questions that you are raising. As 
far as the regulations around that, I think I would defer to 
Charlie to answer those questions.
    Mr. Keegan. Good morning. I would like to go back to the 
fuel efficient engines. We are in cooperation with NASA more in 
a regulatory role than anything else to ensure that the 
development of such an engine is indeed safe. We could make it 
very fuel efficient, but it needs to be safe for the same type 
of cycle times that we are used to now in new production 
engines that can go for a very long time with an incredibly 
high safety record, and we want to maintain that safety record.
    Chairman Rohrabacher. We have six minutes before our----
    Ms. Jackson Lee. Mr. Chairman, I just want to thank you 
very much. I happen to be on Congressman Larson's legislation. 
I think this committee would do well to support an increase or 
to get a better focus on R&D research over the 50 percent cut 
that we have had if we are going to compete internationally 
with Airbus and others, on behalf of Boeing and others in this 
country. Thank you.
    Chairman Rohrabacher. Thank you very much, Ms. Jackson Lee. 
And this committee will be recessed for 20 minutes.
    [Recess]
    Chairman Rohrabacher. The Subcommittee is called to order, 
and we will proceed. I would like to take Chairman's 
prerogative for a moment before we go to Mr. Forbes, and ask a 
couple questions of Mr. Keegan. Mr. Keegan, we have now a new 
air traffic control system that is being--that is evolving into 
place. Is that right?
    Mr. Keegan. Yes. We are in a constant state of evolution, 
sir.
    Chairman Rohrabacher. Okay. But this is sort of a new 
system as compared to what it was 20 years ago?
    Mr. Keegan. Well, I think we have a number of initiatives 
that represent significant change from where we were 20 years 
ago, yes.
    Chairman Rohrabacher. Okay. So how much money has it cost 
us to evolve into this system and altogether, what are we 
talking about?

                     Wide Area Augmentation System

    Mr. Keegan. Well, let me pick one initiative, sir, and that 
would be the Wide Area Augmentation System, which is really the 
first transition from a ground based system to an airborne 
based system--actually, a space-based system, utilizing 
satellites for navigational purposes and arrival purposes. You 
know, some of the technology such as GPS satellites, dates back 
into the mid 1980's. Our efforts really began in 1992, and thus 
far, our development has been under $1 billion for our portion 
of this. But this summer, we expect to go operational with a 
system that will provide accurate and with high integrity 
navigation between points, as well as near precision approach 
capability to airports around the country that don't have any 
other navigational aids available to them. So it provides a 
tremendous amount of capability for us for what we would 
consider to be over this period of time a very reasonable 
investment.
    Chairman Rohrabacher. Okay. That is a $1 billion investment 
on, of course--that is on top of the fact that we put the 
satellites up, and they were already up there functioning, 
etcetera?
    Mr. Keegan. That is correct, and we still have out-year 
costs that potentially could range up to $3 billion. I would be 
more than happy to submit for the record the specific breakdown 
for the cost of that program.
    Chairman Rohrabacher. Okay. And why is it necessary for us 
to have this new system? Is it safer or is it more efficient? 
Why did we do this?
    Mr. Keegan. Well, today's system is really structured 
around very specific ground based navigational aids, where you 
have to fly from one navigational aid to another navigational 
aid, and so you have a series of roads in the sky. This system 
allows us to really break that paradigm. You can go wherever 
you want to go, from your door to the next door, on the route 
that you choose. And that type of technology has been available 
to the high end carriers with very specialized equipment, and 
now it is really available even in your car. WAAS type 
technology is extremely accurate within a few feet, and that 
technology has multiple uses, but in aviation--even general 
aviation, pilots would be able to fly right where they want to 
go, following winds or----
    Chairman Rohrabacher. Any estimate as to how much more 
effective that will make our air traffic system?
    Mr. Keegan. Well, we think it really changes the way that 
we can manage and develop the system. In the spring of this 
year, we expect to be able to begin that process by making 
major changes west of the Mississippi in the upper altitudes by 
not even designing routes in the sky, but actually just grid 
points. So we have already begun the process of that 
transition. We have achieved a 30 percent increase in en route 
capacity in 15 chokepoint sectors this past year by just 
redesigning that airspace.
    Chairman Rohrabacher. Say that again now.
    Mr. Keegan. This past year, we have developed 15 new 
sectors, just changed the routes. And when we changed those 
routes between Chicago, New York, Washington, and Atlanta, 
these 15 sectors opened up enough capacity where we achieved a 
30 percent reduction in delay just from those routes. The 
potential application of this is absolutely astronomical.
    Chairman Rohrabacher. All right. And Mr. Armstrong, would 
you like to comment on that?
    Mr. Armstrong. I think we have some preliminary estimates 
that we think it will improve something near 10 percent, being 
able to go direct from where you start to where you end, as 
opposed to having to follow the highways in the sky.
    Chairman Rohrabacher. So would that be 10 percent reduction 
in fuel?
    Mr. Armstrong. It would be primarily fuel, that is correct, 
fuel and just operating time.
    Chairman Rohrabacher. That represents $1 billion a year?
    Mr. Armstrong. I will have to get back to you on it. I 
really don't have a number on that.
    Chairman Rohrabacher. It sounds like the investment was 
worth while. Mr. Hansman--Dr. Hansman.
    Dr. Hansman. I think the investment was worthwhile in a 
number of dimensions. One is that it will have a significant 
safety impact. What WAAS really buys you is vertical guidance 
on approaches, so it will have a safety impact on the smaller 
communities in the U.S. It will also have some of the direct 
routing impact that these guys mentioned. It has had already 
significant second order benefits to non-aviation communities, 
so people are now using GPS guided tractors in farm equipment, 
in things like that. And the last one I would say, the place 
that will really have benefit, and this is a little bit of my 
outward looking, is in the developing world, because what WAAS 
really buys you, if you spread it around the world, is 
precision approach capability to places that don't have good 
instrument facilities. And in the U.S. we actually are a rich 
nation. We have approach facilities in many of the countries, 
so the marginal benefits are not as strong as they will be in 
other nations.
    Chairman Rohrabacher. And Dr. Creedon, would you like to 
add anything there?
    Dr. Creedon. I really don't have anything to answer to the 
prior----
    Chairman Rohrabacher. Okay. Well, thank you very much. We 
now turn to Congressman Forbes from Virginia.

                       Research Investment Trends

    Mr. Forbes. Thank you, Mr. Chairman, and thank all of you 
for taking time to be here with us today. Dr. Creedon, I am 
going to address my questions primarily to you just because I 
have a limit to the amount of time, and I would like to get to 
some basic policy issues. I think you heard from many Members 
of the Committee today that they are concerned about funding 
issues but, particularly, it is just a basic policy issue. It 
looks like to me, over the last decade, we have had a decrease, 
a slashing, if you would, in support from both Government and 
industry in terms of research dollars that have been put in. At 
the same time, it seems like we have seen ourselves fall 
further and further behind in our share of global commercial 
aviation sales, and perhaps, in at least a reduction in our 
technological edge. And my question for you as a policy matter, 
is it your personal belief that we can reverse the trends that 
we see, the reduction in our share of global commercial 
aviation sales or maintaining our technological edge unless we 
reverse the funding for research from Government or industry?
    Dr. Creedon. No.
    Mr. Forbes. And the second follow-up question I would have 
is do you have any realistic expectation or anything you could 
share with us in the Committee that would lead you to conclude 
that we are going to see a new influx of research dollars from 
industry in the next several years?
    Dr. Creedon. Of course, I am not really privy to the inside 
decisions that industry makes, but as I judge the pressures on 
the industry and pressures that their shareholders and boards 
put on them, I really, personally, doubt that there will be a 
large influx of long-term research dollars in the industry into 
aeronautics research and technology.

                         Aeronautics Blueprint

    Mr. Forbes. That seemed to be buttressed by Mr. Armstrong's 
testimony, I think, today. But the next question I would have 
is, you know, earlier, in 2002, NASA issued the NASA 
Aeronautics Blueprint which described a vision of the 
technology advances that could revolutionize aviation and 
regain the U.S. in its historic position as a world leader in 
aeronautical products and services, and I certainly understand 
that NASA couldn't budget the resources to make the blueprint a 
reality in 2000 on the Fiscal Year 2003 budget, but I really 
can't understand why we didn't put it in the 2004 budget, and 
specifically, we failed to even mention, as I understand it, 
the Aeronautics Blueprint. Can you just explain to us what 
happened there?
    Dr. Creedon. The Aeronautics Blueprint was intended to be a 
longer-term vision of what we could achieve. It wasn't intended 
to be achieved in any one fiscal year, but rather, it set out a 
broad vision of what we were trying to accomplish in the 
future. And in, in fact, our 2004 budget, we increased the 
fundings in the ways that I mentioned both in my submitted 
written and my oral testimony in various areas, and those areas 
are in support of the goals that were outlined in the 
Blueprint. So I guess the short form of my answer is the 
Blueprint set out a long-term vision, indicated some of the 
problems that we saw there were with aviation and aeronautics, 
and set out a number of goals. And we are working toward those 
goals over a number of years, and in fact, we did take specific 
action in our 2004 budget to address some of those goals.
    Mr. Forbes. Do you believe we can reach those goals with 
the current trend of funding that we have?
    Dr. Creedon. We will reach the goals within the funding 
that we have. The only thing that we are describing is the 
timing of when we reach them.

                        Math & Science Education

    Mr. Forbes. One of the things that has concerned a lot of 
us, in fact, right before September 11, we were concerned about 
two major threats to the United States. One was in terrorism, 
which proved to be a valid concern. And the other one was a 
lack of math and science students that we had in the country. 
How great a threat does the declining student interest in 
aerospace engineering programs pose to the health of the U.S. 
aerospace industry? And if you could tell us, what measures, if 
any, that NASA's aeronautics program is doing to address those 
problems?
    Dr. Creedon. I would be happy to do that, but if I could go 
back to your prior question?
    Mr. Forbes. Sure.
    Dr. Creedon. As Administrator O'Keefe mentioned just a week 
ago in his testimony, the Blueprint is an important document 
considered within NASA, and if more resources were made 
available, we would put them toward the goals that are 
contained in the Blueprint, which are also the same as the 
goals that are in the bill. And so we could actually accelerate 
our progress along that path. As far as the threat posed by the 
lack of young people interested in engineering, and 
mathematics, and just general scientific literacy, I think it 
is a significant and severe threat, and NASA does as well.
    We have under--the Administrator just crafted a new mission 
and vision statement, and I will quote, ``One of the things in 
the NASA mission is to inspire the next generation of 
explorers.'' And we have, in fact, started a whole new 
enterprise. There were five enterprises within NASA and now 
there is a sixth, the education enterprise. A specific goal of 
that enterprise is to work with people such as myself and human 
space flight enterprise, and the earth and space science 
enterprises, to take the excitement of the things that we do 
and our goals and try to infuse that excitement to young people 
so that they would be more interested in pursuing careers in 
science and engineering. I think if we do not do this, there 
will be consequences for the country.
    Mr. Forbes. Mr. Chairman, thank you. I see my time has 
expired.
    Chairman Rohrabacher. Thank you very much. And we now have 
Mr. Bonner from Alabama.

                             Regional Jets

    Mr. Bonner. Thank you, Mr. Chairman. Thank you very much, 
panel. Like many Americans, I find myself flying on regional 
jets a lot more. The airport in Mobile, Alabama is served 
primarily with regional jets, and yet, I noted that it is 
creating congestion, especially, at some of the larger hubs. 
Dr. Hansman, how can we take this growing problem and create 
opportunities for more people and more places to fly by 
increasing the use of regional airport systems?
    Dr. Hansman. We are seeing that trend nationwide. I will 
just give you my hometown example. In Boston, the airport in 
Boston is at or near its capacity. Where we have seen the 
largest growth has actually been in Providence and in 
Manchester. So what you are seeing is regional airport systems, 
and in fact, the traffic offerings will vary and the market 
will re-correct that to some extent. The other benefit of the 
regional jet-size airplanes, it allows you to match the size of 
the airplane to the real market, so you get frequency of 
travel. So I don't know what the flight schedule into Mobile 
is, but if you had to fly 747's into Mobile, you only get one a 
day, and I am sure you are getting more than that now, so there 
is some benefits to airplanes of that scale. And I think one of 
the future visions is actually to have airplanes that match 
across the entire scale from the four passenger, six passenger 
jet, up to the 400 or 500 passenger jet to match the demand to 
the market to really provide the service.

                  Small Aircraft Transportation System

    Mr. Bonner. Dr. Creedon, how can a program like the Small 
Aircraft Transportation System help solve this problem? And you 
said, I think, in your written statement, that the goal is to 
work to enable better air service to more communities. Is this 
program a vehicle to actually move in that direction?
    Dr. Creedon. That is our intent, and we think we can 
achieve that. The Small Aircraft Transportation program is 
dedicated to providing another means of transportation other 
than through the hub and spoke system, so that people who may 
want to go from a smaller airport to another smaller airport 
can do exactly that. It is dedicated to the proposition that 
there are, I think, 5,400 public use airports in this country. 
Right now, the traffic goes into--the vast majority of the 
traffic goes into about five percentage of these airports, so 
we are trying to open up the capability of these other airports 
to the traveling public, and we think that that the SATS 
program is dedicated to do that.
    Another interesting--I don't know the exact number, but I 
would be happy to get back with it for the record--but there 
are about 80 percent, I think, of population lives within half-
an-hour of one of these 5,400 airports, so that we feel that 
has great potential in offering a new dimension of mobility to 
this country.
    Mr. Bonner. Your answer--thank you--leads to another 
question. And again, going back to your written statement where 
you said that thousands of airports distributed across the 
country are a true national asset, given that there is a 
continual growth in regional jet service to smaller 
communities, do you feel that we are making enough of an 
investment to the right technology and to ensure that the right 
air traffic management system is in place?
    Dr. Creedon. I think there are multiple answers to that 
question. As far as the SATS program itself, it is dedicated 
to, I believe it is in Fiscal Year 2005, to do a demonstration 
of the capability, and I think that is proper. We should be 
able to demonstrate that we are making progress in that area in 
order to continue beyond. So I think that is a very adequately 
funded program at this time. But you address, really, a larger 
issue, and that is the whole air transportation system.
    Charlie Keegan and I, and various organizations, we meet 
quite often, and we are working, really, in two fronts. The 
first front is on the system that we have, as he does his 
Operational Evolution Plan and we do some nearer-term research 
to help that, that is to kind of wring the most capacity 
without compromising safety that we can get out of the existing 
system. I think he is well on his way to doing as much of that 
as we can. But over time, I don't think that we want a country 
that is constrained by the capacity. So I don't, personally, 
believe that it is right to just put sanctions on the capacity, 
that we would really like the capacity to be there for people 
to travel as they would want to. So we are going to have to, as 
it really says on the two kind of things carved into the wall 
here, it may not be true that where there is no vision that 
people perish, but where there is no air traffic management 
vision, they will sure travel more slowly than they do now. If 
we don't leap out ahead and have some vision of what a future 
air traffic management system could be and start heading toward 
that, then we will just continue to try to get more and more 
capacity out of the system that we have. As John said, it is a 
finite number. Does that answer your question?
    Mr. Bonner. Yes, it does. Mr. Chairman, will we be afforded 
an opportunity to go with a second round of questions?
    Chairman Rohrabacher. If you would--if that is an official 
request, the Chair will certainly accept that.
    Mr. Bonner. Thank you.
    Chairman Rohrabacher. And now we have another freshman with 
us from Texas, Mr. Bell.
    Mr. Bell. Thank you, Mr. Chairman. You didn't have to point 
out I was a freshman; that would have been clear to everyone 
after just a few questions, I am sure. I would like to thank 
the panel for your testimony here today and I apologize for 
having to be in and out of the room.
    Dr. Creedon, I wanted to follow up--I was here when Mr. 
Larson was talking to you about some of the budgetary concerns, 
and I share those concerns because the major part of my 
district is in the Houston area, and obviously, the entire NASA 
program is extraordinarily important to the region. And a lot 
of us were hopeful in the wake of the space shuttle tragedy 
that there could be a silver lining and there would be a 
recommitment. And I often tell people since the tragedy that 
the sad thing about NASA is that if everything is going along 
well, that nobody seems to pay much attention, and it takes a 
tragedy to refocus attention. But certainly, it gives us an 
opportunity to have that kind of silver lining and to maybe 
make a recommitment to the agency.
    And so when I see the budget and see that there is an 
additional five percent, and realizing that since 1998, the R&D 
budget has been cut by one-half, and now it appears the upright 
2004 budget request, essentially, flat funds the program and 
projects a four percent decrease over the next five years, that 
is cause for some alarm. And I know that in the wake of the 
tragedy, people said funding and the funding cuts which NASA 
has experienced had no impact on safety whatsoever. Those were 
the reports to us and those were contained in the briefings to 
us immediately following the Columbia tragedy. And one reporter 
asked me when I shared that information, that NASA officials 
are saying it wasn't related to funding in any way, shape, or 
form, well, how do they know? And we don't know. And we won't 
know until the investigation is complete. And so my question to 
you is that in the wake of the tragedy, has there been any 
conversation and, possibly, an effort on the part of the agency 
to go back and look at the budget and maybe use this as an 
attempt to come back and address some of these budgetary 
concerns?
    Dr. Creedon. There are several aspects to the question. 
When you were giving the specific percentage declines, I 
believe those refer to the aeronautics portion of the budget 
and not the overall NASA budget itself. Is that correct?
    Mr. Bell. That is correct.

                     Shuttle Accident Investigation

    Dr. Creedon. First of all, the investigation, we at NASA 
are dedicated to do what we can to determine what the cause of 
the tragedy was, to fix it, and move on, so that there is no 
loss of dedication within the agency to that. In doing that, 
assist Admiral Gehman's investigation board, as much as we can. 
As far as the dollars and the impact on safety, the culture of 
safety within the agency is an overriding value, and there is 
no one within the agency who would ever willingly do anything 
that they felt would compromise the safety of a shuttle mission 
or any other mission. I think that safety, as a primary value, 
is inculcated throughout the agency, and so I don't think that 
we believe that we would ever willingly do anything that would 
compromise safety.
    As far as rededication and what else we might do 
differently, while the Admiral Gehman Board is continuing, we 
within the agency have several activities that are ongoing to 
determine what we think should be done as a result of this 
tragedy. We have one group that is looking to what should our 
response to this be--should we build another orbiter, what 
kinds of things that we should do. We in the aerospace 
technology enterprise are looking at can we accelerate the 
orbital space plane in response to that. But I think before we 
set forth on any of these plans, we would have to wait until 
Admiral Gehman's Board finishes its deliberations. Meanwhile, 
we are not resting. We are actively planning the options that 
we might do.
    Mr. Bell. Why would you have to wait?
    Dr. Creedon. We are not waiting to plan, but I think that 
we would really like the benefit of finding out what the cause 
of the tragedy was--was it technical, was it processes, 
whatever it was, before we move out in implementing a change.
    Mr. Bell. Thank you. Thank you, Mr. Chairman.
    Chairman Rohrabacher. Thank you. We have been asked by a 
Member if he could have another chance at questions, and Mr. 
Bonner, you may proceed.
    Mr. Bonner. Thank you, Mr. Chairman. Two quick questions 
and then a request. Following up on my interest in, especially, 
the regional jet service to smaller airports, Mr. Keegan, I 
believe I am correct that the budget request is for $17 million 
plus a little change under the Airport Improvement Program to 
help design, plan, maintain, and all the other things you have 
to do to improve airports. I guess my question is, if this 
number is correct, how far will $17 million go, and will it 
really go to helping improve airports not just at the major 
hubs but also in some of the smaller communities that we are 
interested in?

                    Airport Improvement Program R&D

    Mr. Keegan. Sir, that $17 million is for research to go 
into the airports. The Airport Improvement Program budget is 
significantly larger, it is somewhere near $3 billion, which 
would be for the overall aspect of improving airports, and it 
does get spread beyond the fortress hubs that we are familiar 
with today. That research is broken down into a few areas, 
including the ability for better fire and response in case of 
an accident, migration of birds and mitigation of those 
activities and following that to make sure that that is not an 
issue at certain places. So it is on a different side of the 
actual construction and development of the airport 
infrastructure.

                        Unmanned Aerial Vehicles

    Mr. Bonner. If we could shift gears just for a minute, Dr. 
Creedon, NASA and the Defense Department have demonstrated that 
unmanned aerial vehicles can be flown safely, and they have the 
potential to serve useful civil and emergency service rolls. 
Many industry experts envision that UAV's will be playing more 
prominent roles in U.S. aerospace, but currently, FAA 
requirements--and maybe Mr. Keegan would be a better person to 
answer this--that FAA requirements to fly them are very complex 
and they can take weeks or months to gain permission to fly. So 
a quick question is what is the current state of research on 
operating UAV's in controlled airspace, and is the FAA working 
on a concept of operations to permit routing of routine flights 
of UAV's in controlled airspace?
    Mr. Keegan. I am not sure of the complete details of UAV's 
infrastructure and how we are dealing with that, but we do have 
regulatory activities underway to ensure how they are operating 
and if they are safe, and today, it is a minimum of a 60-day 
advance notice on how that works. And from there, the 
activities have to do with how and where they are going to be 
used, and they are currently in our operational concept 
development. They are not a large portion of that; it is still 
a very small portion of that.
    Dr. Creedon. If I could add to that, as I indicated, we 
brought a small amount, but I would hope a significant amount, 
of additional funds into UAV's because we believe they have the 
same potential that you mentioned. As Charlie mentioned, that 
is my understanding as well, that right now, UAV's do have 
access to the airspace, but it is a 60-day apply and approval 
process. Many members of the industry have come to us because 
of our cooperative research that we do with the FAA, trying to 
make the routine access to the national airspace system a 
quicker thing, reduce the time below 60 days, and perhaps with 
demonstration of capability that is required on board these 
UAV's, to get routine access, and there is sort of a series of 
five goals, and we are putting money into the first two of 
those goals to try to achieve that result of more routine 
access. And when we demonstrate that capability in these UAV's, 
then it would be back over to the regulatory part to 
acknowledge that and to have new procedures.
    Mr. Bonner. My interest stems largely because we have done 
a lot of the research for that at Marshall Space Flight Center 
in my home State of Alabama. Finally, I would like to just, 
again, thanking the Chairman for this additional time, 
associate my interest and concern with my friend and colleague, 
Mr. Forbes of Virginia. We have a school for math and science 
in Mobile, Alabama. We also have an Exploreum IMAX theater 
where there is a space exhibit ongoing right now. I would sure 
like to have your help, Dr. Creedon, in getting one of our 
astronauts, perhaps one of Mobile's own, to come speak to some 
of the students and encourage them through that presentation to 
study science and math and to go where man has only dreamed of 
going.
    Dr. Creedon. It sounds like a very reasonable request.
    Mr. Bonner. Thank you very much. Thanks, Mr. Chairman.
    Chairman Rohrabacher. Mr. Forbes, do you have any other 
questions? Just a few notes. I have made it clear before, and I 
think that perhaps it deserves repeating, that I think robotics 
and remote control technologies are technologies that have a 
lot of promise, and that NASA, in particular, should be deeply 
involved in that. And I think it will have applications in the 
private sector, and also, of course, it has applications toward 
space exploration and utilization. So I would hope to see more 
of that.
    I would also hope, Dr. Creedon, that we see--and Mr. 
Keegan, as well--that we see evidence in the next few months 
that this report on the aerospace industry and on the status of 
aerospace, that it is being taken seriously and that there are 
some tangible decisions, effects, of that report. I mean, some 
people spent a lot of time on that, and I agree that either we 
are going to make some decisions now and start charting a 
course that will put us on top, or we will be overwhelmed by 
competition from overseas, not just from Europe, but perhaps 
even from China. In our great--in a demonstration of great 
wisdom, we have helped build up an industrial infrastructure in 
China which now will permit them to compete with us in 
aerospace in the years ahead. And I say that, obviously, with 
tongue in cheek, as I think that was lunacy.
    So with that said, I would like to thank the witnesses. 
Thank you all very much. This has been very informative. We 
take this issue very seriously because the aerospace industry 
is a very important part of our economy. As we move forward now 
with this great anniversary, 100th anniversary of human 
flight--powered flight, I guess it would be, because gliders 
and balloons before that--let us remember that Americans have 
always been proud of the fact that we have led the way. We have 
led the way in freedom and in the way we treat other people. We 
have led the way in technology and there is a relationship 
there. There is a relationship between people who believe they 
can make the condition of humankind better by using their 
ingenuity and uses of technology and the fact that we respect 
other people, respect other human beings. And the Wright 
brothers, perhaps, personified this better than anyone, because 
they were not Ph.D.s from MIT. They were people who had, 
basically, self-educated themselves, but they were incredibly 
intelligent human beings, as we saw in the drawings, paying 
attention to the shape of the wing, and this wasn't just a--
this was not an accident that they stumbled across something. 
They studied and worked hard, but they were the personification 
of American values, and today we have been handed that. We have 
been handed our opportunities by people like the Wright 
brothers and by those who are active in the Space Program and 
the development of aerospace over these last 100 years. Now it 
is up to us, and we will carry the torch, and we will make them 
proud.
    I would like to thank all of you for participating today. 
Please be advised the Subcommittee Members may request 
additional information for the record and I ask other Members 
who are going to submit written questions to do so within one 
week of this hearing. That concludes the hearing. We are now 
adjourned.
    [Whereupon, at 12:37 p.m., the Subcommittee was adjourned.]
                              Appendix 1:

                              ----------                              


                   Answers to Post-Hearing Questions


<SKIP PAGES = 000>

                   Answers to Post-Hearing Questions
Responses by Jeremiah F. Creedon, Associate Administrator for Aerospace 
        Technology, National Aeronautics and Space Administration 
        (NASA)

Questions submitted by Chairman Dana Rohrabacher

Q1. LNASA's aeronautics budget has been restated to reflect personnel 
and institutional costs, giving the appearance of an almost doubling of 
the aeronautics program. What effect will full cost accounting have on 
fees charged to outside customers for use of facilities, such as wind-
tunnels and engine test-stands? Please explain any changes in how fees 
will be assessed.

A1. The adoption of full cost accounting, budgeting, and management 
practices will have no impact on the pricing policies currently 
utilized by NASA's aeronautical research and test facilities. In fact, 
NASA has for some time now been charging external customers the full 
cost of using such facilities--unless the Agency has a programmatic 
interest in the research data resulting from a specific test, in which 
case various forms of cost sharing are employed. We fully expect to 
continue these practices with respect to outside users.
    While the policy of recovering full cost from external users will 
not change; however, change may occur in both the cost of any given 
facility and the continued availability of certain facilities. 
Variability in cost will be the result of variability in the number of 
users. The maintenance and operation of large research facilities 
entails a substantial fixed cost. This fixed cost must be spread among 
the users of facility. The more customers, the lower the cost to each 
customer to use the facility. The fewer the customers, the higher the 
cost that will be charged to each customer. Prior to the introduction 
of full cost accounting, NASA had some flexibility to absorb fixed 
costs when utilization was low, rather than passing such costs along to 
external customers. With full cost, that flexibility is now gone. In 
the extreme, therefore, if an outside customer happens to be the only 
user of a NASA facility in a given year, that customer will need to pay 
for the entire cost of the facility for that year--even if the desired 
test is only weeks in duration. While the policy of charging the entire 
cost to the customer has not changed, the actual cost to that single 
remaining customer has changed greatly.
    Such economics may also impact the continued availability of 
certain facilities. If utilization is low in a given facility, the 
costs of using the facility will grow for the remaining users (both 
within and outside of NASA). These higher rates may drive away 
additional customers, further raising the costs to the remaining 
customers. This ``spiral'' may ultimately result in a facility that is 
too expensive for the few last customers, and the facility may 
eventually have to close due to lack of customers that can afford the 
cost of the facility. The Office of Aerospace Technology, in concert 
with the rest of the Agency, is now evaluating management and 
accounting mechanisms that may need to be applied when short-term 
utilization of a given facility is low, yet closure of that facility is 
not in the best long-term interests of the Agency or the Nation.

Q2. LFAA and NASA have begun forming a Joint Program Office to 
coordinate research on a next-generation air traffic management system.

Q2a. LWhat agreements have been made between NASA and FAA to establish 
a JPO? Please provide a copy of all MOAs, letters, and other documents 
that describe the goals, roles and responsibilities of participating 
agencies, a list of the agencies and departments that are taking part, 
and funding required to staff and support the JPO.

A2a. FAA, NASA, DOD, TSA, and OSTP are participants on an interagency 
team charged with preparing a plan for the JPO. Letters exchanged 
between FAA and NASA regarding the interagency planning team and its 
charge are attached. Also attached is a briefing that describes our 
proposed strategy for carrying out the transformation and some very 
early thinking about a possible structure of a JPO. Versions of this 
briefing have been presented by NASA and FAA to DOD, TSA, and several 
industry stakeholders.

Q2b. LDoes the JPO have its ?own spending authority? If so, what is its 
budget?

A2b. No. The JPO has not been established to date. The team described 
above does not have spending authority or a budget. The efforts to 
develop the national plan are funded by FAA and NASA.

Q2c. LHow will industry provide input to your process? Will there be 
opportunities for regular industry consultation, including general 
aviation?

A2c. Clearly, industry needs to be a major player in the transformation 
of the Air Transportation System. We have briefed industry, including 
the Air Traffic Services subcommittee of FAA's Research, Engineering, 
and Development Advisory Committee and The General Aviation 
Manufacturers Association (GAMA). A number of industry representatives 
have told us that they would welcome strong federal leadership in 
carrying out the transformation. The primary purposes of the briefings 
FAA and NASA have given to industry stakeholders was to get feedback on 
our transformation strategy and to begin a dialogue on industry 
participation in the process. Once we reach interagency agreement on 
how we will work together to carry out the transformation process, we 
will establish a mechanism for regular industry consultation. General 
aviation will be a part of this. In fact, one of the industry meetings 
we have had with GAMA was a briefing to the Government Research 
Coordinating Subcommittee of the GAMA Flight Operations Policy 
Committee on the transformation process.

Q3. LThe goal of NASA's Small Aircraft Transportation System (SATS) is 
to permit all-weather operations by general aviation aircraft at 
untowered airfields.

Q3a. LWhat is the status of NASA's Small Aircraft Transportation System 
Integrated Technology Demonstration? When does NASA plan to complete 
technology demonstration of SATS?

A3a. The NASA/FAA/National Consortium for Aviation Mobility (NCAM) 
Alliance has developed and implemented the research and technology plan 
to develop and evaluate the technologies that will enable an integrated 
technology demonstration of the four SATS operating capabilities to be 
completed in late 2005. The plan provides for multiple path approaches 
for technologies to enable lower landing minima (LLM) and single pilot 
performance (SPP) with a critical path approach for the higher volume 
operations (HVO) capability. The en route (ERI) operating capability 
to/from the controlled airspace will be demonstrated as an element of 
HVO and will utilize analyses to explore impact on the national 
airspace.
    Site selections for the technology demonstration will be complete 
in July 2003. Initial flight tests will be conducted in calendar year 
2003 to demonstrate HVO, LLM, and SPP operating capabilities at the 
minimum success criteria. Further flight tests will be conducted in 
calendar year 2004 to demonstrate HVO, LLM, and SPP operating 
capabilities at higher levels of technical success. These flight tests 
will be used to down select those technologies that will be employed in 
the integrated technology flight experiments of all four operating 
capabilities in early 2005.

Q3b. LHow much has been spent to date on SATS?

A3b. Through FY 2003 NASA will have invested $50.8 million on SATS. The 
NCAM partners will have cost shared over $16 million. For FY 2003, NCAM 
is matching $7 million of labor by the participating companies, plus 
$0.9 million of in-kind (e.g., use of equipment and software) 
contributions.

Q3c. LHow much will it cost to complete the technology development and 
demonstration efforts?

A3c. NASA has requested $30.6 million (full cost) in FY 2004 and 
anticipates requesting $9.9 million (full cost) in FY 2005 to complete 
the technology development and demonstration. The SATS Alliance 
partners are expected to cost share approximately another $8 million at 
about the same ration of labor and in-kind as provided in FY 2003.

Q3d. LWhen will an operational SATS capability be demonstrated? How 
much will it cost to demonstrate an operational SATS capability?

A3d. Following the integrated flight experiments, the technical and 
operational feasibility of the four operating capabilities will be 
demonstrated in late 2005. The costs to demonstrate the capability are 
included in the funding cited above.

Q3e. LWhat are the technical, policy, and economic issues that need to 
be resolved to implement SATS? What is NASA's plan to address these 
issues?

A3e. NASA is conducting a proof-of concept R&T activity to demonstrate 
the technical and operational feasibility of the higher volume 
operations, lower landing minima, single pilot performance, and en 
route integration operating capabilities. These are important operating 
capabilities necessary to the implementation of SATS; however they are 
not sufficient for implementation of SATS. Other issues include: 
insurance considerations, environmental compatibility (noise and 
emissions), en route operations and weather, aircraft ride quality, 
safety and security, economic viability, air traffic controller 
considerations, and the overall financial health of the small aircraft 
industry. Although the SATS Project is not providing the solutions to 
these issues, transportation system analyses and assessments of many of 
these issues are being performed. The results will be provided to the 
decision makers, stakeholders and others, including the FAA and 
regional airport authorities.

Q3f. LWhat equipage issues need to be addressed for the general 
aviation community to exploit SATS?

A3f. SATS research is focused on flight deck and flight path 
technologies that minimize the equipage required at the Nation's 
underutilized, non-towered and non-radar airports and runway ends. 
Equipment required in the aircraft for SATS capability includes an 
approach-certified instrument flight rules global positioning system 
receiver, an automatic dependent surveillance-broadcast (ADS-B) 
transceiver, a communications data link, a cockpit display of traffic 
information, plus software and display graphics for self-separation and 
onboard conflict detection and alerting, and self-spacing.
    The SATS operational concept includes procedures for suspending HVO 
operations to accommodate aircraft without the required equipment via 
procedural separation. These unequipped aircraft would be required to 
have radios for communication with an air traffic controller.

Q4. LNASA has a goal to develop technologies to reduce noise emissions 
from aircraft by 10 decibels by 2007.

Q4a. LDoes NASA plan to continue to pursue technologies to reduce noise 
emissions once the goal is met?

A4a. Yes. Within its Vehicle Systems Program, NASA is currently 
developing plans to pursue technologies that can further reduce noise 
emissions, improving upon those goals of the Quiet Aircraft Technology 
(QAT) Project. Representatives from Government, Industry and Academia 
are assisting NASA with development of the most appropriate goals and 
the roadmap from which to achieve those goals.
    Furthermore, the FY 2004 request includes an augmentation for the 
QAT Project to ensure the maturation and transfer of the noise 
reduction technology. This research would be conducted with aircraft 
and engine manufacturers as cost sharing partners.

Q4b. LAssuming this goal is met as planned, what is a realistic goal to 
reduce noise emissions further?

A4b. NASA's goal is to contain objectionable noise within the airport 
boundary. Initial results from an industry, government and academia 
workshop to develop long-term roadmaps for the Vehicle Systems Program 
held in April 2003 indicate that there exists a potential to limit 
average day-night noise level outside of the airport boundary to 55 
dBA.

Q4c. LIs it feasible to reduce aircraft noise to levels on takeoff and 
on airport approach and landing to a level that does not exceed ambient 
noise levels in the absence of flight operations? If so, what 
technologies would be required? How much would this cost?

A4c. Yes, this is a challenge we believe to be achievable. Roadmapping 
activities being undertaken by the Vehicle Systems Program are 
exploring the goal of containing all objectionable noise within airport 
boundaries. Some examples of technologies expected to be required 
include: Advanced low noise fan designs, active, intelligent noise 
suppression, advanced concepts with integrated low-noise features, 
including noise shielding, distributed propulsion, very low-speed 
landing, reduced landing gear and landing gear bay/cavity noise, thrust 
vectoring, unconventional propulsion systems and integration, and 
application of low-spool noise technologies to the engine core.
    At this point in time, many of these concepts are at the embryonic 
stage of development. Costs estimates for this long-term effort have 
only just begun to be assembled.

Q5. LNASA canceled its High Speed Civil Transport (HSCT) program in 
2000.

Q5a. LHow much did NASA spend on HSCT?

A5a. From 1990 through 1999 NASA spent $1,560.2 million, excluding 
personnel costs, on the High Speed Research program.

Q5b. LWhy did NASA cancel the program?

A5b. The High Speed Research (HSR) program was created to explore 
technologies necessary to enable an industry decision on development of 
a supersonic commercial aircraft, or ``High Speed Civil Transport'' 
(HSCT). The HSR program was dependent on an active partnership between 
the government and industry. Dramatic technology advances were made 
against the original HSR program goals. However, planned ramp-ups in 
industry cost sharing to bring an HSCT to market did not materialize as 
originally planned. NASA terminated HSR at the end of FY 1999, when the 
major industry partner in the program dramatically reduced support for 
the project, shrinking staff devoted to HSR from 300 to 50 and pushing 
the operational date for a high-speed commercial transport from 2010 to 
2020. This industry action was the result of market analysis and 
technology requirement assessments indicating that the introduction of 
a commercial HSCT cannot reasonably occur prior to the year 2020 from 
an economically and environmentally sound perspective. Industry and 
NASA also questioned whether technologies being pursued today would 
appropriately address environmental standards and other challenges in 
2020. In response, NASA reduced activity in the High Speed Research 
program to a level commensurate with industry interest.

Q5c. LHave any of the factors that led to the program's cancellation 
changed in such a way that NASA would consider resuming a significant 
research program in civil supersonic transport? If so, what are the 
appropriate goals for a supersonic civil transport program?

A5c. NASA is performing research in technologies that have general 
applicability across many vehicle classes, including supersonics. 
However, these technologies are directed toward areas that have a 
direct impact on the public at large, including increasing safety and 
security, reducing noise and emissions and transforming the National 
Airspace System to increase its capacity and efficiency. Supersonic 
technology does not have the wide public impact for it to be a priority 
given current funding levels.
    The challenge in making supersonic transports viable, and hence the 
goals of a technology effort in this area, included sonic boom 
mitigation and reduction of noise and emissions.

Questions submitted by Representative Bart Gordon

Q1. LFAA and NASA are involved in efforts to establish a unified 
interagency aviation R&D program (NASA, FAA, DOD, DOC and DHS), 
including a process for developing a research plan and for providing 
periodic program reviews.

Q1a. LIs OMB part of this planning process?

A1a. While there have been some informal discussions with OMB, they 
have not been directly involved in this planning process. OMB, however, 
is highly supportive of this type of interagency cooperation in 
aviation R&D.

Q1b. LWhat is the current status of the consolidated interagency 
research plan?

A1b. FAA and NASA have established a working team to begin the 
development of a first version of a National Plan for the 
transformation of the Air Transportation System of 2020 and beyond. 
DOD, TSA, and OSTP are also participating on this team. Our goal is to 
complete the first draft of this plan by December 2003. This will 
include an interagency research plan for transforming the National 
Airspace System.

Q1c. LWill we see results of this effort in the President's FY 2005 
budget?

A1c. Yes. Development of NASA's FY 2005 budget for air transportation 
management research and technology is occurring in parallel to and in 
close coordination with the development of the National plan.

Q2. LThe 2002 National Research Council (NRC) report, ``For Greener 
Skies: Reducing Environmental Impacts of Aviation,'' goes on to suggest 
that federal agencies should realign research goals with funding 
allocations to avoid raising unrealistic expectations for reducing 
aviation noise. That is, either relax noise goals or increase R&D 
funding. For example, the report shows the declining trend in aircraft 
noise generation from 1960 to 1997 suddenly needing to change sharply 
downward in order to meet NASA's stated 2007 and 2022 noise goals, 
while the annual federal noise reduction R&D budget, in constant 
dollars, is now only about 50 percent of its average level for the past 
10 years.

Q2a. LWhat is your reaction to the NRC report's recommendation?

A2a. We agree with the recommendation and propose to increase funding 
to attain the noise reduction goals. NASA's FY 2004 budget request 
includes an augmentation to its Quiet Aircraft Technology (QAT) project 
of $100 million.

Q2b. LDo you believe that the NASA noise goals can be reached with the 
current level of R&D investment, or should the goals be watered down?

A2b. With the additional funding in the FY 2004 budget request, we 
believe that our goal of developing technology to enable a 10 dB 
reduction (based on 1997 levels) can be met at a Technology Readiness 
Level (TRL) of 6, which is the readiness level that is adequate to 
ensure the transfer of technology out to industry partners. Discussions 
with industry partners have been initiated to determine what efforts 
would be required to achieve TRL 6.

Q3. LThe NRC report recommends that NASA should fund the most promising 
noise reduction concepts long enough to reduce the technical risk and 
make it worthwhile for industry to complete development and deploy new 
technologies in commercial products. This would mean bringing a new 
technology to NASA's technology readiness level 6.

Q3a. LPlease respond to this recommendation. What is current NASA 
policy regarding the technology readiness level for noise technology 
projects for which funding is provided?

A3a. The Aerospace Technology Enterprise has in its mission statement 
that ``success will be measured by the extent to which our results 
improve quality of life.'' To be successful requires technology to be 
transferred to customers. The FY 2004 Budget request includes an 
augmentation of $100 million, partly to ensure that the technology is 
matured and ready to be transferred to industry--the equivalent of 
technology readiness level 6.

Q3b. LAre you concerned that NASA-developed noise reduction 
technologies may not transition to commercial applications?

A3b. NASA's Vehicle Systems Program has included industry, FAA and 
academia in the development of long-term planning. Representatives have 
been participating most recently to identify the most appropriate 
technology sectors for long-term efforts and have been providing inputs 
on specific goals and paths to achieve them.
    Additionally, the Quiet Aircraft Technology Project held its semi-
annual meeting on April 29-30, 2003 to present and discuss with its 
partners the latest accomplishments and future directions.
    Inclusion of industry, FAA, airport representatives and academia in 
NASA's planning for technology investment sectors and in the road 
mapping to achieve these technologies substantially improves the 
applicability of R&D and the potential it will be transitioned into 
commercial use.
    NASA has had a long track record of transitioning noise reduction 
technologies to applications that industry can use. The cost sharing 
agreements being negotiated ensure that industry has a vested interest 
in the technologies, and that they will be transitioned to real 
aircraft applications.

Q4. LThe NRC report states that research to reduce oxides of nitrogen 
and improve engine efficiency has been significantly reduced at NASA 
and that the research that is supported does not carry the work far 
enough so that results can be readily adopted by industry. And in 
general, the report finds that even though large uncertainties remain 
regarding aviation's effects on the atmosphere, research budgets for 
examining the issue have been cut by two-thirds in recent years.

Q4a. LDo you agree with the report's findings?

A4a. NASA has been examining its aeronautics programs to facilitate 
adoption of technology. In the area of emission reduction, we have 
extended the Ultra-Efficient Engine Technology (UEET) project--a major 
effort to reduce aircraft emissions--through FY 2007 and are working 
with our industrial partners to ensure that transfer of the technology 
occurs. We are also working in partnership with the DOD turbine engine 
program to assure alignment and mutual benefit.

Q4b. LWhy does aviation emissions research have such a relatively low 
priority at NASA?

A4b. Aviation emissions research continues to have a high priority at 
NASA. The Ultra-Efficient Engine Technology Project is a major effort 
to reduce aircraft emissions. A number of partnerships have been 
developed through the Ultra-Efficient Engine Technology Project, and we 
are expanding the scope of this project to include cost-shared 
technology demonstrations at TRL 6.

Q5. LThe NRC report notes there is a current trend of lessening 
industry involvement in NASA-sponsored environmental research and 
technology development.

Q5a. LWhy has this occurred? Doesn't this contribute to problems in 
transitioning technology to commercial applications?

A5a. With the termination of the Advanced Subsonic Technology and High 
Speed Research programs in 1999, funding directed toward propulsion 
research declined. From a funding standpoint, that may be viewed as a 
lessening of industry involvement. However, NASA's Ultra-Efficient 
Engine Technology Project has continuing partnerships with industry and 
signed agreements in place for cooperative activities. The emissions 
reduction effort is a partnership with industry to develop combustors 
that produce reduced levels of oxides of nitrogen. Partners from engine 
and airframe manufacturers, academia and government agencies are 
participating in materials and structures research and activities to 
optimize the integration of propulsion and airframes. These 
partnerships ensure that NASA is working on the right problems to 
facilitate the transfer of the technology.

Q5b. LWhat would you suggest be done?

A5b. A specific long-term plan for technology investments is being 
developed within the Vehicle Systems Program. This effort has received 
significant input from industry, academic and government 
representatives to ensure funding is focused on the critical problems, 
including emissions. We see a continuing role for industry partnerships 
and cost-sharing of technology maturation to ensure technology 
transfer.

Q6. LYour aircraft noise R&D budget includes both institutional costs 
(e.g., facilities, infrastructure, travel, benefits) and actual project 
procurement funds in the five-year runouts.

Q6a. LIf we strip away the institutional costs that the budget office 
has allocated to the Quiet Aircraft Technology program, how much 
funding is actually being proposed for R&D procurements for Quiet 
Aircraft Technology in each of the next five years? Is that an 
increasing or a flat funding profile?

A6a. The FY 2004 request includes an augmentation for the Quiet 
Aircraft Technology (QAT) project in order to mature noise reduction 
technology to levels appropriate for transfer to industry. The funding 
profile for QAT is shown in the table below for both the total funding 
and the amount planned for direct procurements. This funding is to 
develop and transfer technology that results in a 10-decibel reduction 
in aircraft noise by 2007 (based on 1997 production aircraft).
    While no final decision has been made on whether to conduct 
additional noise reduction Research and Technology beyond OAT, plans 
are being formulated for technology development beyond OAT to bring 
objectionable noise within airport boundaries.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Q6b. LWhat specifically is included in the institutional costs 
allocated to the Quiet Aircraft Technology program?

A6b. The non-procurement dollars are an important contributor to the 
research. Non-procurement dollars fund a cadre of world-recognized NASA 
researchers who are dedicated to noise reduction research, and who work 
hand-in-hand with external researchers funded with procurement dollars. 
The recent transfer of chevron nozzle technology for noise reduction 
was the result of a concept first proposed and developed by a NASA 
researcher. Non-procurement dollars also fund world-class laboratories, 
wind tunnels, test aircraft and other facilities that are used by 
NASA's partners as well as civil servants to research, mature and 
transfer technology.
    Non-procurement dollars include:

        <bullet> LThe cost, including civil service salaries, for the 
        technical operations and maintenance of laboratories, wind 
        tunnels and test facilities in support of projects.

        <bullet> LNASA Civil Service employees, including both 
        researchers and support staff.

        <bullet> LTravel.

        <bullet> LG&A--General and administrative expenses associated 
        with Administrative Operations.

Q7. LWill NASA's Quiet Aircraft Technology meet the 10-year noise 
reduction goals by 2007 that NASA had previously signed up to meet? 
Will that require any industry funding? If so, how much?

A7. With the additional funding in the FY 2004 budget request, we 
believe that our goal of developing technology to enable a 10 dB 
reduction (based on 1997 levels) can be met at a Technology Readiness 
Level (TRL) of 6, which is the readiness level that is adequate to 
ensure the transfer of technology out to industry partners. However, 
the effective transfer of technology requires a willingness on the part 
of the user to implement this technology. We are developing cost-
sharing partnerships to ensure that the user community has adequate 
buy-in to the technology transfer process. We anticipate industry to 
cost-share $50 million from FY 2004 to FY 2007 to facilitate the 
technology maturation.

Q8. LIn his testimony at the hearing, Mr. Armstrong noted his concern 
that no formal coordination occurs between NASA and the users of the 
national airspace system regarding NASA's research agenda for future 
technology developments aimed at improving the efficiency, safety and 
capacity of the airspace system.

Q8a. LIs this concern of the air transportation industry something that 
NASA is aware of?

A8a. NASA is aware that some National Airspace System (NAS) users 
believe that more formal coordination of NASA's research agenda is 
desired. It is incorrect, however, to state that no formal coordination 
occurs. The formal coordination between NASA and the users of the NAS 
occurs through NASA's Advisory Committee structure, specifically the 
Revolutionize Aviation Subcommittee (RAS) of the Aerospace Technology 
Advisory Committee (ATAC). Recently, under the auspices of the RAS and 
the ATAC, a Task Force was convened to specifically review NASA's 
Airspace Systems Program. The members of that Task Force included 
representatives from airlines and other user organizations, from 
academia and from other research organizations. Additionally, NASA 
participates in forums sponsored by organizations representing industry 
where the content of NASA's research is a subject for discussion. Forum 
sponsors include RTCA, the Air Traffic Control Association, the 
American Institute of Aeronautics and Astronautics, the Society of 
Automotive Engineers and others. NASA also participates in discussions 
with industry representative groups either at their initiation or at 
NASA's. Recent such discussions include those with the General Aviation 
Manufacturers Association, Aircraft Owners and Pilots Association and 
the Air Transport Association.

Q8b. LDo you believe better communication between NASA and airspace 
system users is important, and if so, how might it be addressed?

A8b. Interactive communication between NASA and the airspace users is 
essential for allowing these users to take maximum advantage of the 
content and value of NASA research efforts. NASA always strives to 
develop the best communication channels for improving the input of 
community users to the content and value of our research efforts. NASA 
will continue to make concerted efforts to improve interactions with 
the NAS user community both directly, through their representative 
organizations, and through NASA's formal Advisory Committee structure.

Q9. LThe FAA RE&D Advisory Committee recommended (4Feb02 letter to FAA 
on the FY04 budget review) that FAA develop a ``fully competent and 
expertly staffed organization to absorb and use the results of NASA's 
R&D.'' FAA's response to this recommendation was that its Free Flight 
Office does this. What efforts have been made by NASA to help ensure 
that new technology developed by NASA transitions to use by FAA?

A9. For the past several years, the primary FAA customer for NASA's Air 
Traffic Management technology has been the Free Flight Program Office. 
Three products were delivered to the Free Flight Phase 1 Program and an 
additional three are under development for delivery to the Free Flight 
Phase 2 Program. Of these six products, five were also included in the 
FAA's Operational Evolution Plan.
    Transition to FAA of technologies developed by NASA generally 
requires several steps, many of which can be lengthy. In addition to 
acquisition, these include resolution of issues related to changes in 
roles and responsibilities, acceptance of change in those roles and 
responsibilities, policy development, and the ability of the user 
community to provide their financial support for equipage.
    In an effort to mitigate these issues, NASA has worked with the FAA 
to develop plans that provide longer-range visibility, so that many of 
these issues can be addressed early enough to eliminate them as 
roadblocks. For example NASA, under some conditions, has provided funds 
to allow FAA personnel to participate in development tests. However, 
NASA cannot assume any role in the implementation of technology in FAA 
facilities beyond providing support for FAA activities.
    The long-term solution to this issue is the development of a 
National Plan for National Airspace System (NAS) transformation, which 
will define future ``target'' goals for the NAS. With significant 
participation from NASA and other government agencies, FAA is leading 
the development of this multi-agency plan. It will identify the 
requirements for development of technologies and procedures and for the 
implementation of the changes to the NAS. Implementation will consider 
the aspects mentioned above including acquisition, policy, and 
management of change and life cycle costs to accomplish the respective 
goals. The plan will describe the expectations of each of the parties 
responsible for implementing it, from technology development to 
implementation, thereby facilitating the transition of NASA technology 
to implementation by the FAA.

Questions submitted by Representative Sheila Jackson Lee

Q1. LMany nations are under pressure to reduce emissions of greenhouse 
gases in order to come into compliance with the Kyoto Protocol.

A1. The governing document concerning aviation and its impact on global 
climate change is the United Nations Intergovernmental Panel on Climate 
Change document entitled Aviation and the Global Atmosphere. This 
multi-year effort, which concluded in 1999 with the publishing of the 
final report, is the prime source for answers to the questions.

Q1a. LAre airplanes important contributors to global warming, due to 
their types of emissions, or the fact that they deliver contaminants 
higher in the atmosphere?

A1a. Global aircraft emissions account for about 3.5 percent of the 
global warming generated by human activities. However, jet aircraft are 
recognized to be the largest source of emissions deposited directly 
into the upper atmosphere. Carbon dioxide (CO<INF>2</INF>) is a primary 
product of jet fuel combustion, and survives in the atmosphere for over 
100 years. CO<INF>2</INF> is recognized to be a greenhouse gas. Other 
outputs from jet engines include water vapor, nitrogen oxides, soot, 
and sulfate combined with carbon dioxide. Atmospheric scientists 
project that these outputs could have as much as two to four times as 
great an impact on the atmosphere as carbon dioxide alone. However, 
further study and research are required to further understand and 
quantify the impacts.

Q1b. LWill these influence choices of civil aviation aircraft for 
future purchases?

A1b. Currently no rules exist regarding cruise emissions levels for 
commercial aircraft (subsonic or supersonic). However, the Europeans 
are advocating the development of such a rule through the International 
Civil Aircraft organization (ICAO). It is possible that such a rule 
will come into existence within the next 5-10 years and companies that 
have the technologies and reduced emission product designs (aircraft 
and engine) will be at a strong advantage with regard to other 
competitors.

Q1c. LAre we putting adequate resources into developing low-emissions/
efficient engines to meet demand?

A1c. NASA believes we are adequately supporting the technologies needed 
for the future. Two projects within NASA's Aeronautics Technology 
Vehicle Systems program, the Ultra-Efficient Engine Technology project 
and the Propulsion & Power project, are developing technology to reduce 
emissions and improve efficiency of aircraft engines. Current 
objectives for Ultra-Efficient Engine Technology are to develop and 
transfer technology by 2005 that reduces the emissions of oxides of 
nitrogen by 65 percent below the 1996 ICAO standards and by 2007 to 
reduce carbon dioxide emissions by 15 percent. The Propulsion & Power 
project has a longer-range view and is exploring technology to further 
reduce emissions. Both projects are adequately funded to meet these 
objectives.

Q1d. LHow are the European Union and Airbus doing relative to the U.S. 
in this area, and do you believe it will affect our already dwindling 
market share in civil aviation?

A1d. The European Union has a bold, well-coordinated plan among the 
government, industry, and university sectors to develop and demonstrate 
required technologies for future commercial aircraft opportunities. 
However, it is not yet clear whether European resources expended on 
this effort will be sufficient for them to meet their ambitious goals. 
In their published vision document, they indicate they will reclaim the 
aerospace leadership role from the United States by 2020. The available 
documentation for the programs that support this vision indicates they 
have efforts underway to develop and demonstrate turbine engine 
technologies that will result in significant reductions in global and 
local emissions. The published goals of this project are very 
consistent with those of the Ultra-Efficient Engine Technology (UEET) 
project. The published schedule, including engine demonstrations, is 
very ambitious. The European plan also includes aggressively scheduled 
longer-term technology efforts for low emissions propulsion concepts 
beyond turbine engine architectures.
                   Answers to Post-Hearing Questions
Responses by Charlie Keegan, Associate Administrator for Research and 
        Acquisitions, Federal Aviation Administration (FAA)

Questions submitted by Chairman Dana Rohrabacher

Q1. LWhat is the rationale for only funding safety and weather-related 
research in the R,E&D account?

A1. Safety is the FAA's highest priority, and research, engineering and 
development (R,E&D) is a key element in supporting the achievement of 
our safety goals. Weather is a significant safety concern, as it plays 
a role in approximately one fifth of aviation accidents. Accordingly, 
FAA's research program is heavily weighted toward those programs the 
agency feels are necessary for accident prevention as well as crew and 
passenger protection in the event of an accident. Yet, while safety is 
our first priority, the R,E&D account also supports research in other 
areas including air traffic management systems and avionics 
development, as well as a research program directed toward achieving 
the agency's goal of reducing the impact of aviation on the 
environment.

Q2. LWhat circumstances led FAA to divest itself of performing long-
term research and development for air traffic management technologies 
within the R,E&D account?

A2. Prior to FY 1999 the FAA included Capacity and Air Traffic 
Management Technologies Research, Communications, Navigation and 
Surveillance Research, and Airport Technology Research in its R,E&D 
budget request. In FY 1999, Congress transferred $52.6M from the R,E&D 
appropriation to the Facilities & Equipment appropriation, created the 
Advanced Technology Development and Prototyping budget item, and moved 
the Capacity and Air Traffic Management Technologies Research, 
Communications, Navigation and Surveillance Research, and Airport 
Technology Research into that line item.
    It is our understanding that Congress transferred these activities 
because, according to the House Committee Report (H.R. Rep. No. 105-
648), they fit closely with other F&E funded activities and management 
of these related programs would be improved by funding them together in 
a single budget item.
    In keeping with this Congressional guidance, the FAA continues to 
include these programs in the Advanced Technology and Prototyping 
budget item in its request for Facilities & Equipment reauthorization.

Q3. LNASA's FY04 budget request proposes to spend $100 million over 
five years for the National Airspace System Transition Initiative that 
will support, in part, the Joint Program Office. How much funding has 
FAA requested for the Joint Program Office?

A3. Because FAA has just begun informal coordination with NASA, the 
Department of Defense (DOD), the Department of Homeland Security (DHS), 
the Office of Science and Technology Policy (OSTP), and the Department 
of Commerce (DOC) to address these long-term research needs, the FAA 
has not yet identified specific funding requirements in current funding 
requests.
    Research and development for the highly automated next generation 
air traffic management system will be accomplished through 
collaboration with NASA and other partners. NASA's Next NAS is the 
first step in the research that will fulfill this national mission. 
Other activities and resources will be identified through the creation 
of a national plan for the air transportation system of 2020 and 
beyond.

Questions submitted by Representative Bart Gordon

Q1. LFAA and NASA are involved in efforts to establish a unified 
interagency aviation R&D program (NASA, FAA, DOD, DOC and DHS), 
including a process for developing a research plan and for providing 
periodic program reviews. Is OMB part of this planning process? What is 
the current status of the consolidated interagency research plan? Will 
we see results of this effort in the President's FY05 budget?

A1. FAA, NASA, DOD, DOC, and DHS are currently holding preliminary 
discussions on how to proceed with integrated planning for the creation 
of a national plan for the air transportation system of 2020 and 
beyond. It is difficult at this early stage to specify the resources we 
will need. However, as preliminary planning progresses to the point of 
interagency agreement, we will be in a better position to identify our 
needs. We will consult with OMB throughout the development of the plan, 
as OMB plays an integral role in coordinating multi-agency efforts.

Q2. LSince insufficient funding seems to be a problem for both NASA and 
FAA's R&D programs, will the interagency group have the authority to 
propose and defend budget requests for the total Federal aviation R&D 
effort? If not, how can we be assured that adequate resources are 
proposed for the R&D areas that are high priorities?

A2. We do not expect the interagency group to have the authority to 
propose and defend budget requests for the total Federal aviation R&D 
effort. Each agency will, however, institutionalize within its planning 
documents and programs the appropriate elements of the National Plan 
and have responsibility of building and defending their budget based on 
their contribution to the National Plan. Each department is expected to 
manage their related programs in accordance with the National Plan 
developed by the interagency group.

Q3. LThe RE&D Advisory Committee in its July 2002 recommendations to 
FAA following review of FAA's planned FY04-08 R&D investments, 
indicated endorsement of a $15 million budget increase to supplement 
the NASA Quiet Aircraft Technology project and to sustain FAA's Center 
of Excellence for Aircraft Noise Mitigation. Why didn't FAA put the 
recommended funding in your FY 2004 budget request?

A3. While the FAA considers noise research important, safety related 
R&D programs have a higher priority within our R,E&D program. However, 
in the Flight-100 reauthorization proposal, FAA proposes using a small 
part ($20 million) of the noise set-aside of the Airport Improvement 
Program (AIP) fund for research to advance technology to mitigate 
aircraft noise and aviation emissions in collaboration with NASA, 
industry, and academia. Also, FAA will establish by year-end a Center 
of Excellence focused specifically on aviation environmental issues. 
Initially, Center of Excellence research projects will be funded 
through grants that require matching funds from the grantee, thereby 
leveraging U.S. government research dollars with funds from 
participating industry and educational institutions.

Q4. LThe 2002 National Research Council (NRC) report, ``For Greener 
Skies: Reducing Environmental Impacts of Aviation,'' goes on to suggest 
that federal agencies should realign research goals with funding 
allocations to avoid raising unrealistic expectations for reducing 
aviation noise. That is, either relax noise goals or increase R&D 
funding. For example, the report shows the declining trend in aircraft 
noise generation from 1960 to 1997 suddenly needing to change sharply 
downward in order to meet NASA's stated 2007 and 2022 noise goals, 
while the annual federal noise reduction R&D budget, in constant 
dollars, is now only about 50 percent of its average level for the past 
10 years.

Q4a. LWhat is your reaction to the NRC report's recommendation?

A4a. The FAA welcomes the NRC findings and recommendations. The FAA 
shares the concern that unless environmental issues are properly 
addressed they will increasingly limit air transportation growth. In 
this regard, the Federal Government continues to play a vital role in 
achieving aviation environmental compatibility just as it has done in 
achieving the significant decrease in the number of people affected by 
aircraft noise. We will continue our balanced approach to noise issues 
for aviation.

Q4b. LDo you believe that the NASA noise goals can be reached with the 
current level of R&D investment, or should the goals be watered down?

A4b. The FAA wholly endorses the long-term national goal of containing 
objectionable aircraft noise within airport and compatible land use 
boundaries and is working in close partnership with NASA to achieve 
that goal.
    Government-funded research, in which industry and academia play an 
important role, is critical in advancing aviation noise reduction 
technology. The FAA does not believe that the long-term goal of 
reducing aviation's noise impact should be scaled back. Although 
reaching NASA's noise goals will prove challenging, the FY 2002 and 
2003 appropriations gave the FAA a new role as a direct, equal partner 
with NASA so that we can help accelerate the introduction of lower 
noise aircraft technologies.
    The FAA is seeking to bolster its commitment to long-term noise 
reduction R&D in its Flight-100 proposal. The proposal dedicates a 
limited amount ($20 million) from the noise-set aside funding in AIP 
monies for research efforts to reduce aircraft noise and emissions at 
the source.

Q5. LHow does the Federal Interagency Committee on Aviation Noise 
function? What are NASA's and FAA's roles? Does the committee produce 
an interagency research plan? If so, please provide a copy of that plan 
to the Committee.

A5. The FAA, along with NASA, DOD, the Department of Interior (DOI/
NPS), the Department of Housing and Urban Development (HUD) and the 
Environmental Protection Agency (EPA) form the Federal Interagency 
Committee on Aviation Noise (FICAN). The purpose of the FICAN is to 
provide public forums for debate on future research needs and to 
encourage new development efforts in the areas of aircraft noise 
assessment, control, and reduction.
    The Committee meets at least quarterly, conducts one or more public 
sessions or symposium each year, and publishes an annual report of its 
activities. When appropriate, the FICAN issues findings on particular 
aviation noise issues such as, the effects of aviation noise (1997), 
research on natural quiet (2000), and the effects of noise in the 
classroom (2000).
    Each participating agency agrees to provide administrative support 
commensurate with its level of participation in the FICAN either 
directly, or by contributing funding for a central administrative 
support contract. The FICAN does not have its own research budget and 
therefore does not have a research plan, but the participating agencies 
do conduct research that supports the FICAN objectives.

Q6. LIn response to a recommendation by the RE&D Advisory Committee 
that FAA develop comprehensive human-system integration plans, FAA's 
response was that:

        L``funding constraints do not accommodate robust assessment of 
        human-system integration considerations across all operational 
        conditions associated with new technologies and capabilities.''

    LWhat has been the experience at FAA when new technologies were 
introduced into operating environments without adequate consideration 
of human factors?

A6. Aviation safety and security improvements are dependent on 
developing a national aviation system that is not only technically 
sophisticated, but also human performance based and human-centered. One 
of the lessons the FAA has learned from past technology programs is 
that a lack of focus on human factors can result in increased costs 
caused by re-engineering and schedule delays.
    Therefore, it is essential that human factors specialists remain 
full partners in the development and deployment of advanced aviation 
technologies. With that in mind, the FAA now requires that human 
factors be systematically integrated at each critical step in the 
design, testing, and acquisition of new technology introduced into the 
national aviation system.
    We also conduct annual human factors engineering reviews for 
systems currently being acquired by the FAA. In FY 2002, for example, 
88 of 104 systems were assessed as meeting human factors policies, 
processes, and best practices. For those systems that do not meet the 
human factors policies, processes, and best practices, the assessments 
are followed by appropriate corrective actions.

Q7. LWhat is the rationale for the FY04 budget request for human 
factors research, which is five percent below the FY03 appropriated 
level?

A7. While the Human Factors components of the R,E,&D budget request are 
lower than last year, because funding for human factors research is 
spread across multiple appropriations, the FAA has been able to shift 
some of its work to other accounts.
    For example, to meet critical human factors needs and to ensure 
effective implementation of new technologies, the Integrated Product 
Teams (IPTs) use Facilities and Equipment and Operations funding 
sources for their human factors specialists to undertake the necessary 
studies of human-system integration. Human factors reviews of these 
studies show that the IPTs can effectively address implementation 
issues without impact from reduced FY04 funding for human factors 
research.

Q8. LIn response to a recommendation of the RE&D Advisory Committee 
that FAA recognize and champion NASA research directed toward achieving 
capacity and safety gains for the air traffic management system, FAA 
stated that:

        L``FAA has not had the resources to fully participate in the 
        technical effort with NASA that we feel are necessary to help 
        guide long-term R&D.''

Q8a. LIsn't this a major impediment to ensuring that NASA research is 
relevant to FAA's needs, and doesn't it contribute to the problem of 
transitioning NASA's research results to FAA operational systems?

A8a. Transitioning NASA research to FAA operational systems has been 
difficult, but it is critical that FAA concentrate its resources on the 
immediate needs of the Nation's air transportation system. To improve 
this situation and to facilitate an easier transition of NASA products 
into the National Airspace System (NAS), the FAA's NASA Ames Field 
office has begun an effort with NASA to identify key NASA technologies 
suitable for more rapid transition into the NAS. In addition, we have a 
technology transfer process now, which we have demonstrated to be very 
successful.
    The Traffic Management Advisor (TMA) is a prime example of a new 
technology developed by NASA and successfully transitioned into the 
NAS. The new TMA technology was first implemented as an operational 
prototype at the Fort Worth Air Route Traffic Control Center. The 
associated prototype software was then re-engineered at six additional 
sites. The re-engineering involved specific site operational 
requirements as well as the necessary artifacts for life-cycle support. 
The use of TMA National User Teams comprised of both management and 
labor facilitated the transition into the NAS.

Q8b. LGiven your stated lack of resources, how will you ensure that 
NASA's research is relevant to FAA's needs?

A8b. FAA's work with NASA, DOD, DHS, OSTP, and DOC in establishing a 
unified national plan for the air transportation system of 2020 and 
beyond, will provide the context for NASA's aeronautics research 
efforts, as well as continued support of the interagency integrated 
product team.

Questions submitted by Representative Sheila Jackson Lee

Q1. LMany nations are under pressure to reduce emissions of greenhouse 
gases in order to come into compliance with the Kyoto Protocol.

Q1a. LAre airplanes important contributors to global warming, due to 
their types of emissions, or the fact that they deliver contaminants 
higher in the atmosphere?

A1a. Although airplanes do have an impact on global warming, aviation 
emissions remain a very small source of air pollution. A recent GAO 
study noted that in the United States, aviation contributes less than 
0.5 percent of air pollutants. Also, due to recent reductions in 
aviation activity, aviation-related air pollution emissions have 
declined significantly in the past two years. However, because of the 
altitude at which aviation emissions occur, their proportionate impact 
on global warming is arguably higher.
    In 1999 the Intergovernmental Panel on Climate Change (IPCC), which 
was established in 1988 by the World Meteorological Organization (WMO) 
and the United Nations Environment Program (UNEP), published a special 
report on Aviation and the Global Atmosphere, which constitutes the 
most current authoritative view on the state of the science and 
technology related to aviation's potential impact on the atmosphere.
    The report concludes that, ``Aircraft emit gases and particles 
directly into the upper atmosphere and lower stratosphere where they 
have an impact on atmospheric composition. These gases and particles 
alter the concentration of atmospheric greenhouse gases, including 
carbon dioxide, ozone, and methane; trigger formation of condensation 
trails (contrails); and may increase cirrus cloudiness, all of which 
contribute to climate change.''

Q1b. LWill this influence choices of civil aviation aircraft for future 
purchases?

A1b. Yes, it will have an impact. An airline's choices of future 
aircraft purchases are driven by a variety of factors including fuel 
efficiency. All other factors being equal, the amount of emissions 
produced by an aircraft is essentially proportional to fuel 
consumption, which is proportional to flight activity.
    To the extent that airlines purchase aircraft with improved fuel 
efficiency, there is the potential for reduced emissions. However 
depending upon the aircraft and engines selected there can be tradeoffs 
between reduced carbon dioxide emissions and increased emissions of 
nitrogen oxides, which can be specific to the engine combustor. 
Nitrogen oxide emissions are precursors of ozone.
    In addition to concerns over climate change, national ambient air 
quality standards established by the EPA drive the need to reduce 
emissions during the landing and takeoff (LTO) cycle of aircraft around 
airports. These air quality standards also include ozone.
    Again, depending upon the aircraft and engine selected there can be 
tradeoffs to consider in achieving reduced nitrogen oxide emissions 
during the LTO cycle versus nitrogen oxide emissions at altitude, as 
well as other tradeoffs with emissions of carbon monoxide and unburned 
hydrocarbons that are primarily generated during ground idle and taxi 
operations. Thus, the choice of aircraft is a complex decision that 
cannot be solely tied to emissions that potentially impact climate 
change.

Q1c. LAre we putting adequate resources into developing low-emissions/
efficient engines to meet demand?

A1c. The FAA's research in developing low-emissions/efficient engines, 
like much of our work on environmental technology, is done 
collaboratively with NASA and industry. So far, this collaboration has 
been productive, examining new approaches to engine design, retrofit of 
older engines, and changes to airfoil design to improve aircraft engine 
efficiency and thereby reduce emissions.
    At present, it is very difficult to quantify the demand for low 
emission aircraft. However, it is likely that as concern about the 
impact of aircraft emissions continues to grow that additional 
regulations and requirements in various markets, such as Europe, will 
likely increase the demand for aircraft that use low emission 
technology.

Q1d. LHow are the European Union and Airbus doing relative to the U.S. 
in this area, and do you believe it will affect our already dwindling 
market share in civil aviation?

A1d. The European Union and Airbus have taken an interest in emissions 
reduction technology. However, the FAA and NASA are strongly committed 
to pursuing initiatives, both in a research and operational 
environment, to reduce aircraft emissions. While it is extremely 
difficult to predict, what, if any, market share advantage there might 
be at such an early stage of the technology's development, the U.S. is 
making strong efforts to stay competitive in this aspect of aviation 
research. Several projects, conducted jointly with NASA, are developing 
and testing new engine technologies that can have a substantial impact 
on aircraft emissions. One of these is an initiative to substantially 
reduce the level of nitrous oxide in high level jet aircraft emissions 
through more efficient combustion in large jet aircraft engines.
                   Answers to Post-Hearing Questions
Responses by R. John Hansman, Jr., Professor of Aeronautics and 
        Astronautics; Director, MIT International Center for Air 
        Transportation, Massachusetts Institute of Technology

Questions submitted by Representative Bart Gordon

Q1. LYou pointed out in your testimony that research funding level sat 
NASA and FAA for activities related to the National Airspace System 
have been flat or declining for the past five years.

Q1a. LHas your advisory committee made explicit recommendations to FAA 
regarding what would be an adequate funding level for such research?

A1a. First, I must point out that while I am a member of the R,E&D 
Advisory Committee, I am not it's Chair so my responses represent my 
personal view or my best recollection.
    The R,E&D Advisory Committee has recommended some specific programs 
and funding levels but I am not sure if we have recommended an 
aggregate funding level. The Committee has generally worked with the 
preliminary budget assumptions presented by the FAA and attempted to 
help the FAA prioritize within these budget constraints.
    While there has been a clear sense that the budget levels were not 
adequate, it was thought that general requests for increased funding 
would not be considered credible.

Q1b. LIs this matter discussed between the FAA and NASA advisory 
committees, which now have some members in common?

A1b. It has been discussed in general terms.

Q2. LIn your testimony, you mentioned the need for more research on the 
processes of air transportation system transition. Has your advisory 
committee made specific recommendations to FAA, and how has the agency 
responded?

A2. The issue of transition and modernization has been a focus of the 
Air Traffic Services Subcommittee of the R,E&D advisory committee for a 
number of years. While the FAA has made improvements in their 
transition process with the Operational Evolution Plan and other 
efforts, I am not aware of research being done in identifying 
fundamental barriers to transition.

Q3. LWhat guidance has the R,E&D advisory committee provided FAA 
regarding human factors research and what level of priority would you 
ascribe to such research?

A3. The R,E&D advisory committee has a Human Factors Subcommittee. We 
review the elements of the Human Factors research program although we 
do not review the human factors efforts in the F&E programs. The FAA 
has increased it's awareness of human factors issues and has maintained 
reasonable support for human factors over the past few years.
    I would note a specific area of concern for human factors research 
is the lack of access to the operational environment for the research 
community. Since September 11, security considerations have limited 
access to operational environments such as air traffic facilities, 
flight decks, and maintenance facilities. Such access is critical to 
develop systems which include consideration of the real human factors 
issues. While there is a legitimate need to maintain a secure air 
transportation system, processes need to be developed to give 
legitimate members of the research community access to the operational 
environment.

Q4. LHow helpful and forthcoming is FAA in assisting your committee in 
its review of R&D programs? Does you committee have access to 
information about all FAA R&D programs? If not, what information is 
withheld?

A4. The FAA has beef very helpful and forthcoming in assisting the 
R,E&D advisory committee and it's subcommittees. The most significant 
difficulty has been the limited time the committee members can devote 
to the process which limits the depth of review. The R,E&D advisory 
committee is reviewing it's own processes to see if it can become more 
efficient and effective in it's advisory role.

Q5. LDoes the advisory committee review all R&D programs, regardless of 
the appropriations account from which it is budgeted? At a minimum, 
does the committee review all of the programs described in the annual 
National Aviation Research Plan?

A5. The R,E&D advisory committee reviews all the research in the 
National Aviation Research Plan although the depth of review varies due 
to time limitations and different processes used by the subcommittees. 
The committee does not review in a systematic or comprehensive manner 
research and development elements supported by Facilities and Equipment 
funds. The committee also does not review the content of research and 
development activities at MITRE.

Q5a. LIf not, why not?

A5a. There is some ambiguity as to what research and development is 
within the purview of the R,E&D advisory committee.

Q6. LIn its comments on its review of the FAA's planned FY04-08 R&D 
investments, your advisory committee stated that the ``movement of 
money from R&D to Facilities and Equipment creates several impediments 
to the conduct of research.''

Q6a. LCould you elaborate on what the committee believes are the most 
significant of these impediments?

A6a. The movement of a significant fraction of the R&D funds to 
Facilities and Equipment (F&E) makes it difficult to have an balanced 
research portfolio. The F&E activities constitute a significant 
fraction of the research funds but must be narrowly applied. There is a 
loss of capability in more basic, anticipatory or cross cutting 
research which cannot be tied to a specific acquisition effort. For 
example, it is my understanding that basic research grants cannot be 
funded from F&E funds even if the work would have significant relevance 
to F&E acquisitions.

Q7. LThe R,E&D Advisory Committee in its comments on its review of 
FAA's planned FY04-08 R&D investments stated that it supports FAA's 
aviation weather program being funded at the ``base level.'' FAA's FY04 
request for weather research is $21 million, compared with FY03 
appropriate of $34 million. What does your committee recommend as the 
`` base level''?

A7. I believe that the ``base level'' was in the range from $25 million 
to $30 million.

Q8. LThe R,E&D Advisory Committee has called on FAA to conduct a study 
to evaluate the effectiveness of current research in aircraft noise and 
emissions reduction technologies. What findings led the committee to 
this recommendation? What entity should carry out this study?

A8. This was motivated by the 2002 National Research Council (NRC) 
report, ``For Greener Skies: Reducing Environmental Impacts of 
Aviation'' report and by the observations of the members of the 
subcommittee on environment and energy. The entity that carries out 
this study should be independent such as the national research council 
with membership from academia and the stakeholder groups, airlines, 
airports, community groups, etc.

Q9. LThe R,E&D Advisory Committee made recommendations regarding 
increased efforts for characterization of aircraft emissions and 
provision for modeling of the effects of emissions that seem to suggest 
the relevant FAA budget is deficient. The FY04 R&D request for engine 
emissions is $2.4 million.

Q9a. LIs this adequate, and if not, has the Advisory Committee made any 
explicit funding recommendations?

A9a. After conferring with the Chair of the Environmental Subcommittee, 
it was his best recollection that this was not considered adequate and 
that the subcommittee discussed a 50 percent increase although it was 
not formally recommended.

Q9b. LHas your advisory committee made explicit recommendations for 
what would constitute an appropriate funding level for the FAA 
Environment and Energy program, and if so, what has been the agency's 
response to your recommendations?

A9b. The recommendation of the R,E&D Advisory Committee on funding for 
environment and energy was that funding should be at the $22 million 
level.

Q10. LThe 2002 National Research Council (NRC) report, ``For Greener 
Skies: Reducing Environmental Impacts of Aviation,'' recommends that 
federal expenditures to reduce noise should be reallocated to shift 
some funds from local abatement, which provides near-term relief for 
affected communities, to research and technology that will ultimately 
reduce the total noise produced by aviation. Currently, funding for 
abatement activities by FAA totals approximately 18 times federal R&D 
related to noise.

Q10a. LPlease commend on the feasibility of this recommendation.

A10a. There are no significant problems with this recommendation that I 
am aware of although Congress may have to direct that the funds be 
spent in this way.

Q10b. LIn general, does FAA consider cost/benefit tradeoffs of the kind 
suggested here across different major categories of its budget?

A10b. I am not aware that they do.

Q11. LThe R,E&D Advisory Committee in its July 2002 recommendations to 
FAA following review of FAA's planned FY04-08 R&D investments, 
indicated endorsement of a $15 million budget increase to supplement 
the NASA Quiet Aircraft Technology project and to sustain FAA's Center 
of Excellence for Aircraft Noise Mitigation.

Q11a. LDo you understand why this funding did not materialize in the 
FY04 budget request?

A11a. No.

Q11b. LDo you believe FAA's FY04 request for noise research, $4 
million, is sufficient?

A11b. No.

Q11c. LWhat level of funding would be consistent with its importance 
and with being able to exploit opportunities for aircraft noise 
reduction?

A11c. Funding at the $19 million level would be appropriate.

Q12. LThe R,E&D Advisory Committee recommended (4Feb02)letter to the 
FAA on the FY04 budget review) that the FAA develop a ``fully competent 
and expertly staffed organization to absorb and use the results of 
NASA's R&D.'' FAA's response to this recommendation was that its Free 
Flight Office does this.

Q12a. LDoes the Advisory Committee find this to be a satisfactory 
response: does the Free Flight Office function effectively in the tech 
transfer role?

A12a. It does not appear that the Free Flight Office can fulfill the 
role that the R,E&D Advisory Committee envisioned.

Questions submitted by Representative Sheila Jackson Lee

Q1. LMany nations are under pressure to reduce emissions of greenhouse 
gasses in order to come into compliance with the Kyoto Protocol.

Q1a. LAre airplanes important contributors to global warming, due to 
their types of emissions, or the fact that they deliver contaminants 
higher in the atmosphere?

A1a. Airplanes contribute about 3.5 percent of total man-made forcing. 
Their emissions contain the same chemical species as those from land-
based hydrocarbon combustion (e.g., automobiles). However, the 
deposition at altitude causes more severe impacts because of physical 
processes (e.g., contrails) and chemical processes (e.g., lower 
background concentrations of some species--relatively more pristine 
environment). To first order, burning a gallon of fuel at 30,000 ft. 
has double the impact of burning a gallon of fuel at sea-level. Another 
significant difference is the very asymmetrical distribution of 
pollution (northern versus southern hemisphere). This is expected to 
further augment the role of aviation in climate change.

Q1b. LWill this influence choices of civil aviation aircraft for future 
purchases?

A1b. It is likely that it will. There is some evidence that local and 
national governments may institute emissions based restrictions and 
trading programs.

Q1c. LAre we putting adequate resources into developing low-emissions/
efficient engines to meet demand?

A1c. We are putting in enough on engines, but it is the whole aviation 
system that produces the emissions. Within the engine there are some 
difficult trades--such trades may not be apparent within airframe or 
operations. Work to find emissions improvements in these areas is under 
funded. Further, much of the science is a moving target right now and 
we are not investing enough money in understanding the unique impacts 
of aviation.

Q1d. LHow are the European Union and Airbus doing relative to the U.S. 
in this area, and do you believe it will affect our already dwindling 
marketshare civil aviation?

A1d. The European Union and Airbus are putting more effort and 
resources into environmental effects. If they also put in place strict 
standards (like emissions trading, which they intend to do), then we 
may be at a disadvantage.
                   Answers to Post-Hearing Questions
Responses by Malcolm B. Armstrong, Senior Vice President, Aviation 
        Operations and Safety, Air Transport Association

Question submitted by Representative Bart Gordon

Q1. LYou point out that NASA funding for environmental research in 
noise and emissions has been less than half of what has been needed 
over the past few years. You also note the importance of federal 
funding to develop new technologies to a level of technological 
readiness sufficient to allow the private sector to perform testing and 
advanced development to transition promising technologies to commercial 
applications. In addition to inadequacies in the funding level for 
environmental R&D, does NASA support R&D for new technologies far 
enough in the development path to bring them to the technology 
readiness level at which industry will take over?

A1. The question appears to ask us to distinguish the funding level 
issue from other NASA support that may be provided in the development 
of new aeronautics technologies.
    Unfortunately, if there is insufficient funding for aeronautics 
research, new technologies generally cannot be developed to the 
technology readiness level (``TRL'') that is needed for industry to 
fully take over, even if NASA is willing to continue to provide other 
non-funding support.
    As you no doubt are aware, NASA's TRL scale includes nine steps. As 
applied to aeronautics, the scale typically is presented as follows:

Technology Readiness Levels Summary

TRL 1 Basic principles observed and reported

TRL 2 Technology concept and/or application formulated

TRL 3 Analytical and experimental critical function and/or 
characteristic proof-of-concept

TRL 4 Component and/or breadboard validation in laboratory environment

TRL 5 Component and/or breadboard validation in relevant environment

TRL 6 System/subsystem model or prototype demonstration in a relevant 
environment

TRL 7 System prototype demonstration in flight environment

TRL 8 Actual system completed and ``flight qualified'' through test and 
demonstration

TRL 9 Actual system ``flight proven'' on operational flight

    While the public-private partnership continues throughout the TRLs 
of a typical aeronautics R&D project, it is well accepted that to have 
a reasonable chance at commercial development and application, R&D 
programs must be brought through TRL 6 with government funding. In 
fact, this was a specific finding in the recent report of the National 
Research Council with respect to new technologies to enhance 
environmental performance. See National Research Council, ``For Greener 
Skies: Reducing Environmental Impacts of Aviation,'' at 21, 47 (2002). 
The same report found that the NASA and FAA aeronautics programs for 
environmental development are under funded, such that they are bringing 
many of their noise and emissions programs only to TRL 4.
    We are seeing the same trend overall in aeronautics research and 
development generally, as research funds are diminishing (as I pointed 
out in my testimony, in some cases because they are being diverted to 
the space program). Accordingly, based on these trends, we are 
concerned that NASA will have greater and greater difficulty providing 
the support necessary to bring new aeronautics technologies forward to 
TRL levels adequate to have significant chances at commercial 
application.

Questions submitted by Representative Sheila Jackson Lee

Q1. LMany nations are under pressure to reduce emissions of greenhouse 
gases in order to come into compliance with the Kyoto Protocol.

Q1a. LAre airplanes important contributors to global warming, due to 
their types of emissions, or the fact that they deliver contaminants 
higher in the atmosphere?

A1a. Aviation emits ``greenhouse gas emissions'' that are attributed to 
climate change. However, studies show that aviation is a small 
contributor, even taking into account the fact that much of the 
emissions from commercial aviation occur at significant altitudes. In 
1999, the Intergovernmental Panel on Climate Change, a technical body 
established by the World Meteorological Organization and United Nations 
Environmental Programme, released a comprehensive study on this issue. 
Using radiative forcing (``RF'') as a metric, which allows the location 
and volume of the various emissions attributable to climate change 
(whether positive or negative) to be taken into account, the IPCC found 
that aviation contributes approximately 3.5-4.0 percent of total RF 
attributed to human sources as measured against a pre-industrial 
atmosphere. See Intergovernmental Panel on Climate Change, ``Aviation 
and the Global Atmosphere,'' at 187-88 (1999) (hereinafter ``IPCC 
Report''). While this contribution is not particularly significant 
compared to other sources, we take our contribution to the environment 
very seriously, and seek to minimize our emissions to the extent 
possible.

Q1b. LWill this influence choices of civil aviation aircraft for future 
purchases?

A1b. Greenhouse gas emissions, particularly the most prevalent one--
carbon dioxide (CO<INF>2</INF>)--are products of the combustion of 
fossil fuel. Given that fuel is the second highest cost to airlines, we 
have long had an incentive to buy the aircraft within mission 
parameters that are as fuel-efficient as possible. We likewise have an 
incentive to manage our operations as fuel efficiently as possible. In 
fact, Federal Aviation Administration statistics confirm that the North 
American airlines have achieved a 109 percent gain in fuel efficiency 
since 1975. This is a ``win-win'' for industry and the environment, as 
greenhouse gas emissions are minimized as we minimize our fuel burn 
and, hence, our operating expenses.

Q1c. LAre we putting adequate resources into developing low-emissions/
efficient engines to meet demand?

A1c. ATA and its airlines are very supportive of the programs at NASA 
and FAA to make further strides in low-emissions/efficient engines. 
However, we are concerned that funding cuts in recent years puts the 
results of those programs in jeopardy. NASA's Ultra-Efficient Engine 
Technology (``UEET'') Program is intended to seek ways to reduce 
CO<INF>2</INF> and oxides of nitrogen (NO<greek-KH>) emissions from 
aircraft engines. However, this program is funded at significantly 
lower levels than previous NASA emissions programs and does not address 
other aviation emissions. As confirmed by the National Research 
Council, this program is not funded sufficiently to meet its own 
milestones and federal research dollars for emissions-related R&D are 
insufficient to meet the challenges for continued environmental 
progress. See National Research Council, ``For Greener Skies: Reducing 
Environmental Impacts of Aviation,'' at 33 (2002).

Q1d. LHow are the European Union and Airbus doing relative to the U.S. 
in this area, and do you believe it will affect our already dwindling 
marketshare in civil aviation?

A1d. Federal investment in aeronautics R&D has been shown to play an 
important role in the competitiveness of our industry. At the same time 
that the United States has been decreasing our investment in aviation 
R&D, the European Community has been increasing their investment. In 
fact, the various States in the European Union have now created an 
over-riding entity, the Advisory Council for Aeronautics Research in 
Europe (``ACARE''), to combine and leverage their R&D investments, with 
the stated goal of making Europe ``the uncontested world leader in 
aeronautics'' by 2020. See ``European Aeronautics: A Vision for 2020,'' 
(January 2001) and ACARE web site, at http://www.acare4europe.org/. To 
the extent that the Europeans continue to put greater R&D dollars into 
their aeronautics program, and the United States continues the trend of 
decreased investments, it is inevitable that this will affect the 
competitiveness of our industry.
                              Appendix 2:

                              ----------                              


                   Additional Material for the Record


<SKIP PAGES = 000>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
